<html>
<title> - U.S. DEPARTMENT OF VETERANS AFFAIRS MEDICAL CARE: THE CROWN JEWEL AND BEST KEPT SECRET</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




                  U.S. DEPARTMENT OF VETERANS AFFAIRS
                     MEDICAL CARE: THE CROWN JEWEL
                          AND BEST KEPT SECRET

=======================================================================

                                HEARING

                               before the

                         SUBCOMMITTEE ON HEALTH

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 19, 2009

                               __________

                           Serial No. 111-22

                               __________

       Printed for the use of the Committee on Veterans' Affairs







                  U.S. GOVERNMENT PRINTING OFFICE
49-920                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     HENRY E. BROWN, Jr., South 
Dakota                               Carolina
HARRY E. MITCHELL, Arizona           JEFF MILLER, Florida
JOHN J. HALL, New York               JOHN BOOZMAN, Arkansas
DEBORAH L. HALVORSON, Illinois       BRIAN P. BILBRAY, California
THOMAS S.P. PERRIELLO, Virginia      DOUG LAMBORN, Colorado
HARRY TEAGUE, New Mexico             GUS M. BILIRAKIS, Florida
CIRO D. RODRIGUEZ, Texas             VERN BUCHANAN, Florida
JOE DONNELLY, Indiana                DAVID P. ROE, Tennessee
JERRY McNERNEY, California
ZACHARY T. SPACE, Ohio
TIMOTHY J. WALZ, Minnesota
JOHN H. ADLER, New Jersey
ANN KIRKPATRICK, Arizona
GLENN C. NYE, Virginia

                   Malcom A. Shorter, Staff Director

                                 ______

                         SUBCOMMITTEE ON HEALTH

                  MICHAEL H. MICHAUD, Maine, Chairman

CORRINE BROWN, Florida               HENRY E. BROWN, Jr., South 
VIC SNYDER, Arkansas                 Carolina, Ranking
HARRY TEAGUE, New Mexico             CLIFF STEARNS, Florida
CIRO D. RODRIGUEZ, Texas             JERRY MORAN, Kansas
JOE DONNELLY, Indiana                JOHN BOOZMAN, Arkansas
JERRY McNERNEY, California           GUS M. BILIRAKIS, Florida
GLENN C. NYE, Virginia               VERN BUCHANAN, Florida
DEBORAH L. HALVORSON, Illinois
THOMAS S.P. PERRIELLO, Virginia

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.






                            C O N T E N T S

                               __________

                              May 19, 2009

                                                                   Page
U.S. Department of Veterans Affairs Medical Care: The Crown Jewel 
  and Best Kept Secret...........................................     1

                           OPENING STATEMENTS

Hon. Harry Teague................................................     1
Chairman Michael H. Michaud, prepared statement of...............    37
Hon. Henry E. Brown, Jr., Ranking Republican Member..............     3
    Prepared statement of Congressman Brown......................    38

                               WITNESSES

U.S. Department of Veterans Affairs, Paul J. Hutter, Chief 
  Officer, Legislative, Regulatory, and Intergovernmental 
  Affairs, Veterans Health Administration........................    28
    Prepared statement of Mr. Hutter.............................    61

                                 ______

Altarum Institute, Ann Arbor, MI, John King, Co Director, 
  Veterans Community Action Teams Mission Project................    14
    Prepared statement of Mr. King...............................    52
American Psychological Association, Jeffrey W. Pollard, Ph.D., 
  ABPP, Director, Counseling and Psychological Services, George 
  Mason University, Fairfax, VA..................................    22
    Prepared statement of Dr. Pollard............................    59
Easter Seals, Inc., Randall L. Rutta, Executive Vice President, 
  Public Affairs.................................................    20
    Prepared statement of Mr. Rutta..............................    55
Give an Hour, Bethesda, MD, Barbara Van Dahlen Romberg, Ph.D., 
  Founder and President..........................................    16
    Prepared statement of Dr. Romberg............................    46
Iraq and Afghanistan Veterans of America, Reynaldo Leal, Jr., 
  Representative.................................................     5
    Prepared statement of Mr. Leal...............................    40
National Association for Uniformed Services, Richard A. ``Rick'' 
  Jones, Legislative Director....................................     7
    Prepared statement of Mr. Jones..............................    42
Trilogy Integrated Resources, San Rafael, CA, Bruce Bronzan, 
  President......................................................    18
    Prepared statement of Mr. Bronzan............................    45
Vietnam Veterans of America, John Rowan, National President......     4
    Prepared statement of Mr. Rowan..............................    38

                       SUBMISSIONS FOR THE RECORD

Florida Department of Veterans' Affairs, Rear Admiral LeRoy 
  Collins, Jr., USNR (Ret.), Executive Director, statement.......    70
Stearns, Hon. Cliff, a Representative in Congress from the State 
  of Florida, statement..........................................    70

                   MATERIAL SUBMITTED FOR THE RECORD

Hon. Michael H. Michaud, Chairman, Subcommittee on Health, 
  Committee on Veterans' Affairs, to Hon. Eric K. Shinseki, 
  Secretary, U.S. Department of Veterans Affairs, letter dated 
  June 3, 2009, and VA Responses.................................    72

 
                  U.S. DEPARTMENT OF VETERANS AFFAIRS
                     MEDICAL CARE: THE CROWN JEWEL
                          AND BEST KEPT SECRET

                              ----------                              


                         TUESDAY, MAY 19, 2009

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                                    Subcommittee on Health,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 2:08 p.m., in 
Room 334, Cannon House Office Building, Hon. Harry Teague 
presiding.
    Present: Representatives Teague, Snyder, Donnelly, 
Perriello, and Brown of South Carolina.

  OPENING STATEMENT OF CHAIRMAN MICHAUD, AS PRESENTED BY HON. 
                          HARRY TEAGUE

    Mr. Teague [presiding]. The Subcommittee on Health will now 
come to order. I would like to thank everyone for coming today. 
This Subcommittee on Health hearing will assess the U.S. 
Department of Veterans Affairs' (VA's) responsibility to 
conduct an outreach program to veterans of all eras, including 
internal coordination that takes place between the Veterans 
Health Administration (VHA) and other administrations of the 
Department. We also seek a more complete understanding of the 
VA's outreach efforts and strategies, as well as the funding 
spent on these outreach activities.
    Today there are over 23 million veterans who have served 
this country. Of this total, the VA estimates that the number 
of veterans enrolled in the VA health care system will reach 
8.3 million in 2009, and that the VA will treat nearly 6 
million of the enrolled veteran population. Six decades 
separate the newest generation from the oldest generation, and 
9 million veterans are over the age of 65. According to the 
VA's Center for Minority Veterans, the minority veteran 
population comprises approximately 15 percent of the Nation's 
23.4 million veterans. Women veterans are included in these 
minority groups as well.
    This demographic data illustrates the sheer number of 
veterans who stand to benefit from improved VA outreach 
efforts. Additionally, it shows the importance of outreach 
strategies which must be individualized to meet the unique 
needs of subpopulations of veterans. For example, outreach 
strategies for older veterans should differ from that of 
younger veterans. Additionally, the outreach methods for rural 
areas may differ from that of urban areas. The VA is also faced 
with the challenge of developing effective outreach strategies 
which are culturally competent and thus able to overcome 
potential cultural barriers.
    Briefly recounting the legislative history of enacted 
legislation on outreach brings us to the Vietnam War. During 
the Vietnam War, increased awareness of veterans not receiving 
adequate information about health care benefits resulted in 
Congress enacting the Veterans Outreach in Congress Service 
Program, VOSP. To address this concern Congress charged the VA 
with the responsibility of actively seeking out eligible 
veterans and providing them with benefits and services. Under 
the current law, the Secretary is responsible for advising each 
veteran, at the time of discharge or release, of all benefits 
the veteran may be eligible for.
    Next, Public Law 107-14, the Veterans Survivor Benefit 
Improvement Act, VSBIA, was enacted in 2001 to further expand 
outreach to eligible dependents. This law also provided that 
the Secretary ensure the availability of outreach services and 
assistance through the internet, veterans publication, and the 
media.
    Finally, Public Law 110-389, or the Veterans Benefits 
Improvement Act of 2008, was enacted last year. Section 809 of 
this law gives the Secretary the authority to advertise in 
national media.
    Despite these legislative authorities, the VA has a self-
imposed ban against paid public advertising, including public 
service announcements which was only removed recently in June 
of 2008. Although the existing statute does not prohibit the VA 
from conducting media outreach, the VA has only implemented a 
single media campaign on suicide prevention to the 
Subcommittee's knowledge. VA has struggled in the past with 
effective outreach service. For example, pamphlets and other 
outreach material are often located in the VA's own medical 
center, which means that this important information does not 
reach those veterans who do not already utilize VA's services.
    Another example is a memorandum issued on July 18, 2002, by 
the VA Deputy Under Secretary for Health for Operations and 
Management to all Veterans Integrated Services Networks (VISN) 
of the VHA prohibiting marketing geared toward increasing 
enrollment. This was an effort to limit the fast growing demand 
for health care services, which exceed the VA resources.
    We also know that some veterans service organizations 
(VSOs) accuse the VA of not providing outreach to veterans and 
dependents in accordance with the law. Nearly 18 months later a 
second memorandum was issued by VHA instructing the directors 
to ensure that their facilities were in compliance with the 
responsibilities outlined in the outreach program.
    Clearly, these are serious issues deserving of this 
Subcommittee hearing today. The Subcommittee looks forward to 
hearing from the witnesses of the panel as we embark on this 
important task of exploring effective ways to improve outreach 
to our deserving veterans.
    I now recognize Ranking Member Brown for any opening 
statement that he may have.
    [The prepared statement of Chairman Michaud appears on p. 
37.]

         OPENING STATEMENT OF HON. HENRY E. BROWN, JR.

    Mr. Brown of South Carolina. Thank you, Mr. Chairman. I 
will be brief. I know we have 9, 8 minutes and 55 seconds 
before the votes are closed. When our servicemembers come home 
from the battlefield they think about getting back to their 
families and their civilian lives. Often they do not think 
about connecting with the VA. Yet, the process of transitioning 
back to the civilian world can be challenging for veterans and 
their families. I am deeply troubled when I hear stories about 
a veteran not knowing what services exist, where services can 
be obtained, and whether they are eligible for those services.
    Central to the mission of the VA is to reach out to make 
every veteran aware of what services are available to support 
them and assist them in using these services. That is why it is 
so important that we are holding this hearing today to examine 
how effective VA existing outreach is, and what more can be 
done to ensure that our Nation's heroes know and have access to 
the benefits and services they need and deserve.
    It is encouraging that a high percentage of our returning 
warriors are seeking VA for their health care needs than in any 
previous war. I do want to commend former Secretary of Veterans 
Affairs, Dr. James Peake, for the great strides he made to 
improve outreach and the coordination of care for our veterans. 
Under his strong leadership, the VA launched a number of 
outreach initiatives, including lifting restrictions on 
advertising to promote awareness of VA programs and services, 
rolling out a new public service campaign about suicide 
prevention, establishing the Combat Veterans Call Center to 
telephone returning veterans to provide information about VA 
services, opening new rural outreach clinics, and expanding VA 
internet presence through YouTube, Facebook, and MySpace to 
reach younger veterans.
    I would like to thank all of the witnesses for taking the 
time to appear before the Subcommittee today. I look forward to 
hearing about issues you see and ideas you have for improving 
VA's outreach, and relationships with the U.S. Department of 
Defense (DoD), State, local communities, and private 
organizations to help link veterans to VA services.
    Thank you, Mr. Chairman, and I yield back my time.
    [The prepared statement of Congressman Brown appears on p. 
38.]
    Mr. Teague. Thank you, Mr. Brown. At this time, we will 
recess to go vote, and we will come back as soon as possible 
after the votes.
    [Recess.]
    Mr. Perriello [presiding]. At this time I would like to 
introduce the first panel. John Rowan, National President of 
Vietnam Veterans of America (VVA); Reynaldo Leal, Jr., 
Operation Enduring Freedom and Operation Iraqi Freedom (OEF/
OIF) veteran and Representative of Iraq and Afghanistan 
Veterans of America (IAVA); and Richard A. Jones, Legislative 
Director of the National Association for Uniformed Services. 
You may please take your seats. Thank you so much for joining 
us today. Mr. Rowan, if you can please begin?

STATEMENTS OF JOHN ROWAN, NATIONAL PRESIDENT, VIETNAM VETERANS 
   OF AMERICA; REYNALDO LEAL, JR., REPRESENTATIVE, IRAQ AND 
AFGHANISTAN VETERANS OF AMERICA (OEF/OIF VETERAN); AND RICHARD 
 A. ``RICK'' JONES, LEGISLATIVE DIRECTOR, NATIONAL ASSOCIATION 
                     FOR UNIFORMED SERVICES

                    STATEMENT OF JOHN ROWAN

    Mr. Rowan. Good afternoon, Mr. Chairman.
    Mr. Perriello. Good afternoon.
    Mr. Rowan. And thank you very much. It is good to see 
everybody. We have submitted testimony which I will not read 
verbatim. I would just like to say a few words about this 
particular subject. And I had an opportunity to read my 
colleagues' testimony and Mr. Michaud's testimony, and the 
others. So I noticed that many of them are focusing on the 
efforts by the VA to reach out to the newer veterans coming 
back from OEF/OIF. And while we would agree that there has been 
a lot of activity in that regard, and that certainly the VA is 
doing a lot of effort to reach out to those veterans, we still 
have some concern, even, about how effective that is. But we 
must say just generally, for all the veterans that the VA is 
supposed to serve, we believe they are doing a woefully 
inadequate job.
    Certainly for my veterans, the Vietnam Era veterans, and 
even for the Persian Gulf veterans from 1991, war changed 
somehow. And even if we go back to the World War II period, or 
even World War I with the gassing of the veterans in World War 
I, and of course in World War II we saw the atomic veterans. 
But when it came along to Vietnam, we had strange exposures to 
Agent Orange, for us. For the Persian Gulf veterans, of course, 
had all of these crazy things going on between the sarin gas 
and the oilfield fires, and depleted uranium shells, and it was 
like a toxic wasteland over there, which seems to be hanging 
around, by the way. From conversations that I have had with 
some Iraq and Afghanistan veterans that seem to run into these 
same situations. And of course, they have had other situations 
added on with anthrax shots and other kinds of things.
    The real problem is that most of us who walked off the 
battlefield unscathed, and for some extent even those who may 
have been wounded or hurt but went through rehab and felt like, 
``Okay, I got wounded but now I have my prosthetic device, or 
whatever, and I can move on with my life,'' did not realize 
that 30 or 40 years later we could have, literally, diseases 
affecting us from our exposure from 30 and 40 years earlier 
that are literally killing us. Vietnam veterans are dying at a 
very high rate. We have very high rates of diseases like 
prostate cancer, diabetes, non-Hodgkin Lymphoma, and lung 
cancer, and a myriad of other different cancers. The number of 
diseases is becoming significant.
    Because of this we created a Veterans Health Council. We 
will get each one of the elected representatives here a copy of 
this package. This Veterans Health Council is a group of health 
care providers in the private sector, academic institutions, 
advocacy organizations, some of our friends in the 
pharmaceutical industry, and others who have come together to 
try to explain to the private sector that 80 percent of the 
veterans are being treated by them and not by the VA. And that 
these veterans are basically going under the radar and they do 
not realize that the person sitting across the desk from them, 
the patient that they are talking to, the man or the woman, may 
have suffered exposures from their military service that are 
now impacting their health. Or, that because of those exposures 
they need even more concern about certain areas of interest 
such as Prostate Specific Antigens (PSA) screenings. PSA 
screenings may be important to all us old guys that turn over 
50, and for those of us who are even over 60, but it is really 
important for Vietnam veterans. Because we are three times more 
likely to get prostate cancer than our peers.
    So it is because of those programs and those problems that 
we are trying to create this program utilizing a Web site 
called veteranshealth.org. And we have created some fliers that 
we have worked with folks to reproduce. Not only to talk about 
the Vietnam veterans but also to talk about the Persian Gulf 
veterans and the OEF/OIF veterans. Because all of these 
veterans need to understand that they need to look at things 
many years after they get out. And so we would, we are really 
concerned that the VA needs to be forced to do the outreach 
that they say they do. And they need to talk not only to the 
new vets going home but to those of us who have been home as 
many as 40 years. And we are clogging the Veterans Benefits 
Administration (VBA), frankly, as much as the new kids with all 
of these service-connected disabled veterans.
    And so frankly, we call upon you and your colleagues in the 
Subcommittee to take a look at creating legislation in that 
regard and we would certainly be happy to answer any questions 
you may have. Thank you.
    [The prepared statement of Mr. Rowan appears on p. 38.]
    Mr. Perriello. Thank you very much, Mr. Rowan. Mr. Leal?

                STATEMENT OF REYNALDO LEAL, JR.

    Mr. Leal. Mr. Chairman and Members of the Subcommittee, 
thank you for inviting me to testify today on behalf of Iraq 
and Afghanistan Veterans of America the Nation's first and 
largest nonpartisan organization for veterans of the current 
conflicts. I would like to thank you all for your unwavering 
commitment to our Nation's veterans.
    My name is Reynaldo Leal and I served in Iraq as a Marine 
infantryman with 3rd Battalion 5th Marines. And during my first 
tour, I participated in some of the Iraq War's heaviest 
fighting during Operation Phantom Fury in Fallujah. And after 
that mission was complete, I assisted in securing the first 
democratic elections in that city.
    I was deployed for a second time 8 months after my first 
tour and conducted counter insurgency operations along the 
Euphrates River. As an infantryman, I did my job well and 
performed my duties with honor.
    When I was discharged from the Marine Corps in February 
2008, there were two questions I feared the most. What was it 
like over there? And, did you kill anyone? Anxious about 
returning home, I delayed going back to South Texas for as long 
as possible. I could not bear the thought of being around 
familiar faces, and that fear led me to push away those who 
cared about me the most.
    As my wife prepared for the birth of our first child, I 
struggled with flashbacks and painful insomnia, which spiraled 
into a debilitating depression that alienated my family and 
threatened my marriage. I knew that my wife was suffering as 
much as I was and that I was not the same person she had fallen 
in love with. Suicide was not an option for me. But every day 
made me more and more anxious. It turned out I was suffering 
from a devastating invisible wound, post-traumatic stress 
disorder, or PTSD.
    My struggle with PTSD left me dependent on the VA for 
mental health care. And since there is no VA hospital close to 
my home in Edinburg, Texas, I have to either travel 5 hours 
each way to the nearest VA hospital in San Antonio or take my 
chances at our local VA clinic. The lack of funding for a 
permanent VA psychologist at this clinic pits me against my 
fellow veterans of all generations for limited appointment 
slots.
    Unfortunately, my experience is not unique. According to a 
2008 RAND study, nearly 20 percent of Iraq and Afghanistan 
veterans are experiencing symptoms of PTSD or major depression, 
but less than half are getting adequate treatment. PTSD is a 
silent killer for this generation of veterans. Left untreated, 
it has the potential to destroy marriages, careers, and in far 
too many cases, lives. In January of this year, the U.S. Army 
reported that 24 soldiers in Iraq and Afghanistan committed 
suicide, a figure that surpassed all combat deaths in those two 
theaters combined.
    But numbers and statistics are only part of the picture. 
This new generation of veterans is being left to fend for 
themselves because of an antiquated system that cannot seem to 
find a way to reach out to them. There are not any visible 
outreach campaigns to get these young men and women through the 
door of their local VA facility. When I was struggling with 
PTSD, there was never a sense that the VA was trying to reach 
out to me, or that anyone even understood. For me, there was 
the Corps, and then there was nothing. I felt that I had been 
abandoned and the fact that I had served my country honorably 
meant nothing. I did not know about the claims system. I did 
not know about the 5 years of medical care for Iraq and 
Afghanistan veterans. And I did not know that there were others 
that were going through the same situations that I was.
    It was not until I saw IAVA's ``Alone'' ad on television 
and joined communityofveterans.org that I felt someone was 
trying to reach out to me. It is the responsibility of the 
Federal Government, and the Department of Veterans Affairs, to 
make sure every veteran feels this way.
    But are we doing everything we can to reach out to the 
veterans who have done so much for us? The VA has taken some 
important steps, especially setting up suicide hotlines, but 
the answer is still no. We owe it to our veterans to provide 
the best mental health resources available and currently we are 
falling too short of that goal. By fully funding the VA health 
care budget 1 year in advance, we could provide a simple 
solution that would give VA hospitals and clinics across the 
country the ability to provide stable care for decades to come. 
With the ability to plan ahead, these hospitals and clinics 
could meet critical staffing and equipment needs so that 
veterans like me are not left waiting. President Obama recently 
reiterated his support for advanced funding of the VA health 
care and we are glad to hear it. With the strong support of the 
President, and bipartisan leadership of Congress, advanced 
funding can and must move forward this year.
    Real action cannot come at a more critical time. As we saw 
just last week with the tragic events of Camp Liberty, our 
servicemen and women are under an incredible strain. As a 
Nation, we must have the same emphasis on giving our veterans 
the necessary tools to readjust to civilian life as we have in 
giving them the tools to survive in combat.
    Make no mistake about it, the veterans of this country want 
nothing more than to become successful and productive Members 
of the society we fought so hard to defend. Thank you.
    [The prepared statement of Mr. Leal appears on p. 40.]
    Mr. Perriello. Thank you so much for your service to this 
country, and for your service to this Committee today, with 
your testimony. Mr. Jones.

             STATEMENT OF RICHARD A. ``RICK'' JONES

    Mr. Jones. Mr. Chairman, Members of the Subcommittee, on 
behalf of the National Association for Uniformed Services I am 
pleased to be here today as you examine the veterans health 
care system and its outreach to veterans. Your work is critical 
to ensure that VA outreach strategies bring the best possible 
care to returning troops, and a seamless transition to their 
well-earned civilian life.
    Approximately 6 million veterans annually come to VHA for 
all or part of their personal health care. With the draw down 
of troops from the battlefield of Iraq, VA is likely to face 
increased enrollments. Through the last quarter of fiscal year, 
for example, 2008, over 400,000 Operation Enduring Freedom and 
Operation Iraqi Freedom veterans have used VA. And with passage 
of Public Law 110-329 last year, VA likely will have expanded 
enrollment of newly eligible veterans. Those are the Priority 8 
veterans.
    As we work toward enrolling these qualified veterans, who 
desire to do so, into the VA system, we must ensure that all 
veterans returning from combat areas are aware of, and if 
possible already signed up for, their 5 years of VA medical 
care. We recognize, however, that some long-term health 
conditions, such as post-traumatic stress disorder or Traumatic 
Brain Injury (TBI) may not manifest conditions until many years 
later. Therefore, we encourage further opening of access to 
sick and disabled veterans beyond the current 5-year allowance.
    Recent Congressional successes in providing increases in VA 
spending present the Department with an opportunity to advance 
an awareness of VHA accessibility and a readiness to meet 
health care needs. We applaud all that has been done to date. 
However, we can do better. In some cases, a successful outreach 
can be a matter of life and death. Veterans need to hear that 
VA is part of our Nation's commitment to them. They need to 
hear that with appropriate care they can tackle stress and get 
themselves back on track.
    Of course, there is financial cost to improve outreach. But 
if we do not make the investment and we do not make veterans 
aware of the benefits and services available to them, there is 
a hidden cost in lives lost, families disrupted, long suffering 
and homelessness, stress, and related problems for decades to 
come. We have learned that over the years. The Persian Gulf 
effort is one of those lessons.
    We urge the Subcommittee to continue its excellent work 
with other champions in the Congress to ensure resources are 
ready, not only for the provision of a veteran's earned benefit 
but for the veteran's awareness of these services as well. It 
is important that we do so. After all, these brave men and 
women have shouldered a rifle, risked everything to accomplish 
their mission and protect freedom and our own country from 
harm.
    As you know, Mr. Chairman, these brave men and women did 
not fail us in their service to country. They did everything 
our country asked and more. Our responsibility is clear. We 
must uphold our promises and provide the benefits they earned 
through honorable service in the military. Mr. Chairman, you 
and your Members of the Subcommittee are making progress. We 
thank you for your efforts and look forward to working with you 
as you work to protect and strengthen and enhance the benefits 
that we provide these great men and women. Thank you very much.
    [The prepared statement of Mr. Jones appears on p. 42.]
    Mr. Perriello. Thank you, Mr. Jones, for being such a great 
resource and advocate with this Committee, in helping us 
understand ways that we can certainly improve and continue to 
hold feet to the fire and make sure we are reaching out to 
folks.
    Mr. Rowan, you referred to the outreach as being woefully 
inadequate. And Mr. Leal, your story in many ways both captures 
everything wrong and also captures some hope. Wrong in that no 
one was reaching out to you at first. Hope in that that IAVA ad 
was able to reach you. I have seen those ads; they are 
powerful. I have talked to returning OEF/OIF veterans in my 
district about those and other ads.
    The first question I have is, while we know the woefully 
inadequate side is there, what are the success stories we need 
to build on? What are the most successful examples of outreach 
that we need to be taking to scale either through the VSOs or 
directly through the communications of the VHA?
    Mr. Leal. Well, I think from the young veteran's 
perspective, IAVA and their ad campaigns, and 
communityofveterans.org, which is sort of like a Facebook for 
veterans, it really brings out what we do. We do not go to, at 
least the young veterans that I know, we do not go to halls, we 
do not do things that way, not this generation, not that it is 
a wrong way to do it. But we just do not, we communicate 
through the internet. We communicate through networks, through 
network sites and different things like that. So the fact that 
IAVA went electronically, they went out in the internet and 
they went out in TV ads and did their outreach in that way, 
really helped bring these new generation of veterans, these 
young veterans, and let them know that there was somebody out 
there for them. And let them know that they were not alone. And 
I think if the VA can look at somebody, or an organization, to 
try to outreach to young veterans, it would be IAVA and what 
they are trying to do today.
    Mr. Perriello. And a quick follow up before we go to Mr. 
Rowan. Is your sense that those are going to be better run in 
terms of tone, and a type of engagement, if they are 
independent but supported by the VHA? Or would you encourage 
that kind of online outreach, including the social networking 
functions, within the VHA itself ? Do you think that these 
organizations are going to be better able to build that kind of 
networking?
    Mr. Rowan. Well I would think that even some of us old dogs 
learn some new tricks. And you would be surprised. It is 
amazing to me how many of my members have Facebooks and all 
kinds of things, and do use the internet. And, as I said, we 
created a Web site called veteranshealth.org. We are hoping to 
reach out and get our members, get veterans out in the public 
sector out there to reach out to learn about the illnesses that 
affect them from all the recent wars.
    IAVA did a wonderful program. The thing is that the VA 
should have doing that program instead of IAVA. I mean, they 
were just lucky enough that someone was willing to give them a 
grant, and they were able to produce a very nice public ad that 
certainly has reached out to their colleagues. It is just sad 
that they had to rely on public sector, private-sector 
donations to do that. Meanwhile, the VA spends billions on 
health care, does nothing on outreach. And we think that is 
wrong.
    And we think we need to reach out to our veterans. When we 
talk about suicides, I still have Vietnam veterans committing 
suicide. And we would, nobody knows how many Vietnam veterans 
killed themselves within the first few years after the War. I 
know personally, one of my things that I always say, I knew 
more people who died after the War than in the War. And a lot 
of that had to do with drug abuse but a lot of that drug abuse 
was fueled by PTSD. And was really trying to kill themselves in 
other ways.
    So I would just encourage, again, as part of our ideas of 
getting some sort of legislation out there, some sort of 
funding, either through the VA directly or by the VA through 
VSOs or community-based organizations, to do the kind outreach 
we need to reach out to all the veterans, whether they came 
home 40 years ago or 40 days ago. It does not really matter.
    Mr. Perriello. Mr. Rowan, following up, the VA has 
discussed their collaboration with veterans services 
organizations, an effort aimed at expanding their outreach, has 
the VA really been working with the Veterans Health Council?
    Mr. Rowan. No.
    Mr. Perriello. Following up on that, what would you say is 
your vision of a comprehensive VA outreach effort? What does 
that dream, comprehensive effort look like?
    Mr. Rowan. Well, I think we need a couple of things. We 
need to talk about educating medical personnel, both inside the 
VA and in the private sector, about veterans health-related 
issues. Getting them to understand they have to ask the 
question, ``Did you serve in the military?'' of men and women, 
of course now today given the high percentage of women. And 
then depending on the answer, have to then ask follow-up 
questions depending on where they served, when they served, 
what kind of work they did, how much they could be affected by 
PTSD, for example. All of those things that a doctor should ask 
of anybody. When they ask you, for example, what did you do for 
a living? If you may have been exposed to certain asbestos, or 
something, if you were in a particular line of work. Or worked 
in an area that was really polluted, or secondhand smoke. Just 
like any other patient they need to ask those veterans, the 80 
percent of them that are sitting today, going to a private-
sector physician, who I guarantee never asked them the question 
and in their patient history has no questions about military 
service. That is what we need to do. And the VA needs to do 
that. And inside the VA, frankly, they need to do that better. 
They need to do the patient history that they do not take as 
well as they should. So even inside the VA they do not ask 
enough questions about combat exposure, for example.
    Mr. Perriello. Mr. Jones, similarly to you, when you think 
about what a comprehensive VA outreach effort could look like, 
the gaps that are not being filled right now, what do you see 
as part of that vision?
    Mr. Jones. Well, I hate to look backward into history but 
there was a time at the VA when there was an enormous number of 
folks who were enrolling in the Veterans Health Administration 
that had to be cut off. That cut, when they made that ban and 
prohibited certain veterans from seeking service in the system 
that was developed for them, has sent a shock signal into the 
veterans community. That has to be overcome. But we still 
recognize that today, though, VHA serves uniquely some 6 
million veterans, nearly 8 million veterans are enrolled in the 
system. So at one point, VHA was doing a credible job of 
reaching out to veterans and letting them know about the 
availability. But recent decisions within the past decade have 
put a dent in that message. That message has to be recaptured 
and that would be my vision. I think the VHA, the medical 
centers, have done an extraordinarily good job in the past, but 
they have been handcuffed in the most recent past from 
searching out veterans and doing it through the stand downs 
that contribute to bringing veterans in from their 
homelessness. These are areas where VHA and the Veterans 
Affairs have been most helpful in making veterans aware of the 
services provided in the health care system.
    Mr. Rowan. I would like to add something to that, too, 
about the Category 8s, which I think is extremely important. 
Yesterday's zero-connected disabled veteran may be tomorrow's 
service-connected disabled veteran. And I am the classic 
example of that. I had, I never had a service connection, ever, 
when I walked away from the Air Force 40-some odd years ago. 
But I am now a 90 percent disabled veteran because of diabetes 
related to my connection to Agent Orange, having served in 
Vietnam, and my neuropathy, and other secondary conditions. So 
I went from a zero to 90 overnight, at the age of, it should 
have been 48, by the way, which is when I first got diagnosed 
with diabetes. But it was not until I was almost 58 when they 
finally gave it to me as a presumptive disease. So that was a 
big mistake, as was pointed out earlier. Because if they stay 
in the system, and they should be aware of things. But even 
then, I, when I was doing service rep work, had clients who 
were being treated by the VA for diabetes, who were Vietnam 
veterans, and the VA never told them, ``By the way, go file a 
claim for a service-connected disability.''
    Mr. Perriello. In terms of the outreach that is going on 
right now, there is a certain amount of urgency in the sense 
that, in the Vietnam era, people were not treated early and 
cases became exacerbated because of the lack of care. Given the 
urgency with the folks coming home, what are the programs that 
are easiest for us to take to scale right away in terms of 
getting that outreach going right now?
    Mr. Rowan. I will just add that I think that one of the 
programs that we have seen that is starting to reach out is 
reaching out again into the private sector, particularly in the 
mental health community. The other thing is we need to talk 
about the whole picture, of the family of these veterans. Many 
of these veterans today, unlike my generation when most of us 
were single, most of them today are married. A lot of them have 
children. You need to have a family practice, almost, to deal 
with the mental health issue that is occurring. Because it is 
not just the veteran. It is the veteran and the impact to their 
family. It is the wife or husband, for that matter, who has 
been sitting home for a year, dealing with all the family 
issues, etcetera. It is the children who are dealing with an 
absentee parent for a year. And also, coming home with, you 
know, Daddy or Mommy who is not quite the same as when they 
left. And so the idea of working with community-based mental 
health programs, and taking care of the whole family picture, 
would go a long way to doing that. Especially with the fact 
that so many of these veterans today are from the rural 
communities. And as Sarge said here, he had a tough time 
finding one near him because of rural Texas. It is a hard 
place, and rural upstate New York is in the same ballpark. Or 
Montana. Everywhere you go. Arkansas. You got it, it is going 
to be a tough time finding help.
    Mr. Perriello. Well I have a lot of rural Virginia in my 
district and we have similar issues. Let me just ask one last 
question, Mr. Leal, to you. You know, coming from the ``just 
say no'' generation myself, there is a big difference between 
the effectiveness of the early anti-smoking ads that were 
written by adults and the later truth campaign ones written by 
actual teenagers in terms of effectiveness. How much of the 
problem right now is that we are simply not getting the message 
out? How much of it is that the message is not being written in 
a way that really connects with the younger generation of 
veterans? Do we do a good job of getting the message out, we 
just need better message delivery? Or is it both?
    Mr. Leal. I think it is a little bit of both. It has to be 
better. If your only message trying to get out to this 
generation of veterans is written on a pamphlet that is inside 
the VA clinic, how are we ever going to get it? How are we ever 
going to find it? How are we ever going to know about it? 
Unless 1 day somebody comes up to us and says, ``Hey, you need 
help.'' And by that time, where are we? In what position are we 
by that time when somebody actually approaches us and says, you 
know, ``Ray, you are not the same guy I knew before you left.'' 
Is that, that is the point where we have to actually go into 
the VA, where we see that it has been enough. And that is where 
we find the pamphlet. It cannot be that way. It cannot continue 
that way. It has to be, it has to be before we go, when we come 
back, and everywhere in between. We have to be, there has to be 
something there to remind our veterans and to remind us that we 
are still, we are wanted and that people understand where we 
are coming from. And that there are programs out there to help 
us. Without that, you are going to continue seeing what you are 
seeing. If you continue to write pamphlets that are inside the 
facilities where we will never be able to see them unless we 
go.
    Mr. Jones. The best institutions that are ready, shovel 
ready so to speak, for making veterans aware of the system are 
the veterans, the health care system itself. But there must be 
incentives there. What incentive is there for a medical care 
center to reach out to the veterans community to bring in 
additional veterans if they themselves are already stressed, if 
they lack doctors, if they lack the care, if they do not have 
the ability to hire caregivers. You need to get the hiring in 
place and to assure these communities that you will back them 
up. That the resources will be there if they will help make 
veterans aware that the system is ready to help them.
    Individuals serve the system. And individuals, if you just 
pack too many demands on top of them, will break. So you have 
to have additional resources and personnel to reach out to 
veterans as well. The best system in place now to do the job is 
the veterans health care system. They can do a great job but 
they lack the incentive, until they have the resources in 
order. Now, Congress has done a terrific job over the last 3 
years in pumping up the resources and making veterans and 
veterans health care a priority to this Nation. We applaud you 
for that. So perhaps those resources are there. But I do keep 
reading about doctor shortages. And those doctor shortages are 
not only lacking in the overall community but they are missing 
in the veterans health care system as well.
    Mr. Leal. If I may say something about that, sir? That is 
exactly why advance appropriations is so important. If we 
cannot even make sure that we have enough people to take care 
of these veterans that you want to outreach to, where is the VA 
going to be? How can they, how can they set money aside to 
outreach if they cannot even set money aside to make sure that 
there are two more psychologists at my clinic? I think that is 
important. That is why advance appropriations is so important. 
If you force the VA to outreach and they just continue to, I 
guess, shred medical records because they are getting all these 
people coming in and they cannot really adequately treat them, 
we have to see that it is more than just outreach. It has to be 
an overarching strategy to make sure that everyone gets the 
care they absolutely need.
    Mr. Perriello. With that, let me turn to my colleague Mr. 
Snyder and see if he has any questions for the panel.
    Mr. Snyder. Thank you, Mr. Chairman. I will just ask one. I 
know we got behind with votes and you have other panels. If I 
am trying to sell cars, I figure my best target to sell cars is 
the family that walks into my car dealership. It costs me a 
whole lot more money and a whole lot more effort to try to 
reach the person that is raking the leaves in their backyard, 
and I am trying to catch them with a radio ad or that night 
watching TV and they are falling asleep. How much of this 
burden on outreach do you think should be on the military while 
the family is still in the military, in terms of informing them 
about veterans and veterans benefits, and what is available out 
there for them, versus how much should the burden be on the VA 
health care system after the veteran is out?
    Mr. Jones. Clearly the military system is an important 
element in making future veterans aware of what is available. 
The screening must occur. There must be, we would like to see a 
better screening of individuals as they leave.
    Mr. Snyder. Right.
    Mr. Jones. We would like to see more information provided 
to families of what to look for with regard to various symptoms 
that may lead toward discovery of problems in health. So the 
families need to receive an awareness package of some sort. I 
am not sure exactly how families are brought into this 
transition, because the transition is usually military 
deployment to the demob base, and you are gone, you are out. 
And in instances of National Guard, you are far away from your 
family when that demob occurs. So I am not sure exactly how 
that works. But you are exactly right. The family needs to know 
what the symptoms are so they can help the individual that they 
love get back on track.
    Mr. Rowan. I would add that that is true. And I think that 
they, the military, plays a heavy role. And we keep talking 
about the seamless transition issue, which would take the 
health records right out of the military into the VA. But the 
real problem still gets to be with this exposure question that 
often does not manifest itself until years later.
    I recently had a cousin of mine who is an Iraq veteran. He 
is 42 years old. He was a seabee reservist, did two tours in 
Iraq. And he has now got a Hodgkin's Lymphoma in his shoulder 
that he believes may be related to toxic exposure that he had 
dealing with toxic waste sites. Now that did not occur until 2 
years after he was already back home, sitting back to work, 
back in his civilian life, you know, going to some meetings 
once in a while. But if he does not, if we do not have a 
continual education process over time they are not going to 
understand the connection between their military service and 
some of these things that do not manifest themselves until much 
later. And that is certainly true, it is obviously way too late 
for all of us Vietnam veterans, and even the Persian Gulf 
veterans. I mean, they are long out. Even the ones who were, 
many of them who may have been, you know, people who were, you 
know, 20-year and 30-year personnel, many of them are all still 
gone now. There is no Vietnam vets left hardly in the military, 
and there are very few even Persian Gulf vets left.
    So it is a big issue, still. And so while the seamless 
transition thing is a good thing, and certainly a major 
improvement over our day, and certainly made simpler, perhaps, 
by the utilization of computerization, it still does not get 
past the point, we still have to do a continuing education 
process.
    Mr. Snyder. Thank you.
    Mr. Perriello. I want to thank you all for your expertise, 
for your time, and for your service. Again, we really 
appreciate all the ideas you have brought to us. This is an 
urgent issue and we hope to be able to move forward on this and 
make a difference in the lives of those who have served our 
country. So with that, I dismiss the panel with our thanks.
    Now let me call the second panel. Bruce Bronzan, President, 
Trilogy Integrated Resources; Barbara Van Dahlen Romberg, 
Founder and President, Give an Hour; John King, Co-Director, 
Veterans Community Action Teams Mission Project, Altarum 
Institute; Randall L. Rutta, Executive Vice President, Public 
Affairs, Easter Seals; Jeffrey W. Pollard, Ph.D., Director of 
Counseling and Psychological Services, George Mason University, 
American Psychological Association (APA); accompanied by 
Michael Johnson, Military and Veterans Liaison, George Mason 
University.
    Mr. King, we will begin with you.

STATEMENTS OF JOHN KING, CO DIRECTOR, VETERANS COMMUNITY ACTION 
   TEAMS MISSION PROJECT, ALTARUM INSTITUTE, ANN ARBOR, MI; 
BARBARA VAN DAHLEN ROMBERG, PH.D., FOUNDER AND PRESIDENT, GIVE 
   AN HOUR, BETHESDA, MD; BRUCE BRONZAN, PRESIDENT, TRILOGY 
    INTEGRATED RESOURCES, SAN RAFAEL, CA; RANDALL L. RUTTA, 
 EXECUTIVE VICE PRESIDENT, PUBLIC AFFAIRS, EASTER SEALS, INC.; 
 AND JEFFREY W. POLLARD, PH.D., ABPP, DIRECTOR, COUNSELING AND 
 PSYCHOLOGICAL SERVICES, GEORGE MASON UNIVERSITY, FAIRFAX, VA, 
ON BEHALF OF AMERICAN PSYCHOLOGICAL ASSOCIATION; ACCOMPANIED BY 
 MICHAEL JOHNSON, MILITARY AND VETERANS LIAISON, GEORGE MASON 
                           UNIVERSITY

                     STATEMENT OF JOHN KING

    Mr. King. Thank you, Mr. Chairman, Mr. Snyder, staff. We 
appreciate the opportunity to testify to you today. With me 
today is Dr. Lauren Thompson. She is a Deputy Group Director 
and a corporate sponsor of an innovative initiative titled 
Veterans Community Action Teams. I will further describe that. 
We call it VCAT. I will describe that in my testimony. Mr. 
Lincoln Smith, the Chief Executive Officer of Altarum Institute 
sends his greetings and regrets he could not be here with you 
today. He applauds your leadership in taking care of veterans 
and their families.
    Altarum is a nonprofit health systems research consulting 
organization serving public and private clients. The Institute 
combines research and analysis with business acumen in 
providing comprehensive systems-based solutions for complex 
problems. Altarum is a nonprofit health systems research 
consulting firm. Last year they initiated three mission 
projects and committed $8 million to address childhood obesity, 
to foster innovations in community health centers, and to 
develop veterans community action teams. Since 2002, more than 
870,000 servicemembers have transitioned from active duty to 
veteran status. They have joined the ranks of 23 million 
veterans. The multifaceted needs of both young and older 
veterans have created large service requirements on the 
Veterans Health Administration. We commend the VHA for their 
valiant efforts to improve access while maintaining the high 
quality of care that veterans deserve. However, we believe that 
no one entity can solve the complex problems of outreach to 
improve access to VHA services.
    Altarum's focus through the VCAT project is to build 
integrated community-based service networks to strengthen the 
safety net for veterans and their families who are experiencing 
issues and/or suffering the invisible wounds of war. We strive 
to complement the efforts of VHA by building bridges for well 
integrated community service providers to the national level 
VHA providers. We envision VHA's outreach as a top down effort 
and the integrated community providers' outreach efforts as a 
bottom up.
    We know that VHA uses the media, web-based tools, and holds 
public events to encourage access to their medical centers, 
CBOCs, and veteran centers, and more. Veterans and their 
families often seek a wide range of community services when 
they need assistance. They go to churches, community health 
centers, housing authorities, public assistance, and many other 
services. The coordination, collaboration, and integration of 
these service providers focused on the immediate needs and the 
rights and benefits of the veterans community will complement 
VA's best efforts.
    The VCAT project will develop a collaborative community-
based model to integrate the outreach and delivery of services 
for veterans and their families. The project will test this 
model in selective pilot communities to demonstrate the value 
of community-based system of care for improving accessibility, 
scope, and quality of services available to veterans and their 
families.
    The strategies employed to connect the current generation 
with services needs to be different than those used with past 
generations, because the methods by which this new population 
receives and processes information is vastly different. 
Consistent with the previous testimony of Mr. Leal, and efforts 
of IAVA, we agree that networks of service providers must 
connect in like manner to the communication and social networks 
of the younger generation.
    Altarum recognizes the Nation's indebtedness to the 
families of our country's defenders. As mentioned before, the 
sacrifices of families are much greater than the general public 
either understands or appreciates. The well-served, well-
informed family is better able to survive and thrive, and to 
assist their veteran Members when in need.
    While our overarching goal is to improve the lives of 
veterans and their families, it is also our hope that the model 
we develop and the lessons we learn from our demonstration 
project will help inform other communities. Ultimately, we 
would like the VCAT model of community-based service 
integration to be replicated in other communities across the 
Nation. We hope to serve and share with you the lessons we 
learn and offer policy and programmatic change that may lead to 
increased outreach and access to all benefits and services for 
veterans and their families.
    Thank you. That concludes my comments.
    [The prepared statement of Mr. King appears on p. 52.]
    Mr. Perriello. Thank you, Mr. King. And my apologies for 
the personal disruption. Next, we will be going to Dr. Van 
Dahlen Romberg.

         STATEMENT OF BARBARA VAN DAHLEN ROMBERG, PH.D.

    Ms. Romberg. Good afternoon. Thank you for this opportunity 
to provide this testimony. As the founder and president of Give 
An Hour, a national nonprofit organization providing free 
mental health services to our returning troops, their families, 
and their communities, I am well aware of the many issues that 
now confront the men, women, and families within our military 
community.
    Our Nation is confronting an emerging public health crisis. 
Since the conflict in Iraq began, nearly 1.9 million 
servicemembers have deployed. Many of these men and women have 
deployed more than once, some as many as four or five times. As 
those who have fought will attest, everyone is changed by the 
experience. Some suffer physical wounds that require medical 
attention. Others suffer wounds of war that are not always easy 
to see. As a Nation, we must provide comprehensive, long-term 
care for all of those affected by their experience of combat, 
and we must embrace the reality that combat stress and other 
psychological consequences of war are normal human reactions.
    VA funding for the past 4 years is at unprecedented levels. 
We cannot assume that more money, more staff, more outpatient 
clinics, more Vet Centers, more clinics on wheels, and more 
organizational restructuring will enable the VA to meet the 
mental and physical health care needs facing this generation of 
combat veterans. This is a public health crisis that will take 
more than extended outreach. If returning troops are to truly 
and successfully reintegrate into our communities, then our 
communities must be involved in the solution.
    The issue is bigger than the efficacy of the VA's current 
outreach efforts. The issue is, how can we systematize a broad 
range of services to sustain care for our veterans over the 
long term? Further, it is impossible to discuss this issue 
without also discussing DoD's response to the men, women, and 
families who serve. While the VA and DoD operate as if there 
are two populations that require care, military personnel and 
veterans, there is really just one. Too many returning warriors 
get caught between the two systems and fail to receive the care 
they need, when they need it.
    No single agency, organization, or sector can adequately 
care for our returning warriors. I am proposing the development 
of a new kind of public works project and have outlined the 
support for such a program in great detail in my written 
statement. The need is clear: over 300,000 men and women have 
already returned from Iraq and Afghanistan with symptoms of 
severe depression or post-traumatic stress. Over 320,000 have 
suffered traumatic brain injuries. The Army calculates the 
current suicide rate is the highest in its history, a rate that 
is higher than the civilian rate. Seventeen percent of soldiers 
returning to War for another tour could have a traumatic brain 
injury. Many of our returning troops turn to substance abuse to 
ease the pain of wounds that they cannot see and they do not 
understand. Good kids end up in jail for crimes that no one 
believed them capable of committing. Divorce is on the rise in 
the military community, with about one in every five married 
servicemembers filing for divorce since 2001.
    There is a tremendous need for a full range of easily 
accessible mental health services for our veterans. Many live a 
great distance from formal VA services and many are reluctant 
to seek mental health services because of a perceived stigma. 
We need to develop additional education and treatment programs 
for servicemembers who suffer traumatic brain injuries. We need 
to develop programs that support employers who want to hire 
veterans, as well as veterans who want to be productive members 
of society. We need to develop programs specifically focused on 
the unique needs of women who serve, including programs that 
treat victims of sexual assault. We need to develop programs 
that train police, fire fighters, paramedics, and judges about 
veterans and the issues that come home with them.
    Our military culture promotes pride and inner strength 
along with self-reliance and toughness. Only through education 
and practice can veterans learn to face their fears and work 
through the understandable pain associated with the experience 
of war. Systems charged with providing care for those who 
serve, including the VA and DoD, have failed in their efforts 
to reach those in need. Both DoD and VA have been reluctant to 
forge critical relationships with community-based organizations 
that have developed over the last 6 years. Opportunities have 
been missed for innovative collaborations that could have saved 
lives and healed families.
    The best solution is a new kind of public works project. We 
need a system that can streamline and simplify the process of 
providing and receiving all manner of care for returning 
warriors and their families within their own communities. We 
need a plan that ensures our communities are able to assist and 
support veterans and their families so that their lives are 
working for them. In 1933, the Public Works Administration in 
an effort to heal our Nation's Depression-ridden economy. The 
goal was to heal our economy and ensure that our citizens were 
free to lead productive lives. Now we need to design and 
implement a similar public works project for the 21st century 
that will weave together the resources needed to heal our 
military community and ensure that our military personnel are 
free to lead productive lives.
    But what do we need to do first? Bring together individuals 
representing organizations and entities that interact with 
veterans and military personnel. Form a group with these 
representatives to study efforts currently underway, including 
innovative and successful community programs. The primary task 
of this group will be to develop a plan that will serve to 
guide our communities throughout the country in their efforts 
to coordinate care. This group can assist with the 
implementation and the metrics needed to understand the success 
of this program.
    We have the resources, we have the vision and the 
commitment to ensure that our veterans and their families 
receive the care they need and deserve through a new kind of 
public works project. Thanks to the efforts of dedicated people 
working in and across our country we have the potential to 
create this based on these organizations so that we can provide 
comprehensive long-term care to those who serve our country. 
This is a historic and unique opportunity to harness our 
Nation's resources and care for our military community. Thank 
you.
    [The prepared statement of Dr. Van Dahlen Romberg appears 
on p. 46.]
    Mr. Perriello. Thank you very much, Doctor. And now, Mr. 
Bruce Bronzan.

                   STATEMENT OF BRUCE BRONZAN

    Mr. Bronzan. Thank you very much, Mr. Chairman and Members. 
I am Bruce Bronzan. I was a Program Director for Mental Health 
at the county level, and then a County Supervisor, and a 
California State Assemblyman with a 20 career in politics. I 
chaired the Health Committee and the Mental Health Committee. 
When I left elective office, I formed a partnership with Afshin 
Khosravi, who is behind me here in the audience, and we worked 
with the State of California with pilot projects called the 
Network of Care to try to do something different at the local 
level. Specifically, how do we get people more aware of all of 
the services that are available to them, regardless of the silo 
funds that connect to a given agency, Federal, State or local. 
The other way of looking at it is how do we connect a community 
more to the people in need within that community? There is 
actually a form of community organizing, county by county in 
the State of California.
    This project called the Network of Care turned out to be 
quite successful. A Network of Care for mental health was 
developed almost 8 years ago. It spread all over California 
almost instantly, and then around the United States. And now it 
is in almost 30 States and some 500 locales. The Network of 
Care in aggregate reaches some 65 percent of the United States 
population and manages a total of 127,000 services that it 
serves up to people locally, in their own community.
    During the work on the Network of Care for mental health we 
became acutely aware of the severe strain that is being 
exhibited by both community mental health, DoD, and VA services 
for the returning soldier. And we were asked some time ago by 
Congressman Kennedy and Congressman Farr, friends of mine, and 
a number of veterans leaders and mental health leaders across 
the country to do one specifically for veterans. After 3 years 
of work, the first two State/national models are ready to go. 
Maryland's has been launched about 4 weeks ago under the 
leadership of Lieutenant Governor Anthony Brown, who himself is 
the highest ranking elected official who is an Iraqi veteran. 
And this Friday at noon, in California, Governor Arnold 
Schwarzenegger will launch the California version of the 
Network of Care in each and every county in both States.
    So what I am here to show you is something very different. 
I know, Mr. Chairman, the title of this hearing. But what we 
are going to show you, and have been asked to show you, is 
something different. And that is, rather than looking at 
outreach through the lens of any given silo funded agency, look 
at outreach through the lens of a veteran and their family and 
what they need in the community in which they reside. It is a 
different model, but it is quite exciting. If we could turn on 
the screen? Okay.
    [Slide.]
    Mr. Bronzan. What I am going to show you is the Los Angeles 
version, which is going to be officially launched Friday but 
you will see it ahead of everybody. This, by the way, in both 
Maryland and California, was a process that was quite 
extraordinary. The veterans community and military leaders 
reached out across the space to the mental health community, 
and they joined hands to try to do something important 
regardless of their agencies' parochial interests for the 
veteran. And I think you will see it had remarkable results.
    On this homepage you see Governor Schwarzenegger, 
Lieutenant Governor Brown will also appear in a couple of days 
on the Maryland site, but I could just play a moment here for 
you. Do we have sound? Oh, we do not. Oh, do not worry.
    Okay, well what he does is he gives a greeting saying how 
important it is for us to pay attention to the returning 
soldier and how they cannot be neglected, and that we have to 
reach out as members of a community to anyone that returns from 
War. These other tour guides are all veterans from different 
conflicts, different theaters of war, different backgrounds. 
Each one of them explains, as a veteran to a veteran, why it is 
important to use certain portions of the site. For example, the 
Vietnam veteran here, a good friend of ours down in San Diego, 
explains that when you are in crisis, you need help, it is okay 
to seek help and to deal with whatever situation you are facing 
right at that moment. Andre here, another good friend of ours 
from another part of the State, the Bay Area, talks about the 
fact that there is no shame in seeking shelter if you do not 
have it. Do not sleep out under the bridge, get some help. They 
direct the veterans who, or their family members who come to 
the site, to these buttons right here as the most important 
services that the site offers.
    With one click, this is every single crisis intervention 
that is available, regardless of agency, in their own 
community, community by community, starting with the suicide 
prevention hotline. Relative to homelessness, it is every 
single shelter and homeless provision in their own community, 
with one click. Relative to employment assistance, there is not 
only every single agency that serves veterans relative to 
employment, we have a partnership with VetJobs, a remarkable 
organization, headed by a veteran himself. And what we do is 
collaborate with this organization. They seek out jobs that are 
available to veterans, specifically for veterans. And what we 
do is bring it into each individual local community. So a 
veteran can choose a particular category, click search, and 
what is brought up into this window are the actual specific 
jobs that are currently, that day, available to veterans that 
they can find in their own community. It is quite a remarkable 
service. To the best of my knowledge it has never existed in 
our history before.
    Last, the fourth button that is on the homepage connects 
the person with whoever their county veterans services officer, 
often people extremely knowledgeable in helping them navigate 
the system. However, many of our returning soldiers simply do 
not know who they are or how to contact them. We put the name, 
the address, the phone number, and the email address with one 
click.
    Relative to the rest of this homepage, there is community 
announcements. We allow, we give a tool to the community mental 
health director as well as the veterans service officer where 
they can post up information directly, 24 hours a day, to their 
own community. Nationwide news from around the country, we cull 
through about 2,000 periodicals and post the top articles up 
every single morning at 6:00 eastern standard time. Exquisite 
translations that are both hand and culturally perfect, as well 
as audio/video presentations of those translations for family 
members who may not have literacy in a given language.
    The main content of this site is in these huge portals 
here. By the way, in spite of the fact of it being rather clean 
and simple looking, these are very, very deep sites. This took 
a great deal of work locally. The site you are looking at is 
about 250,000 pages deep. There is about 3 million lines of 
code that run it, and it is upgraded every single day. In the 
service directory, the service directory is every single 
service, Federal, State, and local, every not for profit, 
community-based organization, non-Government organization at 
the Federal level, every single thing in the United States and 
in that community. If you notice the search engine, it does not 
really care what agency it is from, what silo fund, or what 
bureaucracy it belongs to. It goes by what a person needs. So, 
as you drill down into these categories, you find everything 
that is relative to that particular concern and it is refreshed 
on a regular basis.
    When you get to an actual file, with one click you could 
drop that file into a personal health record. In the library 
section-oh, by the way, I am really sorry, I want to show you 
this. Just before we got started, we were approached by 
Military OneSource and a variety of organizations that formed 
together to form a joint family assistance program. We said, 
``We would be glad to help you. What is the situation?'' They 
said, ``Well, we have great programs but nobody knows we 
exist.'' Which is something that we have heard all over the 
country. So what we have done is integrate their information 
into, with one click, into this site. And here are all of these 
family support programs with 24-hour hotlines and for the first 
time they can be broadcast into each and every local community 
for people to find that they are there.
    The library function is a huge library. It took a great 
deal of Maryland's and California's money to build it. It has 
4,000 topics and some 35,000 separate articles. If you were to 
print it, it would be about 50,000 pages long. And if you were 
to print it, it would be that long. And it is refreshed four 
times a year.
    Mr. Perriello. Can you wrap up in the next 30 seconds?
    Mr. Bronzan. Yes, thank you. We have a full blown social 
networking program that is commercial free, a legislative 
advocacy tool, every assisted device that is made in North 
America, every link in the United States that is not-for-profit 
or Government sponsored, some 20,000, and a full blown HL7 
certified personal health record that is a consumer-based 
record, not a provider-based one. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Bronzan appears on p. 45.]
    Mr. Perriello. Thank you very much. Mr. Rutta?

                 STATEMENT OF RANDALL L. RUTTA

    Mr. Rutta. Sure, thank you, Mr. Chairman. It is a pleasure 
to be here today to speak on behalf of Easter Seals. Easter 
Seals, like the VHA, actually has a significant interest in 
helping our veterans, particularly veterans with disabilities. 
We are concerned about the thousands of injured servicemembers 
that are returning every month to this country looking to 
reintegrate into the community and lead their lives 
successfully. We are also concerned about other veterans who 
are working, they are raising families, they are aging in 
place, veterans of past conflicts, who have service-connected 
disabilities and other needs, and could use our help. We very 
much appreciate the good work of the VHA and the Veterans 
Affairs Department overall. Their broad spectrum of public 
benefits and private supports that are available to veterans is 
impressive, but we know that at any given time there are 
veterans with needs that fall through the cracks that are not 
getting the services they need, when they need them, where they 
need them.
    We do recognize that the VA is vast and complex. It is 
charged with an enormous responsibility, a large mission, a 
large and diverse constituency. And like any organization, be 
it the VA or providers like Easter Seals, that presents some 
challenges that can be daunting. You need to overcome 
fragmentation, bureaucracy, self-contained service strategies, 
all of which really stand in the way of person-centered, 
veteran-centric, readily and consistently available services. 
We did note that in 2007 the GAO commended the VA for its work 
anticipating the needs of OEF and OIF veterans. But we saw and 
have shared in our concerns the VA not necessarily really 
reaching out to veterans in a way that they truly understood 
the services that where available to them; assuring that there 
was equal access, particularly in areas like rural areas where 
their facilities might not reach; and also were better at 
noting the implementation of infrastructure as opposed to 
services being delivered or the utilization of that 
infrastructure.
    For 90 years Easter Seals has served people with 
disabilities including veterans and their families. We serve 
about 1.3 million people every year, including veterans. And 
actually just this past 2 years, we have really made a 
concerted effort to reach out and identify veterans much in the 
way those other members of the previous panel and this panel 
have said is important. Community-based agencies absolutely 
have a role to play as a partner with the VHA, as an extender 
of their reach, and as an information resource that they can 
benefit from.
    Now we understand that as veterans fall through the cracks 
this is nothing new. People with disabilities oftentimes fall 
through the cracks. What we do not want is for that to continue 
to happen for veterans. It really is unacceptable. Let me just 
share a few things that are captured in our statement but I 
would like to have you note right now.
    Obviously no one organization can be all things to all 
people, and so my most important point would be to the VHA, to 
the Veterans Affairs Department, and to Congress in its role 
supporting that agency, please do everything possible to engage 
the community and the resources within the community to 
leverage infrastructure, tap best practices, build capacity and 
share, in the same way that the VA is a tremendous resource 
with regard to medical education, in the same way the community 
can be a laboratory, a pilot test, a partner, in helping 
veterans, particularly those with disabilities.
    Easter Seals supports the Gateway Initiative that was 
launched by the VA under former Secretary Peake. As far as we 
know, this initiative is still in place. It is an attempt to 
put a liaison office in place at the VA for organizations like 
Easter Seals to know who to talk to to better understand what 
are the current priorities, what are the activities, what kinds 
of things might we do to support and echo the good work of the 
VA. And so we would encourage the VA to continue to fully 
implement and support that Gateway Initiative.
    We also see that the VA has implemented 50 mobile clinics, 
primarily dedicated to helping veterans, particularly those 
living kind of far afield from the facility-based systems, with 
their mental health services. Easter Seals and others have 
offered to host those VA clinics when they come into town, be a 
partner in outreach making sure that enough people know about 
those services that they are fully utilized. And then be 
present in the community when that mobile clinic leaves so that 
those veterans and their families have continuity of care, some 
follow along services, a way to connect back to the VA that 
provided those services originally.
    We applaud the VA and the VHA for its efforts to reach out 
to younger veterans in ways that are meaningful to them. They 
are doing great things with regard to their Web site and 
leveraging social networking tools, much as we are trying to do 
as a nonprofit organization. We also say probably the most 
important thing we found is that to connect with veterans you 
have to reach them early, you have to reach them in the context 
of their family. These individuals respond very well to us when 
we engage in pre-deployment and post-deployment activities, and 
we are there as the individual transitions from military 
service. And so they recognize us as partners and friends to 
them bringing them into the VA system as a collaborator.
    So I would just encourage you to keep the community-based 
systems very much in mind as something for the VHA to reach out 
to, to partner with, contract with, outsource, and leverage in 
whatever way possible. We will certainly be there as a partner 
and a friend. Thank you.
    [The prepared statement of Mr. Rutta appears on p. 55.]
    Mr. Perriello. Thank you so much, Mr. Rutta. Now we will go 
to Dr. Pollard.

                STATEMENT OF JEFFREY W. POLLARD

    Mr. Pollard. Mr. Chairman, please allow me to express 
appreciation for the opportunity to speak on behalf of the 
150,000 members and affiliates of the American Psychological 
Association regarding outreach activities for veterans on 
college campuses. I am the son of a decorated World War II 
veteran captured on December 7, 1941, released in September 
1946, and buried in Arlington National Cemetery. I have spent 
30 years working as a psychologist committed to the mental and 
behavioral health of students on college campuses. Meeting the 
needs of increasing numbers of our Nation's veterans, 
particularly on college and university campuses, is extremely 
significant to me.
    Our ability to diagnose and treat combat-related mental and 
behavioral health problems, including depression, traumatic 
brain injury, and post-traumatic stress disorder, has improved 
dramatically in recent years. Estimates suggest that between a 
quarter and a third of all veterans returning from Operation 
Enduring Freedom and Operation Iraqi Freedom will display 
symptoms of mental disorder within a year of leaving military 
service. Many of these veterans are expected to benefit from 
the new Post-9/11 GI Bill by furthering their education at our 
Nation's colleges and universities. These facts point to the 
important role that colleges and universities must play in our 
national efforts to meet the mental and behavioral health needs 
of our servicemembers and veterans.
    During the past year, George Mason University has been 
involved in a number of important activities to enhance our 
outreach to military personnel and veterans on campus. First we 
hired Mr. Michael Johnson to serve as our full-time Military 
and Veterans Liaison in our Military Veterans Office. Mr. 
Johnson, who has accompanied me here today, is a veteran of 17 
years, both as an enlisted member and an officer in the United 
States Marine Corps. Mr. Johnson and his colleagues in the 
Military and Veterans Office currently serve approximately 
1,000 active duty, Reserve, National Guard, and veteran 
students, offering assistance and information regarding issues 
such as veterans services and academic counseling, as well as 
information about the many benefits to which they are entitled 
through State and Federal Government programs.
    In addition, George Mason University has recently completed 
a needs survey of our military and veteran student population 
and established connections between the new Military and 
Veterans Liaison and virtually every component within the 
University. We have also established the Mason Military 
Outreach Group, which is a collaboration of students, faculty, 
and staff in support of our servicemembers, veterans, and their 
families. Further, the Mason Veteran Peers Initiative involves 
a group of veterans who are working with counseling and 
psychological services to provide peer support to veteran 
students.
    Last month, George Mason University was one of only 20 
institutions of higher education awarded a Success for Veterans 
Award Grant sponsored by the American Council on Education and 
the Walmart Foundation. This $100,000 grant will help George 
Mason University Military and Veterans Office evolve further 
into a compliance-coordinated one-stop resource and support 
center to ensure academic, psychological, and transition 
support. We are grateful for this award. However, like most 
grants it will not cover the predicted level of need and it is 
time limited.
    Just as the community mental health system is stretched far 
too thin, so are college and university mental health 
resources. In fact, campus mental health faces significant 
systematic challenges, including an insufficient number of 
service providers, such as psychologists, psychiatrists, and 
case managers. Data indicate that students on college and 
university campuses are increasing arriving with more severe 
preexisting mental and behavioral health patterns, or develop 
these health concerns during their college careers. The 
increasing civilian mental and behavioral health needs on 
campus make it even more challenging for colleges and 
universities to provide sufficient services and support for the 
growing population of servicemembers and veterans on campus.
    While we at George Mason and our colleagues at colleges and 
universities around the country have been taking important 
steps to reach out to servicemembers and veterans on campus, 
much work remains ahead. I would like to provide a few 
recommendations that may help our institutions of higher 
learning meet the mental and behavioral health needs of our 
military and veteran student population.
    First, sufficient resources must be made available to 
support targeted efforts on campus to address mental and 
behavioral health needs among servicemembers and veterans, 
including the concern of suicide. In recent years some, 
important Federal initiatives have been created through the 
Substance Abuse and Mental Health Services Administration 
(SAMHSA) to address the national problem of increased mental 
and behavioral health concerns on campus, including suicide. 
However, much more needs to be done.
    Senators Durbin and Collins and Representative Schakowsky 
have recently introduced the Mental Health on Campus 
Improvement Act and its programs will complement SAMHSA's 
Campus Suicide Prevention Program to offer the full range of 
prevention and intervention services currently needed on 
college and university campuses. In addition, this legislation 
calls on grant applicants to include a plan, when applicable, 
to meet the specific mental and behavioral health needs of 
veterans attending institutions of higher education.
    Second, continuing education and training opportunities 
must be readily available for colleges and university mental 
and behavioral health professionals regarding some of the 
unique deployment and reintegration issues facing 
servicemembers, veterans, and their families. Both the 
Department of Defense and the Department of Veterans Affairs 
have unique knowledge and expertise in this domain.
    I recently had the privilege of attending a week-long 
training conducted by the DoD's Center for Deployment 
Psychology, in which leading experts in the field provided 
clinical training regarding the deployment cycle, trauma and 
resilience, behavioral health care for the severely injured, 
and the impact of deployment on families. These are high 
quality programs and are worthy of continued attention and 
support.
    Third, we must develop mechanisms to conduct appropriate 
outreach to servicemembers and veterans who are beginning their 
post-secondary education online. Such online education 
opportunities may present unique challenges for our military 
and veteran students because of their potential isolating 
effect. Servicemembers and veterans who are enrolled in online 
education programs and experiencing mental and behavioral 
health problems are often more isolated than their on-campus 
colleagues, and this isolation can be contraindicated for their 
healthy readjustment and recovery.
    APA and the psychology community looks forward to 
continuing work with Congress, the VA, the DoD, and the 
veterans service community to welcome home our men and women in 
uniform, and to ensure that they receive the mental and 
behavioral health services and support on college and 
university campuses and in the larger community that they so 
honorably have earned. Thank you.
    [The prepared statement of Mr. Pollard appears on p. 59.]
    Mr. Perriello. Thank you, Dr. Pollard. Congratulations to 
George Mason on the grant, and thank you for the heroism and 
sacrifice of your father as well.
    Mr. Pollard. Thank you.
    Mr. Perriello. Let me begin by asking a question of the 
panel. Many of you talked about the importance of the VA 
forming partnerships with the VSOs and other private groups to 
help reach more veterans, and community-based strategies. Could 
you say a little more about whether the barriers to that right 
now are primarily a cultural mindset? Is it bureaucratic and 
regulatory? Is it financial? And what specifically could the VA 
be doing better to develop those kinds of partnerships and 
community-based strategies you note?
    Ms. Romberg. I think it is all of the above that you 
mentioned. Maybe the least being financial, in terms of it has 
to start with conversations and dialog. And thus far, while in 
our case, our organization, initially the message was that the 
VA responded that they had it covered in terms of the mental 
health care. That was 4 years ago. As time has gone on, we have 
developed a really nice relationship with the VA 
philosophically in terms of that we exist, and that we can be a 
resource. But there has been no systematic relationship formed 
so that throughout the country VA hospitals know about the free 
mental health services that our providers give. I think that it 
has, there has to be some conversations at the very top to 
change the culture, to open the doors. Not just with VA, but 
DoD as well, so that we can look at, I mean, just listening to 
this panel there are so many tremendous opportunities and 
organizations out there. Here in Maryland, there are some 
programs in Montana, in California, collaborative efforts. But 
they do not function together. No group or no State is able yet 
to access and speak to others in the other States so that we 
have a comprehensive system.
    So outreach is important, but if the people then do not 
know where to go from that initial point of outreach to the 
various organizations, the Easter Seals, George Mason 
University, for somebody with the GI Bill. So it really needs 
to be at the top level, that a change in culture and a 
structure needs to be developed so that we can knit these 
together.
    Mr. Bronzan. Yes, I think it is a great question and it is 
a very important thing. I mean, in our work in these two 
States, county by county, we found two kinds of folks. There 
were some that were very inbred in their thinking that if they 
did not, whether it is VA or DoD or a private agency, that if 
they did not make it they did not want to do it. Or, if they 
could not control it they did not want to do it. And they did 
not really want to collaborate with anyone. But there are 
others who are, I think, of a much more newer thinking. That 
they cannot do it alone. They have to reach out and they have 
to work with other people, especially community-based 
organizations where people live. And it is that group that we 
worked with, and were fortunate enough in the two States 
because there was an outpouring of it.
    In fact, we had one State director, VA director, say to us 
that what he liked about the Network of Care as one model is 
that it was outside the VA and it was easier to connect with 
all the community-based organizations on behalf of the vet, 
which is a rather extraordinary comment that I am not sure you 
would have heard just a few years ago. So I think there is a 
new generation of thinking. And that thinking has to be 
encouraged and supported so that these two sides can reach 
across the space to each other and help the veteran in a more 
meaningful way.
    Mr. Rutta. I would definitely agree with what has been 
said. I think two other perspectives. One, the Easter Seals 
really takes an individualized but family centered approach. 
And I think the VHA and the VA generally would do well to 
really look at the veteran in terms of the context of family, 
and how the family truly can be supportive and actually help 
the system overcome the resiliency training that many of these 
veterans carry from their military days where it is difficult 
for them to accept help, difficult for them to identify a 
problem. And so the extended family and organizations that they 
trust, like ours, can actually be a partner to the VA in that 
effort. But the VA has to recognize that important role of 
family in the holistic support of the veteran.
    The other piece would be for older veterans there is a lot 
of collaboration with the community-based organizations around 
adult day services. Although the Veterans Affairs Department 
and VHA does indeed offer adult day services themselves, they 
do frequently outsource that service within a tremendous amount 
of information sharing and mutual learning that occurs, which 
benefits the veterans and their families. There are some 1,300 
other adult day centers that are out there that could really be 
a partner to the VA in maybe diverting some older veterans who 
might otherwise end up in VA supported nursing homes or in 
hospitals, helping them stay in the community. So reach out to 
the aging network, the Administration on Aging as a partner, in 
that natural other system of care that could be a partner to 
them.
    Mr. Perriello. Let me ask a follow up question to that. You 
know, I represent a district that includes Charlottesville, 
Virginia, the University of Virginia, a very highly educated 
small town with a lot of hospital care. But it also goes to the 
North Carolina border. About two-thirds of my district is 
highly rural. How much of a discrepancy are you finding in 
interest in these strategies for, say, rural versus urban? And 
how much in terms of need are you seeing in geographical 
discrepancies?
    Ms. Romberg. Well there is a tremendous need in the rural 
communities. We are now developing State initiatives, and our 
first State initiative was with West Virginia because they have 
so few resources available. We are also working in Arkansas for 
the same reason. So the need, again, to develop a strategy to 
link together. That is what is missing. There has not been, 
yet, a strategy from, for our country to step up. This is not a 
VA issue. It is not a DoD issue. It is not a community-based 
resources issue. It is a national issue. And until we figure 
out a strategy and a plan to organize who is available in the 
rural communities--it is very doable. We are starting to look 
at that in States like West Virginia. Something very 
innovative, like working with the Council of Churches. Because 
they are who, those folks, the ministers, the pastors, they 
often see the veterans and their families first. But who do 
they contact to develop an approach in that way, is critical 
for those rural communities. Because there is not anyone there 
to provide services.
    Mr. Bronzan. In our work, because we are statewide in many 
States, we are able to do surveys and learn some things. And it 
is very interesting, the Network of Care, looking at rural and 
urban. In the urban areas the sites are used more than all 
other mental health services in the county combined. But in the 
rural areas, they are used as much as three times as much as 
they are in the urban areas. And it is because modern internet 
technology is a way for people who are in rural, isolated areas 
to get information and to connect with other people.
    So it should never be underestimated, the value of internet 
technology, to gain information in the rural area. They use it 
very heavily.
    Mr. Rutta. And I would just say for Easter Seals, because 
we are a nationwide organization, we have a special interest in 
outreach to rural residents with disabilities. In fact, almost 
20 years ago, we worked with Congress to create a program 
called AgrAbility. It helps farmers and ranchers with 
disabilities. A significant percentage of those individuals are 
veterans. And what we found is, they frequently encountered the 
geographic barriers. They were not able to tap the VA services 
as often as they would like. And in some instances, those local 
VAs, often working through the State veterans office, would 
indeed engage Easter Seals or others in helping those veterans. 
And it would just provide some continuity, a watchful eye, 
someone to help that veteran and their family stay connected in 
a way that really benefited the larger organization.
    I know in Iowa our AgrAbility Program has got a contract 
with the VA to help do the home assessments and modifications. 
It is a wonderful role for us to play. It is a modest 
reimbursement to us, but critical, and that would be something 
we would like to see replicated. But what was mentioned on the 
panel is that that is often a case that has to be made, you 
know, medical facility by medical facility, very locally. It 
would be good to have that leadership from Central Office.
    Mr. Pollard. In preparation for our conversation today, I 
spoke to my colleagues in counseling centers across the country 
using our listserv and asked them about their concerns. And it 
was interesting to hear from communities that are more rural 
and more separated having spent 23 years on a college campus 
that was quite rural before coming to Virginia. What I found 
was that there is tremendous concern on campuses that are 
distanced from resources that the Government provides, and that 
there is, that concern runs along these lines. One or two, 
three or four, veterans with high need could throw the 
resources in some of these colleges into a very difficult 
position. There is no way for them to really cope with some of 
the special needs that our returning veterans are displaying. 
And they are tremendously concerned. Some of the most heartfelt 
outreach from some of my colleagues came from places that 
talked about the fact that it may cost them literally thousands 
of dollars a week to accommodate a soldier who lost hearing 
because of a, you know, an explosion nearby. And these small 
universities are already on a very tight string, and that kind 
of cost puts them in a position where they are beyond their 
ability to, you know, the tuition does not take care of it. So 
they are very, very concerned that the returning vet on some of 
these campuses, especially with the GI Bill, is just not going 
to help. They are going to be going in negative territory.
    Mr. King. The observation I would make is that, you know, 
the VCAT initiative is all about assessing communities, looking 
at the fabric of that community, the chemistry of the service 
providers that make services accessible to veterans. It was 
mentioned in the Network of Care and on the previous panel that 
one of the essential ingredients to a high functioning 
community is the accredited service officers, and the role they 
play, whether they are State, county, or national service 
organizations. And whether you are rural or urban, to be able 
to have veterans referred to someone who will serve as their 
legal advocate, develop a well-developed claim ready to rate, 
and produce the outcomes that basically requires the Federal 
Government, then, to perform. Those are pretty essential 
ingredients to sustainable outcomes for veterans and for the 
community. It is a return on the investment. If you cannot 
figure it out from here and here, let us help you understand 
from the pocketbook about how important it is to pursue the 
rights and benefits of veterans and their families.
    Mr. Perriello. I really want to thank you all again for 
your contributions. I think it will be interesting to see, as 
Mr. King and Mr. Bronzan discussed the extent to which the 
internet does bridge this gap. Not just the establishment of a 
Web site but the interactive components of Web 2.0 technology, 
the social networking, telemedicine, and other issues, and how 
that may prove to be part of this conversation. Where it is not 
simply a producing of information but a dialog. We really 
appreciate all of your comments. Thank you for your time. And 
with that, I will dismiss the panel.
    Let me call up Paul Hutter, Chief Officer, Legislative, 
Regulatory, and Intergovernmental Affairs for the VHA; 
accompanied by Ev Chasen, Chief Communications Officer, 
Veterans Health Administration; John Brown, Director of 
Operation Enduring Freedom and Operation Iraqi Freedom Outreach 
Officer for the VHA; and Emily Smith, Deputy Assistant 
Secretary for Intergovernmental Affairs and the Officer of 
Public and Intergovernmental Affairs at the VA.
    Mr. Hutter, thank you for joining us. You may begin.

   STATEMENT OF PAUL J. HUTTER, CHIEF OFFICER, LEGISLATIVE, 
  REGULATORY, AND INTERGOVERNMENTAL AFFAIRS, VETERANS HEALTH 
     ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS; 
    ACCOMPANIED BY EV CHASEN, CHIEF COMMUNICATIONS OFFICER, 
VETERANS HEALTH ADMINISTRATION; JOHN BROWN, DIRECTOR; OPERATION 
ENDURING FREEDOM AND OPERATION IRAQI FREEDOM OUTREACH OFFICER, 
    VETERANS HEALTH ADMINISTRATION; AND EMILY SMITH, DEPUTY 
 ASSISTANT SECRETARY FOR INTERGOVERNMENTAL AFFAIRS, OFFICER OF 
   PUBLIC AND INTERGOVERNMENTAL AFFAIRS, U.S. DEPARTMENT OF 
                        VETERANS AFFAIRS

                  STATEMENT OF PAUL J. HUTTER

    Mr. Hutter. Mr. Chairman, thank you for providing me this 
opportunity to discuss VHA's outreach activities to veterans. I 
am accompanied today by Emily Smith, Deputy Assistant Secretary 
for Intergovernmental Affairs; and to my right Ev Chasen, who 
is VHA's Chief Communications Officer; and on my immediate 
left, John Brown, Director of the VHA OEF/OIF Outreach Office.
    VA's mission is to care for those who have borne the 
battle, to honor those who have worn the uniform by providing 
them the highest quality health care and benefits available. 
This mission can only be accomplished when veterans know the 
full range of services we offer. VA is committed to reaching 
out to veterans and their families where they are to support 
these ends. This includes not only reaching into rural 
communities but entering virtual communities and establishing 
communications and connections there as well.
    Before I move on, Mr. Chairman, I want to say on behalf of 
the Department, I want to thank Mr. Leal of the previous panel 
for his service and his sacrifice, and appreciate this 
testimony and suggestions concerning outreach. I also thank Mr. 
Rowan, Mr. Jones, and Mr. Johnson for their service and their 
suggestions on behalf of veterans. And I also want to extend 
out thanks to the previous panel, the Members of the previous 
panel who are not veterans, who are still dedicated to their 
mission and to help us reach out to veterans in an effective 
way.
    My written statement, which I ask to be submitted for the 
record, highlights four forms of outreach. Direct outreach to 
separating servicemembers, program specific outreach, outreach 
to rural areas, and outreach using new technologies. In the few 
minutes I have now, I would like to show you some examples of 
the outreach we are doing and the new initiatives that we have 
underway.
    I would like to begin by showing two public service 
announcements (PSAs) that VA has produced and are currently 
airing across the country. The first features Deborah Norville, 
a two-time Emmy Award winner. The second features Gary Sinise, 
an Academy Award winner, whose portrayal of Lieutenant Dan in 
the movie Forrest Gump put an unforgettable voice and face to 
veterans returning from Vietnam. Mr. Sinise's PSA is directed 
toward veterans, and Ms. Norville's is aimed at the family 
members of veterans who may be in need of VA's suicide 
prevention hotline. With the Chair's permission, I would like 
to show those two videos now.
    [PSA video featuring Deborah Norville shown. Text of PSA 
video by Deborah Norville appears below:]

      L  ``You may be seeing warning signs of depression or 
suicide. Some of these warning signs can be that the veteran 
seems disconnected from family or friends, starts to give away 
prized possessions, displays anger or rage, or overreacts to 
problems. The VA is reaching out to help so please reach back. 
If your loved one is a veteran, and if you even think you see 
these warning signs, call 1-800-273-TALK and press one. That is 
1-800-273-TALK and press one. Do not second guess yourself. 
Reach out for help.''.

    [PSA video featuring Gary Sinse was not shown due to 
technical difficulties.]
    Mr. Hutter. Cannot get it to go? Okay. Mr. Chairman, the 
second PSA announcement from Mr. Sinise has in the last 6 
months between October 13, 2008, and April 13, 2009, this PSA 
was broadcast more than 8,700 times by 155 stations in almost 
100 markets. During this same time period, VA's suicide 
prevention hotline received approximately 50,000 calls across 
the Nation, an increase of approximately 25 percent based on 
the previous 6 months.
    Last year, VA advertised the suicide prevention hotline on 
buses and Metro trains in the Washington, DC, area resulting in 
a significant increase in calls to the hotline from the area. 
This year we have begun advertising in Spokane, Washington, and 
will soon advertise on public transit systems in Miami, Los 
Angeles, San Francisco, Oakland, Phoenix, Las Vegas, and Dallas 
metropolitan areas, all locations where the suicide rate among 
veterans is higher than the national average. In addition, VA 
is working with a company to purchase advertisements on 20,000 
buses nationwide. You have probably seen the advertisements VA 
displayed on Metro buses and railcars. Here are two pictures of 
our advertising in the Spokane, Washington, public transit 
system.
    So this, again, is focused on the suicide prevention 
hotline. In addition to these 20th century forms of outreach, 
VA has leaped into the 21st century by developing Web sites 
accessible to mobile devices, and by venturing into portions of 
the cyber community where veterans are most likely to 
congregate or visit. Thirty years ago VA's outreach strategy 
was to visit the local VFW or, more recently, VVA halls. Today 
we post blogs and videos accessible to veterans wherever they 
are.
    We have two images of VA's Web site as viewed on a mobile 
handheld device. So this is available on an iPod or something 
similar as well. First you can see an easy to use menu with 
information at the touch of a button. Second, you can see a 
news story, complete with image, that provides information to 
veterans about benefits or services that strike their interest. 
We understand veterans are busy and may need information on the 
go. So we are adapting our systems to meet their needs. These 
sites are available through any cell phone or other handheld 
device with internet access.
    The next slide provides a demonstration of VA's presence on 
Second Life, a free, three-dimensional, virtual world where 
users can socialize and interact with one another. VA offers 
information and points of contact where veterans or family 
members can learn more about our programs. The following slide 
shows VA's Facebook page.
    Here you can see images of VA's winter sports clinic, a 
great venue for outreach and inspiration, where VA partners 
with our colleagues at Disabled American Veterans to support 
the rehabilitation of wounded or injured veterans.
    I am also proud to say that even bureaucrats can use 
YouTube. VA now posts videos with stories or services that 
impact the lives of veterans.
    And finally, Mr. Chairman, VA has also created a new Web 
site for returning veterans that provides useful information 
about eligibility, benefits, health care, and other services. 
This Web site features a blog with comments from veterans and 
family members. We recognize we must develop social networking 
strategies, including nontraditional outlets, and a wide 
variety of new media to communicate VA's message about our 
services.
    I want to point out, Mr. Chairman, that on the right side 
of this you see what is called a panel, and the more visible 
areas are the ones that veterans have clicked on to get those 
services. And that gives us an indication of how many, I am 
told that the word is not hits but encounters, on that 
particular part of the Web site.
    The other thing I wanted to mention is that the social 
networking sites that I mentioned earlier are also available 
from this central location, this central Web site.
    These new technologies have entered into health care 
delivery. One VA facility has begun piloting a program that 
uses text messaging to help veterans send their home-based 
blood pressure readings to their clinicians. Researchers found 
veterans who used this text messaging achieved their blood 
pressure goals 2 weeks sooner than those who used other 
methods.
    More broadly, VA could not serve veterans to the degree it 
does without the immeasurable help of veterans service 
organizations (VSOs), faith-based, and community groups. I 
would like to thank the Committee for inviting Mr. Leal as well 
as the representatives of the other panels to share their 
views. Because we see these hearings as an opportunity for 
exchanging information and for listening to those who matter 
most to us, our veterans.
    VA maintains constant contact and holds regular meetings 
with VSOs and groups at all levels of the organization to 
provide information about VA's programs and offerings while 
soliciting feedback about concerns present in the community. 
Working with these community partners helps significantly 
expand VA's reach to millions of people who may not otherwise 
hear of our offer of care and service.
    In conclusion, Mr. Chairman, VA understands that different 
veterans will receive messages in different ways and at 
different times. It is our duty to notify veterans of the 
repayment our Nation offers in gratitude for the sacrifices 
they have made. We must continue programs that are successful 
and develop new methods when our current measures are 
insufficient. Our mission is to reach out to family members, 
employers, community stakeholders, Reserve and National Guard 
units, and veterans to make sure they know how to access help 
when they need it.
    Thank you again, Mr. Chairman, for the opportunity to 
testify. My colleagues and I are prepared to answer any 
questions that you may have.
    [The prepared statement of Mr. Hutter appears on p. 61.]
    Mr. Perriello. Thank you very much to you, Mr. Hutter, and 
to your team for being here today. It is exciting to see that 
the VA is working hard on the new technologies and other areas 
to break ground. Let me ask a few follow up questions. One is, 
with the increase in calls to the call centers, this is 
obviously a very urgent topic to all of us. My understanding 
from your submitted testimony is that you have had over 660,000 
calls, but only been able to speak with about 160,000 folks. 
What is the strategy for follow up being conducted with those 
that you do not reach?
    Mr. Hutter. Mr. Chairman, I am going to defer that question 
to my colleague, Mr. Brown, who can address that directly.
    Mr. Brown. Thank you, Mr. Hutter. Mr. Chairman, we started 
the call center, combat veteran call center, in May of 2008, 
that was directed by Secretary Peake. Our attempt was to go 
back to October 2001 for all of those individuals, OEF/OIF, 
servicemembers that have separated, since October 2001 through 
December 2008. We had a twofold purpose. The first purpose was 
to call the servicemembers that we knew were injured. And that 
amounted to about 15,600. They were either severely injured, or 
they were ill or impaired. The purpose of that was to call them 
to find out whether their case managers were doing the right 
thing by them, whether they were actually being seen on time, 
and to ask whether they had any other issues that needed to be 
addressed, such as benefit issues. All of these things were 
documented. The second population were clearly those who had 
separated and had not had an encounter with the VA health care 
system. That was the 550,000 population.
    To date, your numbers are correct. The numbers that we 
submitted are on target. Out of the 660,000 that we have 
attempted to call, we have spoken with 160,000. This does not 
include the messages that have been left on answering machines 
or messages left with loved ones. If you look at that 
percentage it is not 24 percent, it is 74 percent.
    Our leadership, to include Mr. Hutter, thought it would be 
best that we show real numbers, the veterans that we actually 
spoke with. That is important. The attempt now is to look for a 
search engine, a database that would review financial records, 
Internal Revenue Service (IRS) records, and update phone 
numbers, and we will try to call him again.
    Mr. Hutter. Mr. Chairman, if I could add to that answer? 
One of the things that you may have noted in our written 
testimony is that we are reaching out particularly to Reserve 
and National Guard servicemembers as they return in an 
iterative way. As they come back, Mr. Brown and our colleagues 
at our 153 medical centers are reaching out to each of these 
Reservists and National Guardsmen and signing them up, if you 
will, by filling out an enrollment form, our 1010EZ. And they 
are filling that out as they come back. We are then taking 
those forms and Fedexing them now, soon to be sending them 
electronically, to the medical centers where they will receive 
care. Because as they come to a demob center they are not 
necessarily going to receive care in that particular locus.
    So the idea, then, is to sign them up as they come in. We 
have now approximately a 93 percent enrollment rate based upon 
those folks that have come back using either the demobilization 
process--strike that. The demobilization event, or the post-
deployment health assessment event, or the post-deployment 
reassessment event. And these occur iteratively because of the 
fact that as the soldier, sailor, airmen, Marine, Coast 
Guardsmen come back they are not particularly interested 
immediately after they get off the airplane or train in signing 
up for VA health care. So what we do is we track them and hit 
them at iterative spots. So we get to the teachable moment when 
they are most poised to listen to our message and realize the 
benefit.
    Mr. Perriello. Sticking, for a moment, with this issue of 
the new technology communication, your fourth category, what 
indicators are you looking at for whether this is actually 
working? Is it number of friends on Facebook? And also, related 
to that, to what extent is this largely hitting our most recent 
veterans versus Vietnam vets and others who are also accessing 
the same technology?
    Mr. Hutter. Mr. Chairman, I am going to defer that question 
to Mr. Chasen who is VA's guru of the web.
    Mr. Chasen. Paul, I do not think I accept that title. But I 
can answer the question, sir. There are several measurements 
that we are using. The most important one is the American 
Customer Satisfaction Index, and you have seen these on Web 
sites. As you click on a Web site it asks, ``Would you take a 
moment and take a survey for us?'' We have that on all our Web 
sites. If you click six times, you reach the sixth click, you 
are asked to take a survey. We take those surveys very 
seriously. They provide us information both on customer 
satisfaction and on the kind of information that those who are 
looking at the Web site are looking for, and whether they have 
what we need.
    We have had, I think, mixed success. Our ratings, other 
Federal agencies do the same thing, our ratings are now in the 
middle of the pack. We certainly hope to do better and to 
continue to do better.
    As far as Facebook goes, our best measurement, and we have 
been live on Facebook for about 6 months but we have actually 
been publicizing it only for the last couple because of cyber 
security issues. We have 1,800 fans. We hope to get a lot more. 
I do not know what to judge that against, other than the entire 
population of veterans. But we do look at it. We are looking 
for continued increase, not necessarily a number.
    The other thing that you asked about is who is using it. 
The answer from ACSI is veterans of all ages. Some of our 
sites, the OEF/OIF Web site, obviously, is for veterans of Iraq 
and Afghanistan. But what we found is that in our more general 
portals and information that we have a lot of Vietnam veterans, 
some World War II veterans and family members. Everybody uses 
the web now. It is not just something for our newest veterans.
    Mr. Perriello. Well, 1,500 fans out of 23 million veterans 
does not jump off the page at me. I think I may have more 
friends than that on Facebook. But it is early in the process 
and I think looking at the strategies that have been more or 
less successful, and having some experimentation there is a 
good thing.
    If I can also ask the panel to address some of the concerns 
and frustrations that were raised in the earlier panels? And 
specifically, comment on the issue of more partnership with 
communities and community-based strategies from the last panel.
    Mr. Hutter. Mr. Chairman, as the Easter Seals 
representative indicated, in the last Administration we 
attempted to create a collaborative relationship with many of 
the community-based organizations that offered help, but did 
not know exactly where and how to connect and how to provide 
that help. As a result, we created a gateway and an ombudsman 
position whereby that person would take the good efforts and 
offers from community-based organizations and would direct 
those organizations to where the VA could use that help the 
most. And although the new Administration is working on this it 
is a work in progress and a partnership in progress. But we 
have taken the first steps to get that organized.
    Mr. Chasen. Mr. Chairman, if I could add, tomorrow morning, 
this evening I am going to get on a plane to fly to Houston. 
Tomorrow morning I am going to be speaking to VA's great effort 
in collaborative work with communities and community 
organizations which is our voluntary service program. We do 
have 140,000 volunteers. We do have, I think the number is 59 
organizations who work with us and provide volunteer support to 
our hospitals and clinics, and to veterans. We are very, very 
grateful for that. I am not sure it is the model for the new 
issues that were raised, but we certainly have long had a great 
deal of involvement with community organizations and groups.
    Ms. Smith. I would also like to add, if I could, first of 
all prior to coming to VA I was, I am, a licensed clinical 
social worker and ran a community mental health center in rural 
Iowa. So much of what our panel spoke to I related to from my 
prior experience.
    I have only been at VA for a little under 60 days. I have 
been incredibly impressed with the efforts that, across VA, are 
being made on behalf of our veterans, and the outreach that is 
taking place. There is a strong desire by the Secretary and by 
my boss, Tammy Duckworth, to coordinate those efforts 
throughout VA and the outreach that we are doing. We would also 
like to look at opportunities, in fact the Secretary tasked me 
just last Friday with coming up with a list of all the 
community organizations nationally that are interested in 
partnering with VA. So there is a huge desire to build those 
relationships as we move forward as a new Administration.
    Mr. Perriello. Thank you. And we certainly appreciate Ms. 
Duckworth's service to her country as well. Some of the VSOs 
have expressed concern--this is another metrics question--about 
how the VA tracks outreach expenditures. Could you say a little 
more about how the VA budgets and funds outreach activities? Is 
funding allocated on a facility-by-facility basis? And how has 
that been trending during the OEF/OIF period?
    Mr. Hutter. If I could attack that question from VHA's 
perspective and perhaps defer to Ms. Smith with respect to the 
Administration's intent overall? With respect to VHA we use the 
medical centers as our bases of outreach. Each of our medical 
centers, for example, has an OEF/OIF program coordinator, 
whereby they provide outreach to the community and participate 
in the various welcome home events, the yellow ribbon program 
that is described in my written testimony, and partnering with 
DoD activities in the local communities. In terms of 
expenditures, then, that is those expenditures are rolled up, 
if you will, from the field based operations up through the 
networks and up to the headquarters in terms of those 
activities.
    That is certainly the basis not only of reaching out to 
OEF/OIF veterans but also with respect to any other targeted 
groups that we need to provide outreach for. Mr. Chasen 
mentioned our voluntary services coordinators and others in the 
medical centers who also do this outreach and the welcome home 
activities, and partner with community-based groups to reach 
out to older era veterans, or past era veterans, if you will. 
And so it is primarily a field-based operation that gets rolled 
up to the headquarters.
    Ms. Smith. I think the Secretary's vision for outreach for 
VA will look like a centralized management structure with 
decentralized execution. So hopefully, we will move to a point 
where much of our outreach is funded from one source.
    Mr. Perriello. Right now most of the media campaign that 
has been run has been focused on suicide and suicide 
prevention. There is an obvious sense of urgency there. Is 
there a sense of moving into other issues that need to be 
communicated? Other health and benefits issues? Or is the 
current plan to focus primarily on that?
    Mr. Hutter. Mr. Chairman, I will take just a moment to 
discuss that and then turn it over to Mr. Chasen. There are 
several programs that are teed up right now and ready to move 
out. And I would like to defer to Mr. Chasen to describe at 
least one of those in detail.
    Mr. Chasen. Thanks, Paul. Mr. Chairman, first of all the 
suicide prevention program has a very, very simple message 
which is to get that number to a veteran or a loved one when he 
or she needs the number. So it is an ongoing program that will 
not stop, that we will continue to find new ways to get that 
information in front of people. That being said, we are 
working, and Dr. Victor Wahby who is in the audience behind me 
is responsible for some of these programs. We are looking at 
the issue of destigmatization of mental illness, which is very 
important to us. And we will be rolling out products related to 
that. We are going to be working on health literacy. Last year 
we did a considerable amount of work to try to inform veterans 
about the dangers of diabetes and the need to exercise and eat 
healthy. And we will continue to use the power of the media and 
our ability to mount campaigns to try to keep veterans 
healthier through the media.
    Mr. Perriello. One of the things that I hear a lot 
anecdotally from veterans, and from those who have had some of 
the experiences we have heard about today, is that there has 
been at least as much success if not more reaching the families 
of veterans as reaching the veterans themselves. What 
strategies are we seeing to reach those families? Is there any 
indication that there is more or less success in those outreach 
efforts?
    Mr. Hutter. Again, Mr. Chairman, we go back to the very 
successful efforts that we have had in reaching veterans as 
they come home, and iteratively reaching out to them. The 
Yellow Ribbon Program is a DoD program that we are heavily 
invested in as partners with DoD. And we talk to veterans and 
their families before the veterans deploys. We talk to families 
during the deployment phase so that we can get the family when 
the veteran is out of the country. Thirdly, we talk to families 
not at the demobilization but at welcome home events and at 
events that are targeted at the 30-day, the 60-day, and the 90-
day mark after the veteran returns from deployment. All of 
these events are attempts to make sure that that families are 
aware of the health care benefits that the veteran is entitled 
to. For example, the 5 years that the veteran can use VA health 
care without otherwise being eligible. Also, the 180 days of 
dental care that the veteran is entitled to. These are numbers 
and programs that resonate with the families. And so that they, 
even if it does not resonate with the veteran upon return, 
their family members will prompt the veteran to take advantage 
of these programs when they come back. So if you look at the 
deployment cycle as a circle, we are invested in every axis, if 
you will, of that circle along a radius so that the veteran and 
the family gets that advantage.
    One other point that I would like to make. We recently had 
a Post-Deployment Health Reassessment (PDHRA) event in 
Indianapolis for the 76th Brigade Combat Team that came back. 
About 3,200 soldiers came back, and we did the post-deployment 
reassessment at that location. Those reassessments were 
conducted at VA hospitals in Indianapolis itself, Fort Wayne, 
and in Evansville. The soldiers were able to see not only what 
a VA medical center looked like, but were also able to see how 
much VA employees cared about them and made sure that they 
understand what a warm welcome and a warm battlefield handoff, 
if you will, there was between military health care, DoD health 
care, and VA health care. During that weekend, there were, 
tragically, a soldier was indicating suicidal tendencies. But 
that soldier was able to be taken care of right there on the 
spot during that reassessment program. Another soldier 
indicated homicidal tendencies. And we were able to get him 
into health care and into mental health care immediately 
onsite. So my point, sir, is that the VA's forward leaning and 
working closely with DoD is enabling that family to see what 
the advantages of VA health care are.
    Mr. Perriello. Thank you very much for that answer. Thank 
you again for your time today. We really appreciate it. The 
Subcommittee will be sending follow up questions for the 
record. And with that, this hearing is adjourned.
    [Whereupon, at 4:45 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

        Prepared Statement of Hon. Michael H. Michaud, Chairman,
                         Subcommittee on Health
    I would like to thank everyone for coming today.
    This Subcommittee on Health hearing will assess the VA's 
responsibility to conduct an outreach program to veterans of all eras, 
including internal coordination that takes place between the Veterans 
Health Administration and the other administrations of the Department. 
We also seek a more complete understanding of the VA's outreach efforts 
and strategies, as well as the funding spent on these outreach 
activities.
    Today, there are over 23 million veterans who have served this 
country. Of this total, the VA estimates that the number of veterans 
enrolled in the VA health care system will reach 8.3 million in 2009 
and that the VA will treat nearly 6 million of the enrolled veteran 
population. Six decades separate the newest generation from the oldest 
generation and 9 million veterans are over the age of 65. According to 
the VA's Center for Minority Veterans, the minority veteran population 
comprises approximately 15 percent of the Nation's 23.4 million 
veterans. Women veterans are included in these minority groups as well.
    This demographic data illustrate the sheer number of veterans who 
stand to benefit from improved VA outreach efforts. Additionally, it 
shows the importance of outreach strategies which must be 
individualized to meet the unique needs of sub-populations of veterans. 
For example, outreach strategies for older veterans should differ from 
that of younger veterans. Additionally, the outreach methods for rural 
areas may differ from that of urban areas. The VA is also faced with 
the challenge of developing effective outreach strategies which are 
culturally competent and thus, able to overcome potential cultural 
barriers. Briefly recounting the legislative history of enacted 
legislation on outreach brings us to the Vietnam War. During the 
Vietnam War, increased awareness of veterans not receiving adequate 
information about health care benefits resulted in Congress enacting 
the Veterans Outreach Services Program (VOSP). To address this concern, 
Congress charged the VA with the responsibility of actively seeking out 
eligible veterans and providing them with benefits and services. Under 
the current law the Secretary is responsible for advising each veteran 
at the time of discharge or release of all benefits the veteran may be 
eligible for.
    Next, Public Law 107-14, the Veterans' Survivor Benefits 
Improvement Act (VSBIA) was enacted in 2001 to further expand outreach 
to eligible dependents. This law also provided that the Secretary 
ensure the availability of outreach services and assistance through the 
internet, veterans publications, and the media.
    Finally, Public Law 110-389 or the ``Veterans' Benefits Improvement 
Act of 2008'' was enacted last year. Section 809 of this law gave the 
Secretary the authority to advertise in national media.
    Despite these legislative authorities, the VA has imposed a self-
imposed ban against paid public advertising, including Public Service 
Announcements which was only removed recently in June of 2008. Although 
the existing statute does not prohibit the VA from conducting media 
outreach, the VA has only implemented a single media campaign on 
suicide prevention to the Subcommittee's knowledge.
    VA has struggled in the past with effective outreach services. For 
example, pamphlets and other outreach materials are often located in 
the VA's own medical center, which means that this important 
information does not reach those veterans who do not already utilize VA 
services. Another example is a memorandum issued on July 18, 2002 by 
the VA Deputy Undersecretary for Health for Operations and Management 
to all Veterans Integrated Services Networks of the VHA prohibiting 
marketing geared toward increasing enrollment. This was an effort of to 
limit the fast growing demand for health care services which exceeded 
the VA's resources.
    We also know that some Veteran Service Organizations accused the VA 
of not providing outreach to veterans and dependents in accordance with 
the law. Nearly 18 months later a second memorandum was issued by VHA 
instructing the directors to ensure that their facilities were in 
compliance with responsibilities outlined in the outreach program.
    Clearly, these are serious issues deserving of this Subcommittee 
hearing. Today, the Subcommittee looks forward to hearing from the 
witnesses of the panels as we embark on the important task of exploring 
effective ways to improve outreach to our deserving veterans.

                                 <F-dash>
  Prepared Statement of Hon. Henry E. Brown, Jr., Ranking Republican 
                     Member, Subcommittee on Health
    Thank you Mr. Chairman.
    When our servicemembers come home from the battlefield, they think 
about getting back to their families and their civilian lives. Often, 
they do not think about connecting with the Department of Veterans 
Affairs (VA).
    Yet, the process of transitioning back to the civilian world can be 
challenging for veterans and their families. And, I am deeply troubled 
when I hear stories about a veteran not knowing what services exist, 
where services can be obtained, or whether they are eligible for those 
services.
    Central to the mission of the VA is to reach out to make every 
veteran aware of what services are available to support them and assist 
them in using these services. And, that is why it is so important that 
we are holding this hearing today to examine how effective VA's 
existing outreach is and what more can be done to ensure that our 
Nation's heroes know and have access to the benefits and services they 
need and deserve.
    It is encouraging that a higher percentage of our returning 
warriors are seeking VA for their health care needs than in any 
previous war. And, I do want to commend former Secretary of Veterans 
Affairs, Dr. James Peake, for the great strides he made to improve 
outreach and the coordination of care for our veterans. Under his 
strong leadership, the VA launched a number of outreach initiatives 
including: lifting restrictions on advertising to promote awareness of 
VA's programs and services; rolling out a new public service campaign 
about suicide prevention; establishing the Combat Veteran Call Centers 
to telephone returning veterans to provide information about VA 
services; opening new rural outreach clinics; and expanding VA internet 
presence through ``You Tube'', ``Facebook'' and ``MySpace'' to reach 
younger veterans.
    I would like to thank all of the witnesses for taking the time to 
appear before the Subcommittee today. I look forward to hearing about 
issues you see and ideas you have for improving VA's outreach and 
relationships with the Department of Defense, states, local communities 
and private organizations to help link veterans to VA services.
    Thank you, Mr. Chairman. I yield back my time.

                                 <F-dash>
         Prepared Statement of John Rowan, National President,
                      Vietnam Veterans of America
    Good afternoon, Chairman Michaud, Ranking Member Brown, and Members 
of this distinguished Subcommittee. On behalf of the Members of Vietnam 
Veterans of America and our families, I am pleased to offer VVA's views 
on outreach activities of the Department of Veterans Affairs.
    The VA, by any standard, does an entirely inadequate job of 
reaching out to veterans and their families to inform them of the 
benefits to which they are entitled by virtue of their service, and 
health conditions that may derive from their time in service. I can't 
tell you how many calls and e-mails we get from veterans, or their 
loved ones, with questions about illnesses that may be associated with 
their exposure to Agent Orange (dioxin) during their tour of duty in 
Vietnam. I can't tell you how many times, when we meet with veterans 
and talk about health and health care issues, we are greeted with 
something akin to astonishment because no one has ever mentioned this 
to them before.
    Almost 80 percent of veterans do not use the VA for their health 
care. While most veterans have insurance that enables them, and their 
families, to go to private physicians of their choice, many of these 
folks are only a paycheck or two away from losing their insurance. 
Posters that decorate walls and pamphlets that populate kiosks at VA 
medical centers and outpatient clinics do not reach these folks. Nor do 
the video productions that are supposed to be run on televisions in the 
waiting areas of these facilities: Veterans waiting to be seen by a 
clinician watch CNN, or ESPN, or Oprah.
    It is precisely because the VA has, in our estimation, fallen down 
on the job that VVA, in concert with dozens of health advocacy 
organizations, health care firms, and others concerned about improving 
the health of our Nation's veterans, has created the Veterans Health 
Council. The Council aims to fill a void that has long threatened to 
become an abyss. By working together, we hope to reach out to veterans 
and their families to inform them not only of the benefits to which the 
veteran is entitled by virtue of having donned the uniform, but about 
those diseases and other maladies that may derive from their time in 
service. We hope, too, to reach out to the wider health care community, 
to educate them about such health care conditions. It is our hope, 
through the Council's Web site, www.veteranshealth.org, and the Web 
sites and publications of our partners, that we might reach hundreds of 
thousands of veterans who otherwise might not know that the disease 
that is plaguing them and eating away at their savings may be 
associated with their service in Vietnam, or Korea, or Kuwait, or Iraq, 
or Afghanistan, and that they are eligible for treatment and may 
qualify for disability compensation and pension as well as other 
benefits from the VA.
    You in Congress have been most generous in the past few years in 
providing the funds that the VA health care system needs to meet the 
demand for its services. But we ask you: Can you discern, from the VA's 
budget submission, how much money is being allocated for outreach? We 
have long supported the efforts of Senator Russ Feingold to enact into 
law the requirement that there be a line-item amount for outreach not 
only for the entire department but also for its individual entities. 
The Senator's bill this year, S. 315, the Veterans Outreach Improvement 
Act of 2009, would require the Secretary of Veterans Affairs to 
``establish a separate account for the funding of the outreach 
activities of the Department, and shall establish within such account a 
separate subaccount for the funding of the outreach activities of each 
element of the Department.''
    While we have every confidence that Secretary Shinseki and his team 
will endeavor to make far greater efforts at outreach, we nevertheless 
believe that what is needed from Congress is legislation that would 
require the VA to devise with a coordinated outreach plan attached to 
budget numbers. Mr. Feingold's bill, if enacted, is not enough, 
although it ought to be part of such legislation. Additionally, this 
legislation would:

    <bullet>  mandate that a veteran's military medical/health history 
(please see attached) be part of his/her treatment record if a veteran 
uses VA facilities or is able to and chooses to go to private 
clinicians;
    <bullet>  require that clinicians ask, in the patient history that 
all of their patients fill out, if that patient ever served in the U.S. 
military and, if so, a series of follow-up questions to learn if the 
veteran was wounded or otherwise exposed to trauma, or was exposed to 
blood, or participated in any experimental projects, or was exposed to 
noise, chemicals, gasses, demolition of munitions, pesticides, or 
special paints; and
    <bullet>  require that all VA clinicians, particularly primary care 
providers, take and receive certification for the VA's Veterans Health 
Initiative curriculum every 3 years.

    In conclusion, I want to reiterate: Far too many of our veterans 
simply are unaware of what they are entitled to and, more importantly, 
are ignorant about health issues that are associated with their time in 
service. It's about time that we do something to fix this situation. 
VVA and the participants in the Veterans Health Council are doing our 
part. We hope that Congress will recognize the situation and do what is 
needed to rectify it.
    Mr. Michaud, and Mr. Brown, thank you for holding this very 
important hearing. I would be more than pleased to answer any questions 
you may pose.
                    Appendix: Military History Card
Military Health History Pocket Card



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



------------------------------------------------------------------------

------------------------------------------------------------------------
  What is the Military Health History
              Pocket Card?                                         The Military Health History
                                          Pocket Card is a pocket-sized
                                          resource to provide all VA
                                          health professions trainees a
                                          guide to understanding health
                                          issues that are unique to
                                          veterans.  
------------------------------------------------------------------------

Who should receive the Military Health History Pocket Card?
    All health professions trainees.
How is the Military Health History Web site used?
    It provides background information related to the questions on the 
Pocket Card. Summaries of veterans' health issues as well as links to 
other Web sites are provided.
The Card can be used to capitalize on many learning opportunities:

    <bullet>  Give trainees better understanding of the veteran's 
perspective.
    <bullet>  Encourage trainees and staff to take more careful, 
veteran-centered histories.
    <bullet>  Stimulate case discussions augmented by information found 
on the Web site.
    <bullet>  Consider discussing issues presented on the card during 
daily work rounds or informal case-based conferences.

http://www.va.gov/oaa/pocketcard/FactSheet.asp

                                 <F-dash>
  Prepared Statement of Reynaldo Leal, Jr., Representative, Iraq and 
           Afghanistan Veterans of America, (OEF/OIF Veteran)
    Mr. Chairman and Members of the Subcommittee, thank you for 
inviting me to testify today. On behalf of Iraq and Afghanistan 
Veterans of America (IAVA), the Nation's first and largest non-partisan 
organization for veterans of the current conflicts, I would like to 
thank you all for your unwavering commitment to our Nation's veterans.
    My name is Reynaldo Leal, and I served in Iraq as a Marine 
Infantryman with the 3rd Battalion 5th Marines. During my first tour, I 
participated in some of the Iraq War's heaviest fighting during 
Operation Phantom Fury in Fallujah, and after that mission was 
complete, I assisted in securing the first democratic elections in that 
city. I was deployed for a second time, 8 months after my first tour, 
and conducted counter-insurgency operations along the Euphrates River. 
As an Infantryman, I did my job well and performed my duties with 
honor. After my two combat tours, I returned stateside seemingly 
unscathed, one of only two men in my platoon with that good fortune.
    But coming home from war was much harder than I imagined. I was 
still in the Marine Corps, and I remember being good at our Urban 
Combat training. Not because I was a natural at it, but because when I 
began to hear the popping and yelling I felt that I was back in 
Fallujah. I could feel and see myself fighting the enemy again. It 
would always take me a while to get back to reality after these 
training exercises.
    When I was discharged from the Marine Corps in February 2008, there 
were two questions I feared the most: ``What was it like over there?'' 
and, ``Did you kill anyone?'' Anxious about returning home, I delayed 
going back to south Texas for as long as possible. I couldn't bear the 
thought of being around familiar faces, and that fear led me to push 
away those who cared about me the most. As my wife prepared for the 
birth of our first child, I struggled with flashbacks and painful 
insomnia, which spiraled into a debilitating depression that alienated 
my family and threatened my marriage. I knew that my wife was suffering 
as much as I was, and that I wasn't the same person she had fallen in 
love with. Suicide wasn't an option for me, but everyday made me more 
and more anxious. It turns out I was suffering from a devastating 
invisible wound: Post-traumatic stress disorder (PTSD).
    My struggle with PTSD left me dependent on the VA for mental health 
care. Since there is no VA Hospital close to my home in Edinburg, 
Texas, I have to either travel 5 hours each way to the nearest VA 
hospital in San Antonio or take my chances at our local clinic. The 
lack of funding for a permanent VA psychologist at this clinic pits me 
against my fellow veterans for limited appointment slots. If I can't 
get through on the first of the month to book an appointment, or if 
both of the psychologist's 2 daytime slots are full, I'm out of luck 
until the next month.
    Unfortunately, my experience is not unique. According to a 2008 
RAND study, nearly 20 percent of Iraq and Afghanistan veterans are 
experiencing symptoms of PTSD or major depression. But less than half 
are getting adequate treatment.
    PTSD is the silent killer for this generation of veterans. Left 
untreated, it has the potential to destroy marriages, careers and, in 
far too many cases, lives. In January of this year, the U.S. Army 
reported that 24 soldiers in Iraq and Afghanistan committed suicide; a 
figure that surpassed all combat deaths in those two theaters combined. 
That alarming statistic does not include other branches of services 
like the Marines, or veterans who have already come home from the war.
    But the numbers and statistics are only part of the picture. This 
new generation of veterans is being left to fend for themselves because 
of an antiquated system that cannot seem to find a way to reach out to 
them. There aren't any visible outreach campaigns to get these young 
men and women through the door of their local VA facility. If they 
don't know about their benefits, or even where their clinic or hospital 
is, how can they get the help they need?
    When I was struggling with PTSD, there was never a sense that the 
VA was trying to reach out to me or that anyone even understood. For 
me, there was the Corps and then there was nothing. One day I had the 
best health care and support system available for both me and my 
family, and the next day it was gone. I felt that I had been abandoned 
and that the fact that I had served my country honorably meant nothing. 
I didn't know about the claims system, I didn't know about the 5 years 
of medical care for Iraq and Afghanistan veterans, and I didn't know 
that there were others that were going through the same situations that 
I was. It wasn't until I saw IAVA's ``Alone'' ad on television and 
joined Community of Veterans that I felt someone was trying to reach 
out to me.
    It is the responsibility of the Federal Government and the 
Department of Veterans Affairs to make sure every veteran feels this 
way. But are we doing everything we can to reach out to the veterans 
who have done so much for us? The VA has taken some important steps, 
especially setting up a suicide hotline, but the answer is no.
    We owe it to our veterans to provide the best mental health 
resources available, and currently we are falling far too short of that 
goal. At my VA hospital in San Antonio, the psychologist only works 2 
days a week because that Texas clinic, like many VA clinics and 
hospitals throughout the country, has to stretch its funding to make 
sure the money lasts the whole year. They don't know how much funding 
they'll have next year because the VA budget is routinely passed late. 
In fact, in 19 of the past 22 years, the budget has not been passed on 
time.
    So despite the fact that the VA's mental health budget has doubled 
since 2001, thanks to the dedication of veterans' supporters in 
Congress, the VA is still forced to ration care for the almost 6 
million veterans that depend on its services.
    By fully funding the VA health care budget 1 year in advance we 
could provide a simple solution that would help give VA hospitals and 
clinics across the country the ability to provide stable care for 
decades to come. With the ability to plan ahead, these hospitals and 
clinics could meet critical staffing and equipment needs, so that 
veterans like me are not left waiting. President Obama recently 
reiterated his support for advance funding of VA health care, and we 
were glad to hear it. With the strong support of the President and 
bipartisan leadership of Congress, advance funding can and must move 
forward this year.
    Real action cannot come at a more critical time. As we saw just 
last week with the tragic events at Camp Liberty, our service men and 
women are under incredible strain. As a Nation, we must have the same 
emphasis on giving our veterans the necessary tools to readjust to 
civilian life as we have in giving them the tools to survive in combat.
    Make no mistake about it, the veterans of this country want nothing 
more than to become successful and productive Members of the society we 
fought so hard to defend.

Very Respectfully.
                                 <F-dash>
Prepared Statement of Richard A. ``Rick'' Jones, Legislative Director, 
              National Association for Uniformed Services

Chairman Michaud, Ranking Member Miller, and Members of the 
Subcommittee:

    On behalf of the National Association for Uniformed Services 
(NAUS), I am pleased to be here today as you examine the effectiveness 
of VBA outreach efforts. Your work is critical to ensure that VA 
outreach strategies bring the best possible care to returning troops 
and a seamless transition to their well-earned civilian life.
    The National Association for Uniformed Services celebrates its 41st 
year in representing all ranks, branches and components of uniformed 
services personnel, their spouses and survivors. NAUS Membership 
includes all personnel of the active, retired, Reserve and National 
Guard, veterans community and their families. We also serve as the main 
contact for the Society of Military Widows, a support organization for 
women whose husband died in military service or in retirement. We 
support our troops, honor their service, and remember our veterans, 
their families and their survivors.
    It is well known that the Department of Veterans Affairs Veterans 
Health Administration (VHA) is the largest provider of health care in 
the Nation. Approximately 6 million veterans annually come to VHA for 
all or part of their personal health care.
    As we take a measure of satisfaction in the quality of care 
provided at VHA hospitals and clinics, it is important to recognize 
that many veterans continue to view VA care through the eyes of a past 
era when VA care was sub-par or in some instances not realizing that 
the system is available to them.
    While we can never fully repay those who have stood in harm's way, 
a grateful Nation has a duty and obligation to provide benefits and 
health care to its veterans as a measure of its share of the costs of 
war and national defense.
    As the National Association for Uniformed Services assesses the 
effectiveness of VHA outreach, we believe it is important that we first 
have an understanding on the number of OEF/OIF troops using the 
Department's health care system.
    At present, nearly 2.0 million troops have served in the two 
theatres of operation since the beginning of the conflicts in Iraq and 
Afghanistan. In addition, with the drawdown of troops from the 
battlefields of Iraq, VA is likely to face increased enrollment.
    Through the last quarter of fiscal year 2008, 400,304 separated 
Operation Enduring Freedom and Operation Iraqi Freedom veterans have 
used VA health care. And with passage of Public Law 110-329, VA will 
develop provisions for expanded enrollment for certain Priority 8 
veterans.
    In fact, the final rule for the regulation of accepting these newly 
eligible veterans is June 15, 2009, which is just around the corner.
Expansion of Priority 8 Veterans
    Public Law 110-329 provides funding to allow an approximate 10 
percent expansion on the numbers of Priority 8 veterans enrolled and 
treated at VA medical facilities. The proposed regulations were 
published in the Federal Register on Jan. 21, 2009, and are expected to 
be finalized by mid-June.
    Eligibility will be based upon means testing and will be 
geographically based to allow for the variances in cost of living in 
the various regions of the country.
    VA expects approximately 266,000 additional Priority 8 veterans to 
be enrolled in FY 2010. We are pleased to hear the VA's Under Secretary 
For Health state that Priority 8 enrollment is not capped. Any veteran 
who meets the requirement will be enrolled in the VA health care 
system. We applaud the effort to end the enrollment ban on veterans.
    The budget submission provides more funding to continue this 
expansion so that by fiscal year 2013 an additional 500,000 qualified 
veterans will gain access to VA.
    Although not specifically addressed in the budget, we would hope 
that part of the funding for outreach would be used to ensure that 
everything possible is done to bring awareness of the change in policy 
to those newly qualified veterans.
    The National Association for Uniformed Services is concerned that 
well-meaning intentions of the VA might not be enough to spread the 
word on the expansion of benefits to veterans who have been denied VA 
medical access for over 6 years.
    Many Priority 8 veterans tried to enroll after the January 17, 
2003, prohibition and were denied, therefore, access to VHA care. We 
believe that the VA plan to mail all individuals previously denied 
enrollment is a good first step. We are hopeful that there will be 
follow-up to make sure measures are taken to contact those veterans. 
Enrolling those qualified veterans who desire to do so into the VA 
medical system should be a very high priority.
    In addition, we must ensure that all veterans returning from combat 
areas are aware of and if possible, already signed up for their 5 years 
of VA medical care. Both of these sets of veterans need to be aware of 
their benefits.
    We do recognize, however, that some long-term health conditions, 
such as post-traumatic stress disorder or traumatic brain injury, may 
not manifest conditions until many years later. Therefore we encourage 
further opening of access to sick and disabled veterans beyond the 
current 5-year allowance.
    Of course, Veteran and Military Service Organizations will gladly 
help spread the word to their memberships and others. That way we can, 
together, be better assured that more veterans will be advised of the 
changes.
VA Budget Outreach Initiatives
    The National Association for Uniformed Services is encouraged that 
the fiscal year 2010 veterans' budget request has numerous outreach 
programs that will help get the message about VHA to many more veterans 
and survivors.
    These initiatives include reaching out to veterans who live in 
rural areas of America. The funding requested would allow the VA to 
more aggressively reach out to these veterans and to possibly set up 
additional rural outreach clinics to help reach our National Guard and 
Reserve troops. There is also funding requested for more aggressive 
tactics to reach those who have mental health issues with expansions of 
outreach services at Veterans Clinics.
    The budget also includes additional funding for outreach by the 
newly created Office of Survivor Assistance (OSA) to help serve the 
numerous survivors who may not have the information on benefits they 
may be entitled to or apply for.
Advancement in Battlefield Medicine
    As is well known, advancement in battlefield medicine has improved 
the chances of survival in warfare. However, many of our present day 
wartime casualties suffer from multiple severe injuries such as 
amputation, Traumatic Brain Injury (TBI) and post-traumatic stress 
disorder (PTSD). Care for these individuals requires an intense 
management of treatment for their injuries and special consideration of 
their families who stand by these returning heroes.
    Reports from VA indicate that, from fiscal year 2002 through the 
end of 2008, 39 percent (325,000) of the total separated OEF/OIF 
veterans have obtained VA health care. Among this group, 96 percent 
were evaluated and been seen as outpatients only, not hospitalized. The 
remaining 4 percent (13,000) OEF/OIF patients have been hospitalized at 
least once in a VA health care facility.
    Last year, VA informed the National Association for Uniformed 
Services that of the OEF/OIF veterans who have sought VA health care 
approximately 166,000 were former active duty troops and 159,000 were 
Reserve and National Guard Members. The population seeking care is 
nearly half active duty and half Reserve Component troops.
    In total, over the last 6 years VA reports that 6 percent of the 
5\1/2\ million veterans in the VA medical care system are veterans of 
the most recent military conflict, OEF/OIF veterans.
    The Department attributes the rate of VA health care used by recent 
veterans to two major factors. First, the department says that recent 
combat veterans have ready access to the VA system, which is free of 
charge for 5 years following separation. In addition, the Department 
attributes a high rate of veteran-participation is due to an extensive 
outreach effort developed by VA to inform veterans of their benefits, 
including ``a personal letter from the VA Secretary to war veterans 
identified by DoD when they separate from active duty and become 
eligible for VA benefits.''
    The National Association for Uniformed Services applauds efforts 
under the direction of the Department to establish a dedicated outreach 
program directed at nearly 570,000 Afghanistan and Iraq combat 
veterans. The effort, according to VA, is to make sure these veterans 
are aware of VA's medical services and other benefits for which they 
are entitled.
    The VA Outreach program targets OEF/OIF veterans who have been 
separated from military service but have not sought VA care or 
services. We encourage the VA health care community to continue its 
efforts to inform veterans and their families, as well as the medical 
community, about the availability of VA health care.
    The National Association for Uniformed Services asks VA it leave no 
stone unturned to reach these veterans.
    In examining the effectiveness of the outreach effort, it is 
important to recognize the stark difference in today's VA's efforts 
compared to those used in the recent past several years.
    While we commend the positive change in expression and tone, we 
remain attentive to see that the most recent effort and the improved 
tone it reflects does not fail. Clearly there are concerns. Though the 
system is clearly no longer our grandfather's VA system, negative 
residue from a previous more closed-minded attitude remains within the 
system.
    Last year, for instance, we received callous reports about a 
message issued from a VA Medical Center, in Temple, Texas, that 
suggested time and money could be saved if diagnosis of PTSD were 
stopped or deeply discounted in its degree of severity.
    A PTSD program coordinator and psychologist at the Olin E. Teague 
Veterans Center sent an email with the subject line ``Suggestion'' to 
several VA staffers working with PTSD cases. The email suggested that 
VA doctors and clinicians give altered diagnosis to patents exhibiting 
symptoms of PTSD in order to save time and money. In the email, the 
staffer said, ``We really don't . . . have time to do the extensive 
testing that should be done to determine PTSD.''
    While VA has long since repudiated the wrong-headed message, it 
does represent a concern we all should share, namely that VA care may 
be arbitrary, directed more by budget considerations than the 
consideration of the treatment necessary for the health of the men and 
women who served in the Armed Forces.
    The incident is deeply troubling because veterans not only need to 
hear about the services they earned and deserve; they need to know that 
once they come to VA their exams are completed and their services are 
delivered.
Awareness of Services
    Mr. Chairman, as we head toward Memorial Day next week, your 
Subcommittee takes a good, well-traveled road. In sending young men and 
women to defend our Nation, it is important that we let them know what 
our great and generous country provides them following their service. 
Indeed, it is critical.
    It is clear to the National Association for Uniformed Services that 
veterans are generally more aware about the availability of benefits 
and services than they were four to 6 years ago. But the value of 
timely, reliable outreach programs cannot be understated.
    Six years ago, for instance, the Administration was deeply opposed 
to spending resources aimed at making veterans aware of the benefits 
and services available at the Veterans Department. And facilities were 
in decline.
    At one point in that past period, a former Secretary of Veterans 
Affairs told the Nation that the Department budget was adequate. ``Not 
a nickel more is needed,'' he said. However, only a month later the 
Secretary reversed his statement to tell the Nation that his Department 
would fall $1\1/2\ billion short of the resources needed to carry 
veterans services through the remainder of the year.
    Prior to this revelation, the National Association for Uniformed 
Services and other associations had presented ample witness to 
deficiencies throughout the system. We pleaded with Congress and the 
Administration that funding levels were totally inadequate and, if not 
addressed, would lead to critical reductions in the availability of 
veterans health care services, cuts in veterans education benefits, and 
logjams in veterans disability claims for service connected injury or 
illness.
    During that period, things were so bad that a memorandum sent out 
by the Deputy Under-Secretary for Operations and Management (July 19, 
2002) actually directed all of its health care providers to stop 
marketing VA programs to veterans.
    In basic, the July 2002 memo said too many veterans were coming in 
for services and VA was spending too much money. It directed VA 
officials across the country to ``Stop Outreach to Veterans.'' VA 
employees were directed to stop participating in VA health fairs, Stand 
Downs and related outreach events that informed veterans about programs 
available to them. Medical facilities were prohibited even from putting 
out newsletters informing veterans about the services they were legally 
entitled to receive.
    We are thankful that we are beyond that deeply troubling period. If 
similar incompetence were in place today, many of OEF/OIF would 
struggle alone with their symptoms and illnesses following deployment.
Stress and the Risk of Health Issues
    Studies conducted by The Army surgeon general's Mental Health 
Advisory Team clearly show that our troops and their families face 
incredible stress today. According to the Department of Defense (DoD), 
27 percent of noncommissioned officers on their third or fourth tour 
exhibited symptoms commonly referred to as post-traumatic stress 
disorder. That figure is far higher than the roughly 12 percent who 
show those symptoms after one tour and the 18\1/2\ percent who 
demonstrate these disorders after a second tour.
    And among the approximately \1/2\ million active-duty soldiers who 
have served in Iraq, more than 197,000 have deployed more than once, 
and more that 53,000 have deployed three or more times.
    A recent Rand Corp. study suggests that almost half of these 
returning troops will not seek treatment. Many of these veterans do not 
believe they are at risk or they fear that admitting to a mental health 
problem will mean being stigmatized. Yet if these brave individuals and 
their families are made aware of access to VA facilities, to which they 
are entitled, they are likely to find a treatment therapy that leads to 
health.
    If not addressed, stress symptoms can compound and lead to more 
serious health consequences in the future.
Congress Champions Resources for VA
    Recent Congressional successes in provided increases in VA spending 
presents the Department with an opportunity to advance an awareness of 
VHA accessibility and readiness to meet health care needs.
    We applaud all that has been done to date. While commendable, we 
can do better and should do more. In some cases, a successful outreach 
can be a matter life and death. Veterans need to hear that VA is part 
of our Nation's commitment to them. They need to hear that with 
appropriate care, our veterans can tackle stress and get themselves 
back on track.
    NAUS believes that your interest in targeting information to 
veterans marks a turning point in outreach efforts. We are optimistic. 
But it is clear that more needs to be done, including followthrough 
throughout the VA system, within the veterans community and in our 
educational assistance programs.
    Of course, there is a financial cost to improved outreach. But as 
important is the fact that if we do not make veterans aware of the 
benefits and services available to them, there is a hidden cost in 
lives lost, families disrupted and long suffering in homelessness and 
related problems for decades to come.
    We urge the Subcommittee to continue its excellent work with other 
champions in this Congress to ensure resources are ready not only for 
the provision of a veteran's earned benefits but for the veteran's 
awareness of these services as well. It is important that we do so. 
After all, these brave men and women shouldered a rifle and risked 
everything to accomplish their mission, to protect another people's 
freedom and our own country from harm.
    As a Nation, we need to understand that the value of their service 
is far greater than the price we pay for their benefits and services.
Appreciation for Opportunity to Testify
    As a staunch advocate for veterans, the National Association for 
Uniformed Services recognizes that these brave men and women did not 
fail us in their service to country. They did all our country asked and 
more. Our responsibility is clear. We must uphold our promises and 
provide the benefits they earned through honorable military service.
    Mr. Chairman, you and the Members of your Subcommittee are making 
progress. We thank you for your efforts and look forward to working 
with you to ensure that we continue to protect, strengthen, and improve 
veterans benefits and services.
    Again, the National Association for Uniformed Services deeply 
appreciates the opportunity to examine with you outreach efforts to 
veterans, families and survivors on the benefits available to them.

                                 <F-dash>
            Prepared Statement of Bruce Bronzan, President,
              Trilogy Integrated Resources, San Rafael, CA
Serving Those Who Served
    Maryland and California have taken an important step as national 
models in the way of local web portals that use the most advanced 
communication and internet technology to form a bridge between all 
Federal, state, local, and non government services and veterans and 
their families. It is called the Network of Care. The launching of the 
sites in Maryland was led by Lieutenant Governor Anthony Brown. The 
California launch will be led by Governor Schwarzenegger this coming 
Friday.
    The Network of Care project has been a creative joint effort 
between the mental health and veteran's leadership in Maryland and 
California, the state and county governments, and Trilogy Integrated 
Resources.
    Last, this service is, in fact, an excellent ``transition'' 
resource of the first order. Every single veteran is able to access 
this comprehensive resource in their own community thus representing 
the most complete, permanent, and continuously accessible place for 
information and assistance possible. Given that within the Network of 
Care we currently have the database 120,000 service providers covering 
65 percent of the Nation, this model can be replicated into every local 
jurisdiction in the United States within a year.
DEMO OF THE NETWORK OF CARE

    1.  Home Page

          --Crisis intervention, Shelter, employment,

    2.  Service Directory

    3.  Library

    4.  Social Networking

    5.  Legislate

    6.  Assistive Devices

    7.  Links

    8.  Personal Health Records

                                 <F-dash>
        Prepared Statement of Barbara Van Dahlen Romberg, Ph.D.,
           Founder and President, Give an Hour, Bethesda, MD
    Thank you for this opportunity to provide testimony regarding the 
Department of Veterans Affairs' current outreach efforts for OEF/OIF 
veterans. It is an honor to appear before the Subcommittee on Health of 
the House Committee on Veterans' Affairs and to offer my assistance to 
those who serve our country.
    As the Founder and President of Give an Hour, a national nonprofit 
organization providing free mental health services to our returning 
troops, their families, and their communities, I am well aware of the 
many issues that now confront the men, women, and families within our 
military community.
    There is little doubt that our Nation is confronting an emerging 
public health crisis. It has been 6 years since the conflict in Iraq 
began. Since that time, nearly 1.9 million servicemembers have 
deployed. Many of these men and women have deployed more than once; 
some, as many as four or five times. National Guardsmen and Reservists 
compose approximately half our Nation's fighting force. As those who 
have experienced war will attest, everyone is changed by the 
experience. Some suffer physical wounds that require medical attention 
and care. Others suffer wounds of war that are not always easy to see. 
As a Nation, we must provide comprehensive, long-term care for all of 
those affected by their experience of combat, and we must embrace the 
reality that combat stress and other psychological consequences of war 
are normal human reactions to horrific experiences.
    My area of expertise is the young men and women who are returning 
OIF and OEF veterans. 58 percent are 29 years old or younger. If we 
expand this demographic to include one additional age range, then 80 
percent of our fighting force is 39 years old or younger. Clearly, a 
huge number of young veterans with young families need our care now. 
Our Government is clearly working hard to assist this generation of 
combat veterans and families. VA funding for the past 4 years is at 
unprecedented levels and continues to grow. We cannot assume, however, 
that more money, more staff, more outpatient clinics, more Vet Centers, 
more ``clinics on wheels,'' more organizational restructuring, and more 
(and different) leadership will enable the VA to meet the mental and 
physical health care needs facing this generation of combat veterans. 
We see from all the statistics, which I will cover shortly, that this 
is a public health crisis that will take more than extended outreach. 
Yes, current outreach efforts are clearly insufficient. But even if the 
current outreach efforts were sufficient, it is evident that the system 
does not have the capacity to meet the growing and ongoing needs of OIF 
and OEF veterans who are experiencing a full range of ongoing physical 
and mental health concerns upon returning home. Finally, even if 
outreach efforts were sufficient and the VA had the capacity to meet 
most of the needs of returning servicemembers, this solution would 
still be inadequate. If returning troops are to truly and successfully 
reintegrate into our communities, then our communities must be involved 
in the solution. So the issue is bigger than the efficacy of the VA's 
current outreach efforts. The issue is how we can systematize a broad 
range of services to sustain care for our veterans over the long term.
    A current article in Health Affairs (May/June 2009) by behavioral 
scientists from the Rand Corp. addresses the problems associated with 
providing adequate mental health care for returning OEF/OIF veterans. 
Although the article focuses on mental health care--arguably the most 
pressing current need within the military community--the conclusions 
drawn are applicable for the entire range of services necessary to care 
for our returning troops and their families. The authors note, 
``Improving the quality of mental health benefits and services in the 
DoD and VHA is undoubtedly a key step in improving care for this 
population. However, they are only part of the systems of care needed 
to address the mental health problems of returning veterans. 
Improvements in access to and quality of community based services 
outside of the DoD and VHA will also be very important.''
    Consistent with the findings of this most recent offering by Rand, 
I propose the development of a new kind of public works project. Before 
describing this project in detail, I would like to provide the 
Committee with the story behind the need for such a program.
    But before doing that I need to make one additional point. Although 
this Committee's focus is on the outreach efforts of the VA, I will 
frequently make reference throughout my testimony to the Department of 
Defense and its efforts to care for those who serve. It is impossible 
to discuss issues affecting our veterans without discussing DoD's 
response to the men, women, and families who serve. While the VA and 
DoD operate as if there are two populations that require care--military 
personnel and veterans--there is really just one. Too many returning 
warriors get caught between the two systems and fail to receive the 
care they need when they need it. The failure of coordination between 
these two bureaucracies erodes the sense of trust that returning troops 
have in our military and in our Government. No amount of outreach can 
overcome the potential damage that is done by what is often experienced 
as a betrayal.
Background
    According to a 2008 Rand Corp. study, over 300,000 men and women 
have already returned from Iraq and Afghanistan with symptoms of severe 
depression or post-traumatic stress. Over 320,000 have suffered a 
traumatic brain injury. And only about half of these men and women have 
sought treatment.
    There are on average 18 suicides a day among America's 25 million 
veterans, with more than one-fifth of those being committed by patients 
undergoing treatment by the VA. Army officials calculate the suicide 
rate at 20.2 per 100,000 soldiers, the highest in its history--a number 
that exceeds the civilian rate for the first time since the Vietnam 
War. Last year, our Nation lost more Soldiers and Marines to suicide 
than to combat deaths.
    Roughly 20 percent of U.S. combat troops who fought in Iraq or 
Afghanistan come home with signs they may have had a concussion, and 
some do not realize they need treatment. In fact, 17 percent of the 
soldiers returning to war (for another tour) could have a traumatic 
brain injury. The lifetime risk of suicide among those who have 
suffered a moderate to severe traumatic brain injury is three to four 
times higher than among those who have not.
    Many of our returning troops turn to substance abuse to ease the 
pain of the wounds that we can't see and they don't understand. Parents 
routinely contact Give an Hour reporting concerns about a son or 
daughter who returned home from the war and began drinking or drugging 
heavily. Family members are frightened and uncertain about how to help 
prevent the dangerous deterioration they see. And they have reason to 
be concerned. Sadly, we are already seeing a number of this newest 
generation of veterans joining the ranks of the homeless on our 
streets.
    Some veterans are getting into minor, and major, scrapes with the 
law and becoming entangled in the judicial system. Countless stories 
have been told in media reports of ``good kids'' who end up in jail for 
crimes that no one believed them capable of committing. Fortunately, 
several Veterans Courts have sprung up throughout the country, where 
veterans are assessed for symptoms of combat-related psychological 
injuries and given treatment in addition to, or instead of, jail time. 
While the veteran's court is a superior solution to the alternative, it 
does not address the underlying issue--that many men and women who are 
willing to die for their country are not receiving the care they need 
and deserve.
    One young woman telling her story in the hope that it will allow 
others to receive help was 17 years old when she joined the Army. She 
served in the fourth rotation of Operation Enduring Freedom in 
Afghanistan in 2003. Her experience left her with severe post-traumatic 
stress and, unfortunately, she returned to a community that did not 
reach out to her. She felt confused and ashamed of the symptoms she 
experienced. She began using drugs and ended up homeless, living out of 
her car. Eventually, she sought care through the VA, but the experience 
was not a positive one and she turned to our organization for help. 
Fortunately, she found a provider who helped her understand what was 
happening to her, and she began to rebuild her life. Today, at 25, she 
proudly reports that while she still experiences symptoms of post-
traumatic stress, the symptoms no longer control her life. She is 
married and has a beautiful baby girl. Although this young woman has 
become a successful Member of her community, her painful story is all 
too typical of what we hear from the men and women returning from these 
conflicts.
    Clearly the toll on military families is tremendous. Of those 
deployed, more than 800,000 are parents with one or more children. Of 
these, 40 percent have been deployed more than once. Almost 35,000 
troops have been separated from their children for four or more 
deployments. More than 2 million children have a parent who has been 
deployed; 40 percent of these children are younger than age five. 
Children whose parents have post-traumatic stress are at a higher risk 
of themselves developing symptoms of post-traumatic stress, anxiety, 
and depression. And studies have linked depression, anxiety, and 
emotional disorders in children to a parent's deployment.
    Furthermore, when deployments began, reports of abuse quickly 
jumped from 5 in 1,000 children to 10 in 1,000. Children from military 
families are twice as likely to die from severe abuse as other children 
are, and rates of abuse and neglect rise dramatically (40 percent) 
during the time the soldier is deployed.
    Divorce is also on the rise in the military community with about 1 
in every 5 married servicemembers filing for divorce since September 
2001. In a November 2008 study, Army spouses were seen to have rates of 
mental health problems comparable to the rates among soldiers.
    And parents who proudly launched their adult children into the 
world find themselves in the distressing position of watching their son 
or daughter fail in their efforts to reintegrate into their 
communities. One mother spoke to me about her son, who committed 
suicide after returning home from his tour of duty. While he appeared 
withdrawn and quiet, his family never suspected the depth of his 
despair. This grieving mother reported that her son had been through so 
much during the war that her family just wanted to give him some space. 
She felt such sadness that she hadn't known the right questions to ask.
Needed Services
    Returning veterans and their families need access to a number of 
services to ensure that they are able to move forward in their lives 
once they return to our communities.

    Mental health treatment. There is a tremendous need for effective 
and accessible treatment for the full range of mental health issues 
affecting those who serve, including post-traumatic stress, substance 
abuse, depression, anxiety, suicide, marital difficulties, family 
conflict, sexual dysfunction, behavioral and emotional symptoms in 
children, and domestic violence. There are also additional 
difficulties: many veterans live a great distance from formal VA 
services, and even those in closer proximity are often reluctant to 
seek mental health services because of a perceived stigma associated 
with treatment. We need to implement an ongoing screening program so 
that all who serve are periodically assessed for signs of psychological 
strain associated with their service.

    Traumatic Brain Injury (TBI) programs. There is a need to develop 
additional educational programs for servicemembers who suffer a TBI and 
their family members. Similarly, we need to expand, improve, and 
accelerate the delivery of neuropsychiatric services for all veterans, 
especially those returning from OEF/OIF. Finally, we need to make 
mental health services, rehabilitation, and job training opportunities 
available to those who have suffered a TBI.

    Care, training, and support for our wounded. Our wounded warriors 
receive the finest medical care available in the world while in our 
military facilities. Too often, however, they do not receive the 
continuity of care they need once they return to their communities. We 
must develop better coordination with community resources to ensure 
that our wounded (and their families) successfully heal from their 
physical and psychological injuries. In addition, we must provide 
appropriate job training and ongoing support once these wounded 
warriors return to the job force.

    Women's support. We need to develop programs specifically focused 
on the unique needs of women who serve, including programs that treat 
victims of sexual assault.

    Employment. Employers want to hire veterans but often fear they are 
poorly prepared to support returning warriors. We need to develop 
programs that support the employers who want to hire veterans as well 
as the veterans who want to be productive Members of society.

    Police, judicial, and first-responder training. Many returning 
veterans find their way into the criminal justice system as a result of 
their combat experience. We need to continue to develop programs that 
train police, firefighters, paramedics, and judges about veterans and 
the issues that come home with them.

    Benefits and compensation. The system that determines benefits and 
compensation needs to be reworked. The current system leaves many 
veterans feeling dismayed, dismissed, or distressed, as they struggle 
to determine what benefits and compensation they are entitled to.

    Financial management. Many military families are poorly prepared to 
manage their finances, causing additional strain and distress. We need 
to develop programs to train the military community--especially the 
youngest Members who serve--how to make good financial decisions.

    Public education. Many veterans do not realize there are a variety 
of services and peer support opportunities available in their own 
communities that could be beneficial to them. There is also a dire need 
to educate family members about the unique needs and conditions of 
returning veterans.

    While the list of the services needed clearly presents us with a 
tremendous challenge, it is also true that we have a remarkable 
opportunity before us--the opportunity to create a comprehensive system 
of integrated care for the brave men, women, and families who sacrifice 
so much and ask so little.
Barriers to Care
    Several factors contribute to our failure to adequately care for 
returning veterans and their families. Some of these factors lie within 
the systems responsible for providing appropriate care, while others 
stem from deep-seated beliefs and conflicts within the military culture 
and our society regarding the acknowledgment of needs and limitations.
    Regarding mental health care, these barriers are well known and 
documented. As discussed in the most recent study by Rand, the 
attitudes and beliefs of military servicemembers and veterans prevent 
them from seeking mental health care. Our military culture promotes 
pride and inner strength along with self-reliance, toughness, and the 
ability to brush off ailments or injuries. In addition, as humans, it 
is not our nature to turn toward emotional pain. We tend to deny 
problems until they overwhelm us. Sometimes, being overwhelmed provides 
us with the opportunity to address our struggles, but often we continue 
to deny their existence and continue to live an impaired or diminished 
life. Only through education and practice can veterans learn to face 
their fears and work through the understandable pain associated with 
the experience of war. Our society does not yet embrace this concept 
and so we do little to encourage our returning warriors to address 
their invisible wounds.
    The internal barriers that keep our warriors from seeking 
appropriate care for mental health concerns also play a role in 
preventing them from seeking assistance for other needs such as 
financial assistance, employment difficulties, and ongoing physical 
care. While it seems self-evident that someone who is in need of 
physical therapy for an injury suffered in conflict would follow up 
with recommendations for additional care, the decision to pursue care 
is often intertwined with other psychological reactions to seeking 
care, needing ongoing care, or being ``less than'' they once were. 
Moreover, if that care is difficult to find or access, and if it is 
recommended by someone the veteran has little if any relationship with, 
the likelihood of compliance with the recommendation is severely 
diminished.
    Systems charged with providing care for those who serve--including 
the VA and DoD--have failed in their efforts to reach those in need. 
Not that the task is simple, indeed it is extremely complex and labor 
intensive. Nonetheless, along with a strategic and innovative public 
education program, outreach is a critical component of a successful 
effort to care for the military community. While there are a few 
exceptions to this rule, too often these systems expect our veterans to 
come to them. As a result, many veterans and families who might benefit 
from the truly effective programs housed within never even know the 
programs exist.
    Similarly, both DoD and VA have been reluctant to forge critical 
relationships with community-based organizations that have developed 
over the last 6 years to fill some of the clear gaps in care. 
Opportunities have been missed for innovative collaborations that could 
have saved lives and healed families.
    As is true of DoD, there are many honorable and dedicated 
individuals within the VA who are working diligently to serve our 
veterans. Certainly, some VA systems receive praise for their efforts 
and ingenuity. In addition, the VA Medical Centers clearly provide the 
best medical care in the world. The problem comes when warriors and 
family members leave the medical units and return to their communities. 
They complain that there is little continuity of care or collaboration 
with community efforts; that they must drive long distances to reach 
the VA in order to receive services; that they wait for months or years 
for their disability claims to be resolved.
    Ultimately, it appears that at this time the VA is severely limited 
in its ability to create a successful and comprehensive system of care 
for our veterans. I recently spoke with a colleague who is in a senior 
position at a VA Medical Center in the Northeast. This mental health 
professional is a well-respected expert in post-traumatic stress and 
has been an advocate for the care provided by the VA for years. He told 
me in a moment of brutal honesty, ``This is a disaster.'' I asked what 
he meant by the statement, and he replied that he saw far too many 
veterans falling through the cracks and feared that the OEF/OIF 
generation would surely be ``lost.'' This was a very sobering admission 
from a man who has spent his professional life working within and 
championing the VA.
The Big Problem: Operating without a Comprehensive System
    No single agency, organization, or sector can adequately care for 
our returning warriors. Several organizations--governmental and 
nonprofit--have attempted to organize the vast array of programs and 
services now available to servicemembers and veterans. But most of 
these efforts have resulted in cumbersome lists of available resources 
that do little to advance the mission of providing easy, accessible 
care to those who serve. Efforts to reach out to military personnel and 
their families can be successful only if we have a system in place that 
can reach everyone who serves and provide ongoing support to them. If 
we are willing and able to knit the available resources together into 
an integrated system of care that is available within our communities, 
we will succeed in our effort to provide for those who serve.
The Best Solution: A New Kind of Public Works Project
    To effectively and efficiently care for our veterans, we need a 
system that can streamline and simplify the process of providing and 
receiving all manner of care for returning warriors and their families 
within their own communities. We need a plan that ensures our 
communities are able to assist and support veterans and their families 
so that their lives are ``working'' for them. There is no question that 
our citizens, our communities, and our Government supports the 
returning troops and their families. Everyone wants to help. The 
problem has been a lack of a coherent plan that will guide communities 
in this effort.
    In 1933, the Public Works Administration was formed in an effort to 
heal our Nation's depression-ridden economy. Designed to provide 
unemployed workers with wages as well as to stimulate various 
industries, the PWA's main focus was to design and implement large-
scale construction projects. The goal was to heal our economy and 
ensure that our citizens were free to lead productive lives. Now we 
need to design and implement a similar public works project that will 
weave together the resources needed to heal our military community and 
ensure that our military personnel are free to lead productive lives.
    We have the resources to assist our returning veterans and their 
families. We have the desire to care for those who serve. We now need 
to organize and coordinate efforts across the country to assist our 
military personnel. With this public works mindset we can more 
effectively fill the current gaps in care, reduce the duplication of 
services, and enhance programs that are innovative and effective.
Next Steps
    To realize the vision of a public works project that supports our 
returning troops and their families in their communities, the following 
steps are necessary:

    1.  Bring together individuals representing organizations and 
entities that interact with veterans and military personnel including 
but not limited to the VA, the DoD, nonprofit and nongovernmental 
organizations, community-based mental health programs, public health 
organizations, higher education institutions, the faith-based 
community, law enforcement entities, and the U.S. Chamber of Commerce.
    2.  Form a working group with these representatives to study 
efforts currently under way including innovative and successful 
community coordination programs in Rhode Island, California, New York, 
Colorado, and Montana, to name a few.
    3.  Assign this working group the primary task of developing a 
strategic plan that will serve to guide our communities in their 
efforts to coordinate care among service providers for the military 
community and to engage in outreach to military citizens.
    4.  Direct the working group to assist with nationwide efforts to 
implement the strategic plan. While state and local communities will 
refine the plan to fit the specifics of their population, the working 
group will be able to provide guidance and support as needed.
    5.  Develop metrics to assess the implementation and effectiveness 
of this public works project. The strategic plan should be refined as 
data are gathered on the success of its efforts.

    Two technologically based initiatives currently being developed 
promise to contribute to the success of the public works project to 
support our military community.

    The Network of Care is an impressive platform that has already been 
shown to be effective in delivering a variety of services to millions 
of Americans throughout the country. One of the network's components, 
the Network of Care for Behavioral Health, is itself an award-winning 
Web-based service developed by the California Department of Mental 
Health in partnership with Trilogy Integrated Resources and San Diego 
County Mental Health. The comprehensive Web portal spread rapidly 
throughout the country and now is implemented in more than 25 states 
over 400 local areas and is one of the leading ``transformation grant 
strategies'' in the Nation.
    At the request of congressional, military, veteran, and mental 
health leaders, Trilogy began the development of the special portal for 
veterans. The following information, from the network's project 
statement, provides a description of how it works and its potential to 
become the cornerstone for a national response to the needs of our 
veterans.

          The states of California and Maryland in conjunction with 
        Trilogy, the creators of the Network of Care, are developing a 
        virtual community and locally based Web portals for 
        comprehensive, one-stop information resources specifically 
        targeted to returning vets, other service personnel, their 
        families and their communities. In addition to a comprehensive 
        directory of all local, state and Federal services and support 
        groups, the portal will contain innovative, user-friendly 
        technology for: information-sharing and social networking, 
        educational training programs, interactive recovery tools and 
        strategies, best practices from around the Nation, and consumer 
        based, interactive Personal Health Records. This valuable 
        locally based service will serve as a critical information 
        bridge for the individual veteran to tie together for the first 
        time, all Federal, state and local service as well as programs 
        and veterans themselves from all over the United States.

    The project has the formal support of the National Association of 
State Mental Health Program Directors, the National Association of 
County Behavioral Health Directors, the National Alliance on Mental 
Illness, andMental Health America.
    Maryland launched the Network of Care for Veterans and 
Servicemembers site in March. California will launch its site on May 
22. Once established in Maryland and California, the program will be 
available for replication throughout the country. Funding is currently 
being explored in order to create a nationwide application. The cost 
for ongoing maintenance will be the responsibility of each local 
jurisdiction.

    Patients Like Me, founded in 2004 by three MIT engineers, is a 
privately funded company dedicated to making a difference in the lives 
of patients diagnosed with life-changing diseases or conditions. The 
goal of the company is to enable people to share information that can 
improve the lives of these patients. Accordingly, the creators of 
Patients Like Me developed a method for collecting and sharing real 
world, outcome-based patient data. In addition, they are establishing 
data-sharing partnerships with doctors, pharmaceutical and medical 
device companies, research organizations, and nonprofit organizations.
    The company's creators are now developing a new version of their 
Web site, called Warriors Like Me, specifically for veterans, who will 
be able to share information with one another regarding treatments and 
procedures they find effective or promising. Providers and researchers 
will be able to access this data to determine best practices for 
conditions affecting those who serve, such as post-traumatic stress and 
traumatic brain injury.
    The effort to create a comprehensive and well-coordinated system of 
care within our communities for our veterans and their families can 
only be as successful as our efforts to educate those in need about the 
issues they face and the resources that are available.
    A significant public education campaign must accompany the public 
works project. Many different organizations have launched public 
awareness and educational efforts since the beginning of the wars in 
Afghanistan and Iraq. Many have been creative and compelling. It is not 
clear how effective any have been. While any one public education 
campaign can be effective in educating those who serve about the 
conditions they face and activating them to access the services 
available to them, successful outreach occurs when a variety of 
approaches are utilized. As with most complex situations, one size will 
not fit all. Technology has its advantages, but sometimes the human 
touch is required to make a connection and ensure follow through.
    To give but one example: Give an Hour recently provided the mental 
health support for a conference attended by many OEF/OIF veterans. One 
of our providers encountered a veteran who shared some of her personal 
struggles. Our provider offered to connect this young woman with a 
mental health professional in her city who participates in our network. 
The young woman accepted the offer and in a lovely e-mail message noted 
that she probably would not have followed through with the idea of 
counseling if our provider hadn't gone the extra mile to direct her to 
someone offering care.
Conclusion
    We have the resources, the vision, and the commitment to ensure 
that our veterans and their families receive the care they need and 
deserve. Thanks to the efforts of dedicated people working in and 
across organizations and localities all over the country, we have the 
potential to create an effective community-based, cohesive, and 
organized service delivery system capable of providing comprehensive, 
long-term care to those who serve our country. This is a historic and 
unique opportunity to harness our Nation's resources and care for our 
military community.

                                 <F-dash>
Prepared Statement of John King, Co Director, Veterans Community Action 
        Teams Mission Project, Altarum Institute, Ann Arbor, MI
    Good afternoon, Chairman Michaud, Ranking Member Brown, and Members 
of the Subcommittee.
    Thank you for inviting Altarum Institute to testify before this 
oversight hearing of the Subcommittee on Health. We appreciate the 
opportunity to offer our views on VA Medical Care: The Crown Jewel and 
Best Kept Secret. In our testimony today, we will address the methods 
and activities through which we have observed the Veterans Health 
Administration (VHA) communicating the availability of services to 
veterans. We also will share our observations regarding the differences 
in outreach strategies for the current generation of new veterans 
versus those used for older veteran populations.
    Altarum Institute (Altarum) is a nonprofit health systems research 
and consulting organization serving Government and private-sector 
clients. We provide objective research and tailored consulting services 
that assist our clients in understanding and solving the complex 
systems problems that impact health and health care. Our unique model 
combines the analytical rigor of a research institution with the 
business acumen of a traditional consultancy to deliver comprehensive, 
systems-based solutions that meet unique needs.
    In 2008, Altarum launched its Mission Projects Initiative, 
committing more than $8 million in internal resources to three critical 
areas of societal need. The purpose of the initiative is to solve 
pressing health care issues using our systems methods at the 
institutional, organizational, and community levels in partnership with 
the public and private sectors, with the goal of improving the quality 
of life for millions of Americans.
    Our Mission Projects are focused on three areas: developing systems 
changes to prevent childhood obesity, fostering innovation in community 
health centers, and facilitating integration and coordination of 
community health and social services for veterans and their families. 
Today's testimony will focus on the last area.
    As you are well aware, since 2002, we have seen a tremendous influx 
of servicemembers transitioning from active duty to veteran status. 
More than 870,000 servicemembers have separated from the active 
military and Reserve Component forces and transitioned to civilian 
life. These newly created veterans are returning to communities 
throughout the country after having served in Operation Enduring 
Freedom (OEF) and Operation Iraqi Freedom (OIF). These returning 
veterans and the existing population of aging veterans have 
multifaceted service requirements that are generally met by a number of 
independently administered services. Their requirements include health 
care, vocational rehabilitation, employment and training, care giving, 
social services, housing, and independent living assistance, to name 
just a few.
    Current public and private initiatives providing these services to 
veterans and their families have limited resources, not only to reach 
out and administer their programs to this growing population, but to 
integrate their services with other complementary programs being 
offered in the community. The increasing number of new initiatives, 
when added to an already confusing array of existing organizations and 
services, often leaves veterans and their families searching for the 
programs and services that best meet their needs. It is the absence of 
the integration of these services that presents the greatest challenge 
to veterans and their families, who are forced to navigate a complex 
web of care and programs that often are not well coordinated. This 
situation forces undue stress and burden on those who we believe are 
the most deserving of our support.
    We believe that veterans and their families deserve access to an 
integrated system of community services to achieve economic security, 
receive better health care, and improve their overall quality of life. 
With improved communication, coordination, and integration, a 
streamlined and responsive community-based system will enhance access 
to public, private, nonprofit, and volunteer services for veterans and 
their families. In turn, community service organizations will be more 
efficient and effective at delivering services, optimizing existing 
resources, and enhancing the population and community development.
    It is our observation that no one entity can meet all of these 
requirements. Altarum's Veterans Community Action Teams (VCAT) Mission 
Project was started specifically to strengthen the web of care that 
currently exists for veterans and their families. Through the VCAT 
project, Altarum works with community service providers and advocates 
who not only understand the National debt to veterans and their 
families but are also the ones in the best position to render the 
appropriate services.
    The VCAT project will develop a collaborative, community-based 
model to integrate the outreach and delivery of services from public, 
private, and nonprofit organizations to veterans and their family 
members. The VCAT project will test this model in selected pilot 
communities to demonstrate the value of the community-based system of 
care for improving the accessibility, scope, and quality of services 
available for veterans and their families. Multiple governmental 
agencies, nongovernmental organizations, and community-based 
organizations are being invited to collaborate.
    Currently, VCAT project leaders are communicating with leaders of 
communities with large veteran populations as well as public, private, 
and nonprofit organizations within those communities to establish the 
VCAT project pilot site(s). Strategic partnerships are already under 
way to ensure that the VCAT model will have long-term sustainability in 
the demonstration communities. Altarum will continue the VCAT project 
in partnership with the selected pilot communities through the end of 
2010.
    Altarum's focus through the VCAT project is concentrated on 
building integrated community-based service networks that strengthen 
service ``safety nets'' for veterans and family members who are 
experiencing readjustment issues and/or suffering the ``invisible 
wounds'' of war.
    Based upon our collaborations with VHA in our search for the first 
VCAT pilot community, we have observed a significant level of 
cooperation and coordination among the VHA; the Veterans Benefit 
Administration; the Department of Defense; State, county, and local 
governments; and public and private organizations. The VCAT initiative 
is an effort to complement the work of the VHA by building bridges from 
community-level services to the National-level efforts of outreach and 
access. The footing for these bridges will be built from the community 
up, namely through the coordination, the collaboration, and ultimately 
the integration of the community providers. The community providers 
include Federal, State, and local governments; private and nonprofit 
organizations; and voluntary service providers. Some of the services 
include community mental health, spiritual wellness, law enforcement, 
education and training, and legal advocacy (including Veterans Service 
Organizations or VSOs).
    VHA accomplishes outreach to the veteran population through the 
media and network efforts of the Veterans Affairs Medical Centers, 
community-based outpatient clinics, and veteran centers and through 
partnerships with public and private VSOs. All of these outreach 
efforts are focused on connecting veterans and their family members to 
the health care services provided by VHA. This high level of 
collaboration has the additional result of connecting veterans and 
families with organizations that offer other programs and services that 
are not necessarily health related (e.g., job placement centers, 
housing assistance, childcare providers). Our plan is to look at 
current ``best practices'' and to provide assistance to further 
integrate the community service providers. The goal is to develop 
models that can serve as guides for other communities to replicate the 
development of highly integrated community service networks. In the 
face of financial constraints on the Nation, which are felt especially 
at the community level, the efficacy of this initiative will enhance 
integration of existing programs and more effective and efficient use 
of associated resources.
    The outreach strategies employed to connect the current generation 
of OEF/OIF veterans with services needs to be different than those used 
with past generations. The methods used by this new population to 
receive and to process information are vastly different. What has not 
changed is the tendency of veterans (past and present) to base their 
trust of service organizations on familiarity; they trust other 
veterans and servicemembers and those to whom their trusted comrades 
refer them. It is the method by which they share this information that 
is different and that must drive the changes that the VHA and all other 
veteran service organizations must make in their outreach efforts. Our 
observation is that it is no longer adequate to simply create and 
launch a Web site of an organization's services or even a portal to 
connect veterans to many organizations' services. The current 
generation of veterans communicates through social networks that 
connect individuals based upon common interests, requirements, and 
mindset. Outreach is accomplished by connecting organizations and 
networks of providers in like manner to the social networks of the 
younger veterans.
    While our VCAT project will have a particular focus on OEF/OIF 
veterans and their families in the immediate future, we believe that 
well-integrated community providers will have the inherent capacity to 
serve all veterans regardless of age. The VCAT project has been up and 
running for almost a year; we are applying our existing knowledge and 
learning new information on the complex needs of veterans and their 
families to better understand the multifaceted services arena. 
Community providers need the collaborative support from all levels of 
Government and private partners so that they can ``wrap'' their 
services around veterans and their families. Services need to be 
seamless to ensure that no veteran or family member is lost as 
servicemembers transition from active duty to veteran status and 
continue to access services throughout their lives. The ease of access 
to services for veterans is the ultimate outcome that integrated 
communities are striving toward.
    The early evidence from our initial engagement of public and 
private partners within our potential VCAT pilot communities supports 
our hypothesis that the key to improving the delivery of services to 
veterans and families is the integration and improved collaboration of 
service providers. The degree to which the delivery of services is 
enhanced and outreach is improved within a community is directly 
related to the level of communication, coordination, and collaboration 
of public and private service providers from all levels within that 
community. Barriers to communications must be eliminated, bridges of 
relationship between all VSOs need to be built, and cooperation across 
those bridges must be promoted.
    While our overarching goal is to improve the lives of veterans and 
their families, it is also our hope that the model that we develop and 
the lessons that we learn from our demonstration project will help 
inform other communities. Ultimately, we would like the VCAT model of 
community-based service integration to be replicated in other 
communities across the Nation. We hope to share with you the lessons 
that we learn from the VCAT project soon and offer policy and 
programmatic changes that may lead to increased outreach to veterans 
and their families.
    In conclusion, we see the VCAT project as a great opportunity to 
support and assist our Nation's veterans in receiving the care, 
support, and services that they need, ensured by an integrated network 
of organizations and service providers. As a nonprofit organization, 
Altarum Institute is committed to its mission: We serve the public good 
by solving complex health care systems problems to improve human 
health. I can imagine no greater reward than to help fulfill this 
mission by serving those who have given so much in service to our 
Nation.
    Mr. Chairman, this concludes my statement. I will be pleased to 
respond to any questions.

Thank you.
                                 <F-dash>
   Prepared Statement of Randall L. Rutta, Executive Vice President,
                   Public Affairs, Easter Seals, Inc.
    Chairman Michaud, Ranking Member Brown, Members of the 
Subcommittee, on behalf of Easter Seals, thank you for the opportunity 
to come before you today to share our views on issues relating to the 
Department of Veterans Affairs' Veterans' Health Administration and its 
outreach to and care of our Nation's veterans. My name is Randall Rutta 
and I am Easter Seals' Executive Vice President of Public Affairs.
NEED
    The crisis facing our Nation in meeting the physical and mental 
health needs of the 1.8 million members of the armed forces who served 
in Iraq and Afghanistan, as well as the needs of 23.4 million other 
veterans, is overwhelming and continues to grow. Thousands of injured 
servicemembers are returning home to communities nationwide with hopes 
of transitioning to a successful civilian life. While a broad spectrum 
of public benefits and private resources exist across the country, many 
servicemembers and veterans with disabilities are encountering barriers 
to accessing health care, job training and employment, housing, 
recreation and transportation as they transition back into their 
civilian communities. Nationwide, many communities are simply not fully 
equipped to respond appropriately and effectively to this population's 
unique needs, nor are they aware of how to best coordinate with 
military and veterans systems in the process. These barriers often 
limit the ability of veterans and their families to live, learn, work, 
and play as full participants in civilian community life.
    In 2008, the RAND Corp released a study indicating that 1 in every 
5 returning OEF/OIF servicemembers expressed indicators for post-
traumatic stress disorder (PTSD) and 1 in every 5 had some level of 
Traumatic Brain Injury (TBI). This observation warrants concern as PTSD 
and TBI are among the leading medical conditions facing our returning 
heroes. According to Dr. Evan Kanter, a staff physician for the VA, who 
wrote in a November 2007 study by Physicians for Social Responsibility, 
titled ``Shock and Awe Hits Home,'' that ``as many as 30 percent of 
injured soldiers have suffered some degree of traumatic brain injury.'' 
These combat injuries significantly complicate a veteran's ability to 
successfully transition from active duty to civilian life. Moreover, 
unlike injuries to a soldier's limbs, injuries to a soldier's brain are 
often difficult to diagnose and treat in a timely manner, and are often 
not apparent until months later.
    In a GAO report, the VA was commended for its efforts to prepare to 
meet these demands. However, concerns were noted about ensuring that 
all veterans have ``equal access'' when wide geographic territories 
define a service catchment area. Concern was also expressed about the 
efficacy of several service strategies that appeared to build 
infrastructure, but did not provide direct service. Issues of access to 
and availability of fundamental services and supports are unfortunately 
a common part of daily experiences for an individual living with a 
disability in our country. It is reasonable, then, to conclude that 
such challenges will be a part of life for a veteran with a service-
connected disability. Easter Seals believes that these barriers need 
not be inevitable for these veterans - or for the broad population of 
individuals with disabilities. We are committed to creating and 
implementing solutions to these challenges in work and in life, so that 
all veterans with disabilities have the opportunity to lead full and 
productive lives.
EASTER SEALS BACKGROUND
    For 90 years, Easter Seals has been providing and advocating for 
services that change and improve the lives of those living with 
disabilities and their families. With a network of 78 affiliate 
organizations, we are the Nation's largest provider of disability 
related services to individuals with disabilities and their families--
touching the lives of more than 1.3 million people annually. We have a 
long history of helping veterans with disabilities through job training 
and employment opportunities, adult day services, medical 
rehabilitation, home modifications for accessibility needs, and 
recreation. Easter Seals is positioned to offer military and veterans 
systems of care with viable options to support and augment current 
transition and reintegration efforts. Additionally, Easter Seals has 
former servicemembers in leadership positions to guide program 
development and to train staff on how to be attuned to military and 
veteran cultural issues. In fact, Easter Seals has made Military and 
Veterans Initiatives a foundational pillar of Vision 2010, which is the 
guiding mission for the organization's current work and resource 
allocation priorities.

          The vision of our Military & Veterans Initiative is that 
        Easter Seals is a recognized and trusted partner with the 
        Departments of Defense and Veterans Affairs, and is a 
        significant source of essential information, services and 
        support for America's military servicemembers, veterans with 
        disabilities, and their families.

EASTER SEALS CURRENT SERVICE CAPACITY AND EXPERIENCE
    Currently, Easter Seals provides a broad range of community-based 
services and supports--job training & employment, childcare, adult day 
services, medical rehabilitation, mental health services, 
transportation, camping & recreation, respite and caregiver services, 
and accessibility solutions and technology for home, work, and 
independent living--to military servicemembers and veterans with 
disabilities, and their families in civilian programs throughout the 
Nation. A summary of a few of these activities follows.
Job Training & Employment
    Historically, Easter Seals has had considerable experience with the 
VA in providing employment related services to veterans with 
disabilities. Our affiliate in Hartford, CT provides vocational 
evaluations and assessments to veterans with disabilities. Easter Seals 
in Middle Georgia provides direct work experience for veterans with 
disabilities. With grant funding from the McCormick Foundation, Easter 
Seals headquarters is developing an educational curriculum to train 
employers on best practices for hiring, retaining, managing and 
accommodating veterans with disabilities, especially those with PTSD, 
TBI, and amputations that are trying to reenter the workforce. A number 
of Easter Seals' corporate partners are pursuing strategies to hire 
veterans with disabilities throughout their organizations nationwide.
Adult Day Services
    Several Easter Seals affiliates have contracts with the VA to 
provide adult day services to older veterans and are exploring 
potential opportunities for veterans with disabilities, specifically 
for younger veterans with significant injuries. Easter Seals Greater 
Washington-Baltimore Region operates a new intergenerational facility 
that delivers comprehensive services in Silver Spring, Md., 
approximately one mile from Walter Reed Medical Center. Plans call for 
the center to have resources for veterans and their families to support 
them during their time Washington, D.C. and in transition to their 
respective hometowns across the country.
Community OneSource <SUP>TM</SUP>
    A significant disconnect in the continuum of care exists between 
active duty recovery at military treatment facilities and post-
discharge reintegration to civilian life and life with a disability for 
servicemembers with disabilities and their families in communities 
nationwide. The report issued by the President's Commission on Care for 
America's Returning Wounded Warriors supports the implementation of a 
comprehensive ``Recovery Plan'' that will help servicemembers obtain 
essential services promptly and in the most appropriate care facilities 
in the Departments of Defense and Veterans Affairs, and civilian 
settings. Easter Seals is responding to the Commission's call to action 
for civilian settings by developing and implementing a ``Community 
OneSource<SUP>TM</SUP>'' reintegration model program.
    Community OneSource<SUP>TM</SUP> is a dynamic national initiative 
that will support successful community reintegration of America's 
wounded, ill or injured servicemembers and veterans and their families. 
The program's approach fosters systems change throughout the country to 
rally and support communities and regions in responding to the needs of 
this deserving population, while specifically establishing points of 
contact that will coordinate and provide services and supports to 
families. Community OneSource<SUP>TM</SUP> leverages, integrates, and 
builds community capacity through convening and collaborative efforts 
amongst Federal, state, and local public and private systems and 
providers of service to meet specific needs for information, 
assistance, case management, system and resource navigation, and 
essential services from active duty demobilization or discharge to 
civilian status and successful community integration.
SUGGESTED IMPROVEMENT AREAS
    Easter Seals recognizes and applauds the good work that the 
Veterans Health Administration (VHA) does for our Nation's veterans 
community. The VHA has 7.8 million veterans enrolled in its health care 
system and provided 5\1/2\ million unique patient visits in 2007. In an 
effort to reach the entirety of today's 23.4 million veterans, Easter 
Seals commends the many and varied communication and outreach 
strategies that VA utilizes to inform its service population. Efforts 
such as active participation in demobilization briefs (Transition 
Assistance Program, Disabled Transition Assistance Program), 
partnerships with Veteran Service Organizations, combined efforts with 
state VA efforts (county outreach coordinators), the implementation of 
online strategies, and the use of traditional media, public service 
announcements, brochures, billboards, and others have heightened public 
awareness and gone far to informing today's veterans of the 
availability of support and care provided through the VA.
    Despite these good efforts, a strategic resource has yet to be 
fully leveraged in this process-- capitalizing on the infrastructure, 
established networks, and grassroots reach of community-based 
organizations such as Easter Seals.

    1.  Collaboration: No one organization can provide all the services 
that an entire segment of a population needs--and the VA cannot be all 
things, to all veterans, in all places. Veterans and their families are 
not all located conveniently near VA facilities, many live in rural 
areas where they are geographically isolated from VA services. 
Additionally, the VA does not maintain a full compliment of services at 
every one of its facilities nationwide, creating service gaps for those 
whose needs cannot be met locally.

            Recommendations: VA should use community-based NGOs as a 
        vehicle for both outreach AND service delivery. The VA must 
        reach out to community-based NGOs to leverage their best 
        practices and service capacity in meeting the needs of veterans 
        and their families in areas where VA services either do not 
        exist, are inaccessible, or are insufficient through 
        partnerships and outsourcing. This would allow the VA to 
        formally recognize the capacity, ability, and desire of the 
        community-based sector to serve veterans and their families. 
        Additionally, VA should develop a strategic plan for teaming 
        with and leveraging the Nation's human service system in 
        meeting their mission.

    2.  NGO Access: Many Federal agencies have an established point of 
contact to facilitate organizational partnerships, learning, and team 
efforts. They serve are liaisons for understanding and supporting the 
organization's strategic vision and service needs. The VA has a Veteran 
Services Organization (VSO) liaison that acts as an entry point for 
accessing to VA internal agencies for the VSOs.

            Recommendation: In support of the VA's Gateway Initiative, 
        VA needs to hire an NGO liaison, VA Ombudsman to fully realize 
        this entry point for interacting with the VA and outside 
        organizations seeking to help veterans. This staff Member would 
        not only understand VA and veteran needs, but also the NGO 
        system--including how to interpret their desire to partner and 
        leverage resources.

    3.  Mobile Vet Centers: The VA has established 50 mobile Vet 
Centers that specifically target veterans in more remote areas where VA 
mental health services do not exist. While Easter Seals applauds the VA 
for thinking outside the box with this initiative, we would ask what 
happens to veteran needs after the mobile Vet Center leaves the 
community.

            Recommendations: The VA should formally partner with local 
        community NGOs like Easter Seals to host the mobile Vet Center 
        during its visit, and contract for services that ensure 
        continuity of care before and after the visit. Then once the 
        mobile Vet Center leaves, the local community based NGO would 
        be able to provide a level of follow up services to the veteran 
        and/or family. Such a partnership should include outreach for 
        VA services conducted by the NGO.

    4.  Younger Veterans: The VHA has taken a number of steps to reach 
younger veterans, initiating age appropriate strategies to accomplish 
this objective. Online efforts such as a section within the VA's Web 
site designed explicitly for Operation Enduring Freedom and Operation 
Iraqi Freedom veterans and My HealtheVet provide useful and relevant 
health care and benefits information. The VA has also initiated 
strategies to leverage the power of web-based social networking to 
reach out to younger veterans, with a growing presence on Facebook, 
informational videos on YouTube and involvement with Second Life. The 
involvement of OEF/OIF coordinators in reintegration events such as 
Stand Downs and Yellow Ribbon Reintegration events also targets getting 
information to today's younger veterans as they seek to shift into 
civilian life.

            Recommendations: While these efforts are both appropriate 
        and strategic, the VA could enhance their outreach efforts to 
        younger veterans through increasing activities designed to 
        target a veteran's family--their parents or spouse. One unique 
        strategy that has proven effective for National Guard Members 
        is Easter Seals New Hampshire's Veterans Count program, where 
        Easter Seals, in partnership with the Guard and New Hampshire's 
        Department of Health and Human Services, initiates contact with 
        Guard Members and their families pre-deployment. The Veterans 
        Count staff then work with these families to prepare them for 
        deployment, support the family while the servicemember is 
        deployed, and then are positioned to support them post-
        deployment because of time invested with the family over the 
        prior 18 to 20 months. Such an approach significantly reduces 
        the likelihood that a veteran will fall the cracks or be lost 
        in the bureaucratic process in their attempts to return to 
        their families. Easter Seals is then able to ensure that the 
        veteran and his or her family is connected with the resources 
        they need to successfully transition back into civilian life. 
        This early intervention model provides a unique boots on the 
        ground approach to outreach and is one that Easter Seals would 
        like to see implemented across the country.

    5.  Older Veterans Strategies: While Easter Seals applauds the 
efforts of the VHA to develop appropriate and targeted approaches to 
reaching younger veterans, we remain concerned that older veterans are 
not receiving similar organizational attention. While some older 
veterans will likely be able to found through younger veteran 
approaches, many of the over 9 million veterans who are 65 and above 
will not benefit from these efforts, particularly those who are low-
income, have limited access to health care or lack access or skills to 
utilize current technologies. This short-coming results in those most 
in need of services and supports being left out or looked over by the 
very system designed to meet their needs.

            Recommendations: VHA should actively pursue a collaborative 
        relationship with the administration on Aging (AoA) and create 
        joint marketing and outreach strategies and materials which 
        leverage the national network of senior services under the 
        authority of AoA. Such a partnership could result in such 
        outreach efforts as including information in Meals on Wheels 
        deliveries about age appropriate veterans benefits for 
        beneficiaries of this AoA service. Additionally, VHA should 
        create partnerships with senior service organizations to 
        utilize their networks across the country to provide 
        information to seniors served by their systems. Further, local 
        VHA facilities such as Vet Centers, Veterans Hospitals and 
        Outpatient Clinics should actively reach out to local Area 
        Agencies on Aging to install outreach strategies within their 
        service delivery mechanisms and facilities such as senior 
        centers or activities buildings.

            Finally, VHA should establish strategic relationships with 
        our Nation's adult day service network, which provides service 
        to over 150,000 seniors daily through a network of over 3,400 
        local centers. While adult day service is a fairly new offering 
        from the VA, being added to the veteran benefit package through 
        the Millennium Health Act 1999, the larger adult day service 
        market has been strong for decades, and projects significant 
        growth in the coming years as our Nation's baby boomers age and 
        desire the services provided by this industry. Many of the 9 
        million senior veterans are likely to need and receive these 
        services. Easter Seals has worked with the VHA for a number of 
        years on promoting the use of ADS within the community of 
        veterans accessing VA services. We have also encouraged the VA 
        to more actively engage the non-VA ADS network as strategic 
        partner that could both extend information about VA benefits 
        and provide quality services to older veterans. Non-VA ADS 
        staff should be trained to identify, refer as appropriate and 
        meet the unique service needs of older veterans; the VA is the 
        logical entity to lead such efforts.

    6.  Insular Culture: Many of the systems and departments providing 
services to veterans within the VA operate in a very insular manner, 
most notably at the local level. Specific functions are carried out in 
silos and stop short of shepherding the veteran to much needed 
additional resources during their community-based transition, continued 
recovery and rehabilitation. Often times Veterans Integrated Service 
Network (VISN) staff reflect this insular operational methodology in 
attitudes concerning the use and value of utilizing local NGOs to meet 
veterans' needs. One significant outcome of this cultural insularity is 
lost opportunity, for the VA to meet its objectives and, sadly, for the 
veteran who either gets lost in the system or cannot access the full 
array of available services in his or her community. More often than 
not, our local affiliates' experience in attempting to partner with the 
local VA is met with initial resistance and then inability to execute.

            Recommendations: The VA must encourage key decision-makers 
        in each VISN to embrace collaborative relationships to meet the 
        needs of veterans within their service delivery region. VHA 
        community leaders should partner with other local community 
        NGOs to help meet the needs of the veterans they serve. Easter 
        Seals offers services and supports that can augment those 
        provided by VHA, especially when the veteran transitions to his 
        or her home community. Additionally, Easter Seals would 
        recommend systemic VA organizational culture change that 
        changes the service delivery approach to veteran-centric.

SUMMARY
    America's warriors serve their country, fully, bravely and without 
question. Now, all Americans must rise together to fulfill our promise 
to care for those who have borne the battle and sacrificed so much, by 
assuring that our veterans have access to the services they need, 
wherever they live. Just as it takes a village to raise a child, so too 
does it take a village to welcome a veteran back home.
    As Executive Vice President of one of the Nation's largest 
nonprofit disability health care organizations, I can say with an 
unwavering confidence that the VA has much to gain by embracing 
community-based organizations, like Easter Seals, in collaborative 
relationships that compliment the current array of Federal and state 
outreach and service efforts to our struggling veterans. It is these 
community-based organizations that hold the infrastructure to help meet 
this urgent need and should be viewed as an ally to further supplement, 
and not supplant, the efforts of the VA. Easter Seals is poised to 
substantially expand assistance to servicemembers and veterans with 
disabilities and their families. We have proven service solutions in 
place or within easy reach to address these immediate and long-term 
needs. The central challenge facing us in bringing needed information, 
services and supports to this population is the limited extent, to 
date, on the part of the Departments of Defense and Veterans Affairs to 
partner and outsource at substantial levels with private, nonprofit 
service providers to seed and sustain financial resources to conduct 
pilot projects and replicate effective models of service delivery 
nationwide that promote success in attaining individual and family 
goals and full community participation.
    As Secretary Shinseki stated earlier this year during his Senate 
confirmation hearing ``. . . three fundamental attributes mark the 
starting point for framing a 21st Century Organization: people-centric, 
result-driven, and forward-looking.'' A 21st Century VA must reach out 
across the table to community-based organizations to leverage best 
practices and local infrastructure in order to provide more effective 
services and supports to America's heroes and their families . . . 
Easter Seals has its hand extended.
    Thank you again for the opportunity to address this Committee and 
for all that you do for our Nation's veterans. I would be pleased to 
respond to any questions that you may have.
                                 <F-dash>
    Prepared Statement of Jeffrey W. Pollard, Ph.D., ABPP, Director,
    Counseling and Psychological Services, George Mason University,
      Fairfax, VA, on behalf of American Psychological Association
    Mr. Chairman and Members of the Subcommittee, please allow me to 
express appreciation for the opportunity to speak on behalf of the 
150,000 members and affiliates of the American Psychological 
Association regarding outreach activities to veterans on college 
campuses. I am the son of a decorated WWII veteran captured on December 
7, 1941, released in September 1945, and buried in Arlington National 
Cemetery. I have spent 30 years working as a psychologist committed to 
the mental and behavioral health of students on college campuses. 
Meeting the needs of the increasing numbers of our Nation's veterans--
particularly on college and university campuses--is extremely 
significant to me.
    Our ability to diagnose and treat combat-related mental and 
behavioral health problems, including depression, traumatic brain 
injury, and post-traumatic stress disorder has improved dramatically in 
recent years. Estimates suggest that between a quarter and a third of 
all veterans returning from Operation Enduring Freedom and Operation 
Iraqi Freedom will display symptoms of a mental disorder within a year 
of leaving military service. Many of these veterans are expected to 
benefit from the new Post-9/11 GI Bill by furthering their education at 
our Nation's colleges and universities. These facts point to the 
important role that colleges and universities must play in our national 
efforts to meet the mental and behavioral health needs of our 
servicemembers and veterans.
    During the past year, George Mason University has been involved in 
a number of important activities to enhance our outreach to military 
personnel and veterans on campus. First, we hired Mr. Michael Johnson 
to serve as our full-time Military and Veterans Liaison in our Military 
and Veterans Office. Mr. Johnson, who has accompanied me to today's 
hearing, is a veteran of the United States Marine Corps, where he 
served for 17 years as both an enlisted Member and an officer. Mr. 
Johnson and his colleagues in the Military and Veterans Office 
currently serve approximately 1,000 active duty, reserve, National 
Guard and veteran students, offering assistance and information 
regarding issues such as veteran services and academic counseling, as 
well as information about the many benefits to which they are entitled 
through state and Federal Government programs. The office also assists 
veterans in adapting to collegiate life, connecting them to each other, 
and supporting them as they pursue their studies.
    In addition, George Mason University has recently completed a needs 
survey of our military and veteran student population and established 
connections between the new Military and Veterans Liaison and virtually 
every component within the university. We have also established the 
Mason Military Outreach group, which is a collaboration of students, 
faculty and staff in support of our servicemembers, veterans, and their 
families. Further, the Mason Veteran Peers (MVP) initiative, involves a 
group of veterans who are working with Counseling & Psychological 
Services to provide peer support to veteran students.
    Last month, George Mason University was one of only 20 institutions 
of higher education awarded a ``Success for Veterans Award Grant'' 
sponsored by the American Council on Education and the Wal-Mart 
Foundation. This $100,000 grant will help George Mason University's 
Military and Veterans Office evolve further into a comprehensive, 
coordinated one-stop resource and support center to ensure academic, 
psychological, and transition support. We are grateful for this award. 
However, like most grants, it will not cover the predicted level of 
need, and it is time limited. Furthermore, our university may be unable 
to continue the program upon completion of the grant. Unfortunately, 
servicemembers and veterans attending colleges and universities that 
have not received such grant funding will not be able to benefit from 
the additional support to aid in the successful completion of their 
academic work.
    Just as the community mental health system is stretched far too 
thin, so are college and university mental health resources. In fact, 
campus mental health faces significant systemic challenges, including 
an insufficient number of service providers, such as psychologists, 
psychiatrists, and case managers. Funding for colleges and universities 
to provide the specialized mental and behavioral health care required 
by many servicemembers and veterans is unavailable. As more 
servicemembers and veterans are utilizing college and university mental 
health services, these facilities are experiencing the strain of 
increasing caseloads and case management needs.
    Data indicate that students on college and university campuses are 
increasingly arriving with more severe preexisting mental and 
behavioral health problems or developing these health concerns during 
their college careers. The increasing civilian mental and behavioral 
health needs on campus make it even more challenging for colleges and 
universities to provide sufficient services and supports for the 
growing population of servicemembers and veterans on campus.
    While we at George Mason University and our colleagues at colleges 
and universities around the country have been taking important steps to 
reach out to servicemembers and veterans on campus, much work remains 
ahead. I would like to provide a few recommendations that may help our 
institutions of higher learning to ensure that we are doing all that we 
can to meet the mental and behavioral health needs of our military and 
veteran student population.
    First, sufficient resources must be made available to support 
targeted efforts on campus to address mental and behavioral health 
needs among servicemembers and veterans, including risk of suicide. In 
recent years, some important Federal initiatives have been created 
through the Substance Abuse and Mental Health Services Administration 
(SAMHSA) to address the national problem of increased mental and 
behavioral health concerns on campus, including suicide.
    While these SAMHSA grants currently support education and outreach 
efforts related to suicide prevention on college and university 
campuses, there are currently only 49 programs in place to create 
greater awareness about suicide and strengthen suicide prevention 
efforts. Much more needs to be done. Initiatives are underway to enable 
SAMHSA to support direct services for students on campus, an increasing 
number of whom will be servicemembers and veterans, so that the full 
range of their mental and behavioral health needs can be met.
    Senators Durbin and Collins and Representative Schakowsky have 
introduced the Mental Health on Campus Improvement Act (S. 682/H.R. 
1704) and its programs will complement SAMHSA's Campus Suicide 
Prevention program to offer the full range of prevention and 
intervention services currently needed on college and university 
campuses. In addition, this legislation calls on grant applicants to 
include a plan, when applicable, to meet the specific mental and 
behavioral health needs of veterans attending institutions of higher 
education. This bill would also establish a College Campus Task Force, 
which includes representation from the Department of Veterans Affairs, 
to discuss mental and behavioral health concerns on college and 
university campuses.
    Second, continuing education and training opportunities must be 
readily available for college and university mental and behavioral 
health professionals regarding some of the unique deployment, 
reintegration, and readjustment issues facing servicemembers, veterans, 
and their families. Both the Department of Defense (DoD) and the 
Department of Veterans Affairs (VA) have unique knowledge and expertise 
in this domain. I recently attended a week-long training conducted by 
the DoD Center for Deployment Psychology in which leading experts in 
the field provided critical training regarding the deployment cycle, 
trauma and resilience, behavioral health care for the severely injured, 
and the impact of deployment on families. These are high quality 
training programs that are worthy of continued attention and support.
    Third, we must develop mechanisms to conduct appropriate outreach 
to servicemembers and veterans who are beginning their postsecondary 
education online while deployed or upon their return from service. Such 
online education opportunities may present unique challenges for our 
military and veteran students, not because these education programs are 
unworthy or ineffective, but because of their potential isolating 
effect. Servicemembers and veterans who are enrolled in online 
education programs and experiencing mental and behavioral health 
problems are often more isolated than their on-campus colleagues, and 
this isolation can be contraindicated for their healthy readjustment 
and recovery.
    APA and the psychology community looks forward to continuing to 
work with Congress, the VA, the DoD, and the veterans service community 
to welcome home our men and women in uniform and ensure that they 
receive the mental and behavioral health services and supports--on 
college and university campuses and in the larger community--that they 
have so honorably earned.

                                 <F-dash>
   Prepared Statement of Paul J. Hutter, Chief Officer; Legislative,
       Regulatory, and Intergovernmental Affairs, Veterans Health
          Administration, U.S. Department of Veterans Affairs
    Mr. Chairman and Members of the Subcommittee, thank you for 
providing me this opportunity to discuss the Veterans Health 
Administration's (VHA's) outreach activities to Veterans. I am 
accompanied today by Ev Chasen, VHA's Chief Communications Officer, 
John Brown, Director of the VHA Operation Enduring Freedom and 
Operation Iraqi Freedom (OEF/OIF) Outreach Office, and Emily Smith, 
Deputy Assistant Secretary for Intergovernmental Affairs, Office of 
Public and Intergovernmental Affairs. VA's mission is to care for those 
who have borne the battle--to honor those who have worn the uniform by 
providing them the highest quality health care and benefits possible. 
This mission can only be accomplished when Veterans know the full range 
of services we offer. VA is committed to reaching out to Veterans and 
their families where they are to support these ends; this includes not 
only reaching into rural communities, but entering virtual communities 
and establishing connections there as well. My testimony today will 
highlight four forms of outreach VHA is conducting: direct, traditional 
outreach to separating servicemembers; program-specific outreach; 
outreach to rural areas; and outreach using new technologies.
Outreach to Separating Servicemembers
    VHA currently maintains a variety of programs to respond to the 
specific needs of separating OEF/OIF servicemembers to assist them in 
transitioning from military service to Veteran status. The Department 
of Veterans Affairs (VA) and the Department of Defense (DoD) have 
established a comprehensive, standardized enrollment process at 60 
demobilization sites (15 Army, 3 Navy, 3 Marines, 3 Coast Guard and 36 
Air Force). Through this process, VA has contacted more than 41,000 
Members of the Reserve and National Guard and enrolled more than 38,000 
of them for VHA health care. DoD provides VA with dates, numbers of 
servicemembers demobilizing and locations for demobilizing events. At 
these events, VHA staff representatives from the local VA medical 
center, benefits specialists and Vet Center counselors provide 
standardized 45-minute briefings during mandatory demobilization 
events. During the briefing, VA representatives provide demobilizing 
servicemembers information about health care enrollment and 
eligibility, including the most recent expansion extending VA health 
care enrollment period to 5 years to those servicemembers who served in 
combat following their separation from active duty. They are also 
educated about the period of eligibility for dental benefits, which 
Congress recently extended from 90 days to 180 days following 
separation from service, through the National Defense Authorization Act 
for Fiscal Year 2008.
    VA streamlined this enrollment process and, during the 
demobilization events, VA representatives show Veterans how to complete 
the Application for Health Benefits (1010EZ). This begins the 
enrollment process for VA health care. VHA staff members also discuss 
how to make an appointment for an initial examination for service-
related conditions and answer questions about the enrollment process. 
VA representatives collect the completed forms at the end of each 
session. VA staff at the supporting facility match the 1010EZ with a 
copy of the Veteran's DD Form 214, the discharge papers. Presently, 
data from these forms are entered into the Vista health record system. 
An email is sent to the Veteran's preferred facility to complete the 
enrollment. A new process has been developed through a pilot program at 
Ft. Bragg to overnight all records from each of the 60 sites to VA's 
Health Eligibility Center to complete the enrollment process. A letter 
is then sent from the Health Eligibility Center to the Veteran 
verifying their enrollment.
    In response to the growing numbers of Veterans returning from 
combat in OEF/OIF, the Vet Centers initiated an aggressive outreach 
campaign to welcome home and educate returning servicemembers at 
military demobilization and National Guard and Reserve sites. Through 
its community outreach and brokering efforts, the Vet Center program 
also provides many Veterans the means of access to other VHA and VBA 
programs. To augment this effort, the Vet Center program recruited and 
hired 100 OEF/OIF Veterans to provide the bulk of this outreach to 
their fellow Veterans. To improve the quality of its outreach services, 
in June 2005, the Vet Centers began documenting every OEF/OIF Veteran 
who received outreach services. The program's focus on aggressive 
outreach activities has resulted in the provision of timely Vet Center 
services to significant numbers of OEF/OIF Veterans and family members.
    Every VA medical center has established an OEF/OIF Program. The 
Program Manager, usually a social worker or nurse, manages programs for 
OEF/OIF Veterans, coordinates the efforts of clinical case managers and 
Transition Patient Advocates, links with military treatment facilities 
to ease transfers of patients and works with the Veterans Benefits 
Administration (VBA) to track claims. Each VISN has also identified an 
OEF/OIF Program Manager to coordinate inter-facility issues and 
practices. OEF/OIF case managers initiate contact with patients and 
families before they transfer from a military treatment facility (if 
they have received care there, otherwise, they work with patients and 
their families as they present for care) and assist an 
interdisciplinary team assigned to treat the Veteran's medical needs. 
The OEF/OIF case manager is responsible for planning and coordinating 
all of the patient's health care needs.
    In May 2008, VA began a Veteran Call Center Initiative to reach out 
to OEF/OIF Veterans who separated between FY 2002 and December 2008. We 
are now reaching out to Veterans who have separated through March 2009. 
The Call Center representatives inform Veterans of their benefits, 
including enhanced health care enrollment opportunities and determine 
if VA can assist in any way. This effort initially focused on 
approximately 15,500 Veterans VA believed had injuries or illnesses 
that might need care management. The Call Center also contacted any 
combat Veteran who had never used a VA medical facility before. Almost 
38 percent of those we spoke with requested information or assistance 
as a result of our outreach. The Call Center Initiative continues 
today, focusing on those Veterans who have separated since 2001. As of 
May 6, 2009, VA has called 660,000 Veterans and spoken with more than 
160,000 of them. We have sent almost 36,000 requested information 
packages to Veterans.
    Another area in which VA is supporting OEF/OIF transition is 
through the Yellow Ribbon Reintegration program. VA has assigned a 
full-time liaison with the Yellow Ribbon Reintegration Program office 
in DoD to facilitate VA support of the development and implementation 
of the program. The Yellow Ribbon Reintegration Program is currently 
active in 54 states and territories, and engages servicemembers and 
their families during the pre-, during and post-deployment stages, 
including 30, 60, and 90 days after deployment. At the local level, VA 
supported 275 Reserve and Guard Yellow Ribbon Events during FY 2008 and 
through mid-February 2009. A total of 39,000 servicemembers have 
attended these events, along with 25,000 members of their families.
    VHA has been providing support to DoD's Reserve and National Guard 
(RC) Post-Deployment Health Reassessment (PDHRA) Initiative since its 
beginning in November 2005. VA has supported over 1,850 PDHRA events at 
local Reserve and National Guard Units along with supporting referral 
efforts from DoD's 24/7 PDHRA Call Center operation. The RC PDHRA 
initiative has generated over 57,000 referrals to VA medical centers 
and over 24,000 referrals to Vet Centers during this time.
    For severely injured Veterans and servicemembers, VHA has stationed 
27 social work or nurse case manager liaisons at 13 military treatment 
facilities across the country to identify and address the patient's 
clinical needs as they transfer from a DoD facility to a VA facility. 
Similarly, VA houses approximately 90 military liaisons in VHA 
facilities to provide on-site, non-clinical support for Veterans or 
servicemembers at VA's Polytrauma facilities and other locations.
    In October 2007, VA partnered with DoD to establish the Joint VA/
DoD Federal Recovery Coordination Program (FRCP). Federal Recovery 
Coordinators identify and integrate care and services for the seriously 
wounded, ill, and injured servicemember, Veteran, and their families 
through recovery, rehabilitation, and community reintegration. The FRCP 
is intended to serve all seriously injured servicemembers and Veterans, 
regardless of where they receive their care. The central tenet of this 
program is close coordination of clinical and non-clinical care 
management across the lifetime continuum of care.
Program-Specific Outreach
    VHA's program offices and facilities also engage in outreach in 
their own areas in coordination to increase awareness of benefits and 
services they offer. VA employs management tools to ensure control and 
oversight of promotion efforts through coordinated messages with valid 
and up-to-date information. VHA's Chief Business Office is undertaking 
efforts to increase awareness of the Universal Health Service Plan task 
force recommendations, including a streamlined health benefits 
application web portal and other robust communication products.
    Perhaps the most notable example of program-specific outreach VHA 
has done is the Suicide Prevention public service announcements (PSAs) 
featuring Gary Sinise and Deborah Norville. In the 6 months between 
October 13, 2008 and April 13, 2009, the PSA featuring Gary Sinise was 
broadcast more than 8,700 times by 155 stations in almost 100 markets. 
During this same time period, VA's Suicide Prevention Hotline (1-800-
273-TALK) received approximately 50,000 calls across the Nation, an 
increase of roughly 25 percent based on the previous 6 months when the 
Hotline received approximately 40,000 calls. Last year, VA advertised 
the Suicide Prevention Hotline on buses and metro trains in the 
Washington, D.C. area, resulting in a significant increase in calls to 
the hotline from the area. This year, we have begun advertising in 
Spokane, WA, and will soon advertise on public transit systems in the 
Miami, Los Angeles, San Francisco/Oakland, Phoenix, Las Vegas and 
Dallas metropolitan areas (all locations where the suicide rate among 
Veterans is greater than the national average). In addition, VA is 
working with a company to purchase advertisements on 20,000 buses 
nationwide.
    More broadly, VA could not serve Veterans to the degree it does 
without the immeasurable help of Veterans Service Organizations (VSOs), 
faith-based and community groups. VA maintains constant contact and 
holds regular meetings with VSOs and organizations such as the Knights 
of Columbus, the American Red Cross, and the Salvation Army (among 
others) to provide information about VA's programs and offerings while 
soliciting feedback about concerns present in the community. Working 
with these community partners helps significantly expand VA's reach to 
millions of people who may not otherwise hear of our offer of care and 
service.
    Our facilities also conduct local outreach that, while essential, 
often goes unheralded. These efforts are possible because of the 
dedicated work of VA professionals who have established relationships 
with local communities, and their work continue to pay dividends. For 
example, in April alone:

    <bullet>  The Little Rock VA Medical Center participated in two 
Post-Deployment Health Assessments for Members of the 39th Infantry 
Brigade of the Arkansas Army Guard; of the more than 850 soldiers 
screened, we initiated 252 new case appointments;
    <bullet>  The West Palm Beach VA Medical Center participated in an 
outreach activity at the Palm Beach Community College, providing 
information to students who are Veterans on enrollment, benefits and 
employment;
    <bullet>  The VA Central Texas Health Care System joined the Family 
Readiness Group of the 126th Forward Surgical Team for a welcome home 
celebration at Fort Hood as the Unit returned from a tour in 
Afghanistan;
    <bullet>  The VA Palo Alto's Polytrauma Rehabilitation Center and 
the Men's Trauma Recovery Program held a small town hall meeting for 
all active duty soldiers being cared for in these programs, providing 
information on Medical Boards and other DoD issues related to their 
time at VA;
    <bullet>  The Indianapolis, Fort Wayne and Evansville, Indiana 
Medical Centers hosted Post Deployment Health Reassessments for the 
76th Brigade Combat Team for over 2,800 soldiers who returned from Iraq 
in December 2008; and
    <bullet>  The VA San Diego Health Care System participated in a 
demobilization briefing at Camp Pendleton that approximately 800 
Marines attended.

    Mr. Chairman, these are but a few of the many actions taken by VA 
staff Members to inform Veterans and to establish contact with them. I 
highlight these cases not to draw special attention to these facilities 
or any specific program, but as evidence of a trend too often missed. 
VHA Directive 2007-017, enacted in May 2007, requires each VA medical 
center to host an annual ``Welcome Home'' event for OEF/OIF Veterans 
and active duty servicemembers, their families, and the community at 
large. These events are well-attended and offer health screenings, 
benefits information, and increase awareness about programs such as 
VA's Safe Driving Initiative.
    The Department's Safe Driving Initiative is an innovative effort 
designed to address an important concern. VA has determined that motor 
vehicle crashes are a leading cause of death among combat Veterans 
during the first years after their return home, and is working with the 
Department of Transportation and DoD to reduce these accidents. We have 
begun a new program designed to identify needed research and to 
increase awareness of the importance of safe driving among newly-
demobilized Veterans. The program has included a summit meeting among 
leading researchers, posters, a soon-to-be-released Public Service 
Announcement featuring race driver Richard Petty, a Web site, and other 
activities. During calendar year 2009, every VA medical center has been 
tasked to hold a safe driving event to inform returning Veterans of the 
need to drive safely.
    Our Vet Centers also provide services and points of access to 
Veterans in communities across the country. Vet Centers welcome home 
Veterans with honor by providing quality readjustment counseling in a 
supportive, non-clinical environment. By the end of FY 2009, VA will 
have 271 Vet Centers and 1,526 employees to address the needs of 
Veterans; any county in the country with more than 50,000 Veterans will 
have services available through a Vet Center. A fleet of 50 Mobile Vet 
Centers are being put into service this year and will provide access to 
returning Veterans and outreach to demobilization military bases, 
National Guard and Reserve locations nationally. This type of outreach 
spans across the range of areas covered today, as these Mobile Vet 
Centers utilize new technologies to reach younger Veterans, those 
immediately separating, those in rural or remote areas, and those in 
need of services.
Rural Health Outreach
    Particularly important to VA is outreach to geographic areas, 
particularly rural and highly rural communities. Both the Office of 
Rural Health (ORH) and Veterans Integrated Service Networks (VISNs) 
participate in outreach efforts for these populations. VISN Rural 
Consultants collaborate with local communities to educate, support case 
management, and increase awareness. Additionally, VA's Rural Health 
Resource Centers serve as regional satellite offices and educational 
repositories to expand and develop relationships with academic 
institutions and a range of other partners in communities across the 
country. VA understands that successful outreach must be tailored to 
local needs and conditions, and one of ORH's primary aims has been to 
support this approach.
    ORH is supporting expansion of the Mental Health Care Intensive 
Care Management-Rural Access Network for Growth Enhancement (MHICM-
Range) Initiative to provide community-based support for Veterans with 
severe mental illness. VA has been adding mental health staff to CBOCs, 
enhancing our capacity to provide tele-mental health services and using 
referrals to Community Mental Health Services and other providers to 
increase access to mental health care in rural areas. ORH collaborated 
with the South Central Mental Illness Research, Education and Clinical 
Center in VISN 16 to fund four research studies investigating clinical 
policies or programs that improve access, quality and outcomes of 
mental health and substance abuse treatment services for rural and 
underserved Veterans.
    VA has also taken the lead in opening new rural health care 
facilities, such as Rural Outreach Clinics. Last September, VA 
announced the opening of 10 new Rural Outreach Clinics this Fiscal 
Year; four of these are currently operational, including sites in 
Houlton, ME; Perry, GA; Juneau, AK; and The Dalles, OR. VA utilizes 
Rural Outreach Clinics to offer services on a part-time basis, usually 
a few days a week, in rural and highly rural areas where there is 
insufficient demand for full-time services or it is otherwise not 
feasible to establish a full-time CBOC. Rural Outreach Clinics offer 
primary care, mental health services, and specialty referrals. Each 
Rural Outreach Clinic is part of a VA network and meets VA's quality 
standards. Veterans use Rural Outreach Clinics as an access point for 
referrals to larger VA facilities for specialized needs.
    VA recently announced a Mobile Health Care Pilot Project in VISNs 
1, 4, 19, and 20. The health care vans associated with this program 
will be concentrated in 24 predominately rural counties, where patients 
would otherwise travel long distances for care. VA is focusing on 
counties in Colorado, Maine, Nebraska, Washington, West Virginia and 
Wyoming. This pilot will collaborate with local communities in areas 
our mobile vans visit to promote continuity of care for Veterans. It 
will also allow us to expand our telemedicine satellite technology 
resources and is part of a larger group of mobile assets. ORH is 
developing evaluation methodologies and measures to determine the 
effectiveness of this program and to identify areas for improvement.
Outreach Using New Technologies
    VHA is not limiting itself to traditional forms of outreach. In 
order to become a 21st century VA, we must add to the past methods used 
in communicating to reach a new generation of Veterans. By fostering 
and creating linkages across offices and throughout the Department, VA 
is harnessing new technology and venues, including Twitter, Second 
Life, Facebook, YouTube, and the television channel MTV to provide 
information to younger Veterans where they are most likely to see it 
and in media familiar to them. We have adapted our Web site to be 
viewable on mobile devices (m.va.gov) so Veterans and others can 
receive up to date information on VA services and locations wherever 
they are. VA is also employing public service announcements to raise 
awareness about VA, and has launched a new initiative to provide 
colleges and universities with information concerning the health care 
needs of returning Veterans. This latter effort provides training and 
education materials for administrators and students to help foster more 
accommodating academic environments for Veterans.
    VA has also created a new Web site for returning Veterans that 
provides useful information about eligibility, benefits, health care, 
and other services (http://www.oefoif.va.gov/). This site also features 
a blog with comments from Veterans and family members (http://
www.blogs.va.gov/returningservicemembers/). We recognize we must 
develop social networking strategies, including nontraditional outlets, 
and a wide variety of new media to communicate VA's message about our 
services.
    These new technologies have even entered into health care delivery. 
One VA facility has begun piloting a program that uses text messaging 
to help Veterans send their home-based blood pressure readings to their 
clinicians. Researchers found Veterans who used text messaging achieved 
their blood pressure goals 2 weeks sooner than those who used other 
methods.
Conclusion
    VA understands different Veterans will receive messages in 
different ways and different times. It is our duty to notify Veterans 
of the repayment our Nation offers in gratitude for the sacrifice they 
have made. We must continue programs that are successful and develop 
new methods when our current measures are insufficient. Our mission is 
to reach out to family members, employers, community stakeholders, 
Reserve and National Guard units and Veterans to make sure they will 
know how to access help when they need it. Thank you again for the 
opportunity to testify. My colleagues and I are prepared to answer any 
questions you may have.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  Statement of Rear Admiral LeRoy Collins, Jr., USNR (Ret.) Executive 
            Director, Florida Department of Veterans Affairs
    Mr. Chairman and distinguished Members of the Subcommittee, thank 
you for the opportunity to provide a statement to address the Veterans 
Health Administration's outreach to veterans.
    Florida has almost 1.8 million veterans. The Florida Department of 
Veterans Affairs (FDVA) is a state veterans' service agency created by 
the Florida Legislature following a successful constitutional 
initiative to authorize this department. We provide information, 
advocacy and quality long term health care services to our veterans. We 
maintain strong positive working relationships with both the Veterans 
Health Administration (VHA) and the Veterans Benefits Administration 
(VBA) leadership in Florida.
    We are an arm of state government which has statutory 
responsibilities concerning state veterans benefits and citizen 
services, as well as service delivery responsibilities representing 
veterans in their dealings with the claims process in VBA. FDVA 
continues to expand veterans' facilities and services in Florida, 
primarily through the growth in the State Veterans Homes program and 
through new outreach programs to contact more of the veteran population 
in Florida. As a result of strong advocacy on behalf of veterans and 
dependents, their economic and health status is improved with benefits 
earned through military service to our Nation. FDVA currently employs 
912 staff members.
    The primary challenge our Veterans Claims Examiners (VCEs) have in 
Florida is timely access to VA information concerning veterans, 
particularly those wounded in combat, returning to our state. Improved 
case information flow to state government is needed and vital to 
improving the timely delivery of state benefits information to these 
warriors and families. Our Florida Seamless Transition Program, the 
first of its kind in the Nation and adopted nationwide by the VA in 
February 2007, has helped, but more must be done. Electronic contact 
information of our state's veterans upon separation would be a 
desirable enhancement (e.g. e-mail address on the DD 214 form).
    Enhanced outreach to veterans in large population states deserves 
more attention and resources to meet the needs of our newest generation 
of veterans. We appreciate the VA's efforts to keep the various state 
departments of veterans' affairs better informed on key topics of 
interest. We hope the VA will provide the states with an electronic 
list of the names, addresses and e-mail addresses of Veterans who claim 
that state as their home of record. Our newest veterans communicate via 
electronic social networking and tend to keep their electronic lines of 
communication consistent. Sharing this vital link is essential.
    We support the transitional efforts of the VA under Secretary of 
Veterans Affairs Eric K. Shinseki. His Veteran-centric approach to 
incorporate new technologies in the operation of the department should 
pay huge dividends, and Florida enthusiastically endorses his focus on 
modernizing outreach. In addition, we hope that the success of the 
Public Service Announcement by actor Gary Sinese on Veteran suicide 
prevention will lead to other high-visibility PSAs on Post-Traumatic 
Stress Disorder and Traumatic Brain Injury.
    Furthermore, we appreciate the VA's response to the Post 9/11 GI 
Bill, but believe the agency should fund and certify campus veterans' 
representatives, as they did following the Vietnam War. These campus 
VET-REPs can help veterans facilitate access to substance abuse and 
mental health services, enrollment in health care, issue resolution, 
claims development and advocacy. The hour is late to get this VET-REP 
effort underway nationwide in time to implement the new G.I. Bill in 
August 2009. FDVA convinced the Florida legislature to approve a VET-
REP position for each state college and university campus, but the 
funding for the initiative eluded us. We believe the VET-REP issue 
needs your attention.
    Thank you for the opportunity to comment. This Subcommittee's 
efforts to improve America's benefits and services to our veterans is a 
noble cause.

                                 <F-dash>
Statement of Hon. Cliff Stearns, a Representative in Congress from the 
                            State of Florida
    Thank you, Mr. Chairman.

    I am pleased to be here this afternoon to examine the status of the 
Veteran Health Administration's outreach efforts to all categories of 
veterans. The VA has a wealth of resources and services available to 
those who served our Nation, but these resources are wasted if no one 
knows about them. Unfortunately, that is what we often hear from our 
constituents and the veteran service organizations that represent them.
    Admiral LeRoy Collins, Jr. (Rear Admiral, U.S. Navy Reserve, 
Retired), who is the Executive Director of the Florida Department of 
Veterans Affairs, has submitted a statement for the record on the 
status of the VHA's outreach to veterans in the State of Florida, and I 
would like to highlight a few of his key points.
    Florida is home to the second largest veterans population in the 
country, which is almost 1.8 million veterans. The goal of the Florida 
Department of Veterans Affairs (FDVA) is to provide information, 
advocacy, and quality long-term health care services to veterans. 
Additionally, the FDVA regularly and effectively communicates with the 
VHA and VBA leadership in Florida. These strong working relationships 
go a long way to ensuring veterans in Florida know about the VA's 
services. However, it would be helpful if the VA could provide all 
states with an electronic list of the names, addresses, and e-mails of 
veterans who claim that state as their home of record. Sharing this 
information is essential to ensuring that claims examiners have timely 
access to key information and can reach specified groups of veterans.
    Importantly, Admiral Collins states that enhanced outreach to 
veterans deserves more attention and resources in order to meet the 
needs of our newest generation of veterans--those returning from Iraq 
and Afghanistan. The VA Secretary should be regularly using national 
media outlets to advertise VA services and draw attention to key health 
issues. Many also believe there is a need for more ``high visibility'' 
public service announcements such as the recent PSA by actor Gary 
Sinese on Veteran Suicide Prevention. The VA should create other 
effective PSAs on Traumatic Brain Injury (TBI) and Post-traumatic 
stress disorder (PTSD) to help erase the stigma associated with these 
increasingly prevalent behavioral disorders.
    The VA should never have to be pushed by Congress to legislate 
outreach efforts. I hope this hearing today affords us the chance to 
have a better dialogue with the VA on the need for differentiated 
outreach strategies to address the dynamic group of veterans in its 
health care system.
                   MATERIAL SUBMITTED FOR THE RECORD

                                     Committee on Veterans' Affairs
                                             Subcommittee on Health
                                                    Washington, DC.
                                                       June 3, 2009
Honorable Eric K. Shinseki
Secretary
U.S. Department of Veterans Affairs
810 Vermont Avenue, NW
Washington, D.C. 20240

Dear Secretary Shinseki:

    Thank you for the testimony of Paul Hutter, Chief Officer for 
Legislative, Regulatory and Intergovernmental Affairs of the Veterans 
Health Administration at the U.S. House of Representatives Committee on 
Veterans' Affairs Subcommittee on Health Oversight Hearing on ``VA 
Medical Care: The Crown Jewel and Best Kept Secret'' that took place on 
May 19, 2009.
    Please provide answers to the following questions by July 15, 2009, 
to Jeff Burdette, Legislative Assistant to the Subcommittee on Health.

    1.  In your testimony you mentioned a pilot program currently being 
conducted at Fort Bragg. In this program, VA seeks to expedite 
enrollment by overnighting records from demobilization sites to VA's 
Health Eligibility Center. Has this program been effective in 
streamlining the enrollment process?
    2.  Your testimony largely centered on outreach efforts targeting 
OEF/OIF veterans.

         a.  What programs does VA have that focus on Vietnam veterans 
        and other such populations?
         b.  How do programs targeting specific veterans groups differ 
        from each other.

    3.  You mentioned that VA has harnessed new technology such as 
Twitter, Second Life, Facebook, and YouTube. Can you elaborate on VA's 
efforts toward utilizing these new mediums?
    4.  Can you talk a bit about how local outreach conducted by VA 
facilities fits into the structure of VA's overall effort? What does 
the central office do to support these local efforts?
    5.  Some VSOs have noted the outreach efforts that will be required 
by VA's upcoming effort to expand enrollment in VHA among veterans in 
priority group 8. Is there a plan in place to notify veterans in this 
group that they may be eligible for enrollment?
    6.  What are the roles and responsibilities with respect to 
outreach for the communications director for VHA? How does this compare 
to the roles and responsibilities of the now defunct office of Deputy 
Undersecretary for Coordination?

    Thank you again for taking the time to answer these questions. The 
Committee looks forward to receiving your answers by July 15, 2009.

            Sincerely,

                                                 MICHAEL H. MICHAUD
                                                           Chairman

                               __________
                        Question for the Record
               The Honorable Michael H. Michaud, Chairman
                         Subcommittee on Health
                  House Committee on Veterans' Affairs
      Department of Veterans Affairs Medical Care: The Crown Jewel
                          and Best Kept Secret
                              May 19, 2009
    Question 1: In your testimony you mentioned a pilot program 
currently being conducted at Fort Bragg. In this program, VA seeks to 
expedite enrollment by overnighting records from demobilization sites 
to VA's Health Eligibility Center. Has this program been effective in 
streamlining the enrollment process?

    Response: The Veteran Health Administration (VHA) Chief Business 
Office (CBO) Health Eligibility Center (HEC) proposed to VHA Outreach 
Office that the HEC provide additional administrative assistance to the 
medical center staff currently engaged in providing demobilization 
(DEMOB) site support. The pilot program which was initiated at Fort 
Bragg, North Carolina, commenced on May 1, 2009, and is expected to run 
through August 31, 2009. The goal of the pilot is to streamline the 
Department of Veterans Affairs (VA) enrollment process, reduce the 
administrative workload of VA's staff and improve Veterans' 
satisfaction with timely enrollment into VA health care. Once the pilot 
program is complete, VA will evaluate its effectiveness and determine 
whether to expand the program nationwide. We expect to make that 
decision by October 1, 2009.
    Since May 1, 2009, the HEC staff has successfully processed all 
enrollment applications submitted from the DEMOB site pilot program at 
Fort Bragg, North Carolina, within 72 hours of receiving these 
applications.

    Question 2(a): Your testimony largely centered on outreach efforts 
targeting OEF/OIF Veterans. What programs does VA have that focus on 
Vietnam Veterans and other such populations?

    Response: VA has developed a great number of initiatives in 
response to the unique health issues and concerns of Veterans of the 
Vietnam War. Perhaps more than for any other U.S. military deployment, 
the Vietnam War generated a lasting and vivid impression among Veterans 
and all Americans about the environmental impact of this war on those 
who served. Today, VA has made it easier for Vietnam Veterans and, in 
some cases, their children to receive benefits and services for any 
illnesses or injuries they suffer that may be related to herbicide 
exposure.
    Eligible Vietnam Veterans have access to VA's comprehensive health 
care system that includes programs specially tailored to their special 
concerns and needs. In 1978, VA established a special health 
examination registry known as the Agent Orange Registry examination, in 
response to mounting concerns about health effects from herbicide 
exposure among Vietnam Veterans. The program offers a medical 
examination at all VA health care facilities, as well as the chance for 
Veterans to discuss their health concerns with a knowledgeable health 
care provider. The Agent Orange Registry is a computerized record of 
these examinations, and as of June 2009, the program has provided for 
more than 542,174 individual Vietnam Veterans, including over 8,000 
women Vietnam War Veterans. Each VA medical center has an environmental 
health clinician responsible for conducting Agent Orange Registry 
examinations, and an environmental health coordinator responsible for 
coordinating the exam and reporting results. Any Veteran who had active 
military service in the Republic of Vietnam between 1962 and 1975, and 
who expresses a concern relating to exposure to herbicides, may 
participate in the registry.
    VA is also working to ensure that all Veterans who served on the 
ground and inland waterways of Vietnam are aware of the conditions for 
which they may be presumptively service-connected. The Veterans 
Benefits Administration (VBA) and VHA are working together to identify 
in-country Vietnam Veterans who have received treatment in a VA 
facility for a condition related to herbicide exposure, but have not 
applied for disability compensation. Last year, approximately 28,000 
``in-country'' Vietnam Veterans were contacted and provided with 
information on the presumptive disabilities associated with agent 
orange exposure and where to apply for VA benefits for these 
conditions.
    Since the end of the Vietnam War, VA has developed many ways to 
communicate with Veterans about these issues, including:

    <bullet>  The Agent Orange Review newsletter mailed to every 
Vietnam Veteran who has used VA. In 2004, the circulation of the 
newsletter increased to nearly 800,000 copies mailed to Veterans' 
homes. The last newsletter was published in August 2008 and a new one 
is in preparation and will be published this summer. It is also 
available on our Web site;
    <bullet>  An agent orange Web site;
    <bullet>  A national toll-free telephone number;
    <bullet>  The popular Federal Benefits for Veterans and Dependents 
and Survivors booklet, and
    <bullet>  A series of agent orange fact sheets, agent orange 
brochures, and agent orange posters distributed throughout VA.

    VA's Web site for agent orange-related matters is at www.va.gov/
AgentOrange, which has virtually all of VA's outreach material for 
Vietnam Veterans, including all the newsletters, brochures and posters, 
as well as information about special programs such as the Agent Orange 
Health Registry.
    Similar programs are in place for radiation-exposed Veterans, and 
Gulf War Veterans, as well as Veterans of Operation Enduring Freedom 
and Operation Iraqi Freedom (OEF/OIF).

    Question 2(b): How do programs targeting specific Veterans groups 
differ from each other?

    Response: The programs only differ in areas of concentration, i.e., 
radiation vs. agent orange. VA programs may target specific populations 
of Veterans, for example, minority and women Veterans, but benefits and 
services are open to eligible Veterans from every period of service. 
Eligible Veterans of every era have comprehensive health care benefits 
through VA from basic primary care issues to the most extensive 
traumatic brain injury care network in the world. Disability 
compensation, education, home loan guaranty, insurance and vocational 
rehabilitation are also available to Veterans who met the entitlement 
criteria.

    Question 3: You mentioned that VA has harnessed new technology such 
as Twitter, Second Life, Facebook, and YouTube. Can you elaborate on 
VA's efforts toward utilizing these new mediums?

    Response: VA began establishing a Web 2.0 presence on Facebook, 
YouTube and Second Life in May 2008. The Second Life virtual world 
presence was recently enhanced from a small ``office'' to an ``island'' 
in May 2009. VA currently has three official Facebook accounts, VA, VHA 
and a Welcome Home (event) page, with plans to stand-up a fourth 
account for VBA in the near future. VA also has one official YouTube 
channel with over 50 videos posted and 1,076 subscribers to date. A 
Twitter account was recently enabled in May 2009 and VA currently has 
570 followers which include many National Veterans Service 
Organizations. There is also a returning servicemember blog and a tag 
cloud on www.oefoif.va.gov.
    VA is currently planning to redesign its Web sites over the next 2 
fiscal years. The redesign project will be focused primarily on content 
and usability. Improvements to the Web site will allow additional 
mediums of communication or Web 2.0 tools to be added.

    Question 4: Can you talk a bit about how local outreach conducted 
by VA facilities fits into the structure of VA's overall effort? What 
does the Central Office do to support these local efforts?

    Response: Aside from the more obvious support of staffing, VHA's 
central office provides detailed guidelines, up-to-date information and 
coordination of research for the staff in the field who reach out to 
our Veterans each day. Nearly 20 different program offices function 
within VA's central office to concentrate on issues of homelessness, 
rural health, minority and women Veterans, research, quality and 
safety, and other programs designed to acquaint Veterans with the 
services and benefits offered by the Department. These offices work 
directly with field staff in order to ensure that Veterans in local 
communities have the most relevant and updated information and are 
treated with proven evidence-based practices.
    To further enhance the coordination between central office and the 
field stations, the Office of Public and Intergovernmental Affairs 
(OPIA) is responsible for overseeing and coordinating all outreach 
activities Department-wide.

    Question 5: Some VSOs have noted the outreach efforts that will be 
required by VA's upcoming efforts to expand enrollment in VHA among 
Veterans in priority group 8. Is there a plan in place to notify 
Veterans in this group that they will be eligible for enrollment?

    Response: Yes. VA is engaged in the implementation of a 
communications and outreach strategy that leverages technology and 
partnerships with other stakeholders to educate Veterans and their 
families about Priority 8 eligibility.

    <bullet>  Direct Veteran Contact:  VA has contacted, by mail, the 
approximately 420,000 Veterans who previously tried to enroll for 
health care benefits but were rejected because of their income level. 
The letter explains that eligibility requirements have changed and 
provides Web-based and paper enrollment options for Veterans to use. VA 
will also use micro-targeting to mail to an additional 150,000 Veterans 
who have not previously applied but live in low-income neighborhoods. 
If this test mailing is successful, VA will expand the universe to 
reach out to more Veterans using additional micro targeting criteria.
    <bullet>  Web Content:  VA has developed and released Web content 
and tools to help communicate with Veterans, their families, and other 
stakeholders. This content has been deployed to VA's Web sites, other 
Government sites, and sites such as Wikipedia.
    <bullet>  Expanded Web Outreach and Communications:  VA is 
currently developing additional approaches to perform targeted Web-
based outreach and communications.
    <bullet>  Media:  VA has placed op-eds and Web-based stories about 
Priority 8 in targeted media outlets. VA is also using traditional 
media sources and bloggers to communicate. VA is in the process of 
contracting with a public relations firm to develop additional outreach 
strategies to reach Veterans who might be eligible. Strategies will 
likely include a highly targeted, paid media campaign.
    <bullet>  Partnering with Veteran Service Organizations (VSO), 
State Veterans Affairs Directors, County Veterans Service Officers, and 
Other Stakeholders:  VA has partnered with stakeholders to communicate 
with the Veterans they serve. VA has educated stakeholders about the 
new eligibility criteria and placed content, links, and even Web-based 
eligibility calculators on its Web sites. VA is in the process of 
identifying other stakeholders to partner with. For example, the Office 
of Congressional and Legislative Affairs will provide a widget and an 
eligibility calculator that Members of Congress can post on their own 
Web sites.

    Question 6: What are the roles and responsibilities with respect to 
outreach for the communications director for VHA? How does this compare 
to the role and responsibilities of the now defunct office of Deputy 
Undersecretary for Coordination?

    Response: VHA's chief communications officer supports, OPIA in the 
public affairs aspects of VA outreach, including news releases, 
internet communications and the possible use of paid advertisements to 
reach Veterans of all eras. VHA's Office of Legislative, Regulatory and 
Intergovernmental Affairs (OLRIA) is responsible for outreach to OEF/
OIF Veterans. The chief communications officer manages overall outreach 
policy and encourages VHA field organizations to implement advertising 
and direct contact campaigns to ensure that the opportunities for 
benefits and services are communicated to all Veterans. VHA's OLRIA 
organization manages 11 different outreach programs focused on 
returning OEF/OIF Veterans to ensure their awareness of VA benefits and 
services, and to provide a ``warm hand off'' to Veterans from military 
health care to VA health care. These three offices have worked in the 
past, and will continue to do so in the future, to prepare and 
implement plans to reach out to Veterans and their families, informing 
them of the health care benefits they have earned. VA is unfamiliar 
with any position titled the ``Deputy Undersecretary for Coordination'' 
currently or in the recent past.

                                 <all>

</pre></body></html>
